<html>
<title> - AN EXAMINATION OF THE FEDERAL AVIATION ADMINISTRATION'S SAFETY AND MODERNIZATION PERFORMANCE</title>
<body><pre>[Senate Hearing 110-755]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-755
 
  AN EXAMINATION OF THE FEDERAL AVIATION ADMINISTRATION'S SAFETY AND 
                       MODERNIZATION PERFORMANCE 

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     APRIL 17, 2008--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

46-120 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




































                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Transportation and Housing and Urban Development, and 
                            Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        CHRISTOPHER S. BOND, Missouri
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
PATRICK J. LEAHY, Vermont            SAM BROWNBACK, Kansas
TOM HARKIN, Iowa                     TED STEVENS, Alaska
DIANNE FEINSTEIN, California         PETE V. DOMENICI, New Mexico
TIM JOHNSON, South Dakota            LAMAR ALEXANDER, Tennessee
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
                                     THAD COCHRAN, Mississippi (ex 
                                         officio)

                           Professional Staff

                              Peter Rogoff
                          Meaghan L. McCarthy
                             Rachel Milberg
                            Jonathan Harwitz
                         Jon Kamarck (Minority)
                      Matthew McCardle (Minority)
                        Ellen Beares (Minority)

                         Administrative Support

                              Teri Curtin























                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Patty Murray........................     1
Opening Statement of Senator Christopher S. Bond.................     3
Statement of Senator Frank R. Lautenberg.........................     6
Statement of Senator Dianne Feinstein............................     7
Statement of Hon. Robert A. Sturgell, Acting Administrator, 
  Federal Aviation Administration, Department of Transportation..     7
Runway Safety....................................................     8
NextGen..........................................................     8
Air Traffic Controller Staffing..................................     9
Airport Improvement Program......................................     9
Recent Events....................................................     9
Prepared Statement of Hon. Robert A. Sturgell....................    10
Fiscal Year 2009 Budget..........................................    10
Safety and Operations............................................    11
Air Traffic Organization.........................................    11
Grants in Aid for Airports (AIP).................................    12
Research, Engineering, and Development (RE&D)....................    12
Controller Workforce.............................................    12
Increased Safety.................................................    13
Increasing Capacity..............................................    15
NextGen..........................................................    16
Environmental Stewardship........................................    17
International Leadership.........................................    17
Security.........................................................    18
Organizational Excellence........................................    18
Statement of Hon. Calvin L. Scovel III, Office of the Inspector 
  General, Department of Transportation..........................    19
    Prepared Statement...........................................    21
Strengthening FAA's Oversight of the Aviation Industry...........    21
Keeping Existing Modernization Projects on Track, Reducing Risk 
  With NextGen, and Setting Realistic Expectations...............    23
Addressing Attrition Within Two of FAA's Critical Workforces.....    24
Strengthening FAA's Oversight of the Aviation Industry...........    24
Keeping Existing Modernization Programs on Track, Reducing Risks 
  With NextGen, and Setting Realistic Expectations...............    29
Addressing Attrition Within FAA's Critical Workforces............    34
Safety...........................................................    39
Airworthiness Directive..........................................    39
Southwest Airlines...............................................    40
Airworthiness Directives.........................................    42
Senior Personnel Rotation........................................    44
Airworthiness Directives.........................................    44
Air Traffic Controller Staffing at LAX...........................    44
San Francisco International Airport..............................    46
Cell Phones on Planes............................................    47
Aviation Safety..................................................    47
Low Fuel Landings at Newark-Liberty Airport......................    48
Runway Safety....................................................    49
Philadelphia Airspace............................................    49
Letters From Robert A. Sturgell 

<SUP><INF>cing safety is consistent and effective, but instead the FAA has been inconsistent and erratic and passengers are angry and upset.

I21I am very concerned. I and the Department of Transportation's Inspector General have been sounding the alarm for years about problems in the FAA's Flight Standards Program, yet we have seen repeated problems. Most recently, we learned that managers at the FAA allowed Southwest Airlines to violate Federal safety regulations and it punished the safety inspector who tried to bring the violations 6120.000 light.
 light.
I21Some observers inside the Government have tried to blame it all on a few bad apples at one inspection office in Dallas, Texas, but I don't buy it, and I want to know how the FAA will ensure to the flying public that it is meeting its core duty to enforce safety.

I21For 4 of the last 7 years, this subcommittee has provided more money for safety oversight than the Bush administration or its FAA administrators have requested. It didn't matter if Senator Shelby was chairman, if I was chairman or if Senator Bond was chairman. We all heard the same concerns raised by the Inspector General, the Government Accountability Office and others, and
  <SUP>kies in our country each year need to be sure that the agency in charge of enforcing safety is consistent and effective, but instead the FAA has been inconsistent and erratic and passengers are angry and upset.
  
  I21I am very concerned. I and the Department of Transportation's Inspector General have been sounding the alarm for years about problems in the FAA's Flight Standards Program, yet we have seen repeated problems. Most recently, we learned that managers at the FAA allowed Southwest Airlines to violate Federal safety regulations and it punished the safety inspector who tried to bring the violation46120.000s  light.
s  light.
  I21Some observers inside the Government have tried to blame it all on a few bad apples at one inspection office in Dallas, Texas, but I don't buy it, and I want to know how the FAA will ensure to the flying public that it is meeting its core duty to enforce safety.
  
  I21For 4 of the last 7 years, this subcommittee has provided more money for safety oversight than the Bush administration or its FAA administrators have requested. It didn't matter if Senator Shelby was chairman, if I was chairman or if Senator Bond was chairman. We all heard the same concerns raised by the Inspector General, the Government Accountability Office and others, and
  <SUP><INF>of this disruption, the millions of passengers who take to the skies in our country each year need to be sure that the agency in charge of enforcing safety is consistent and effective, but instead the FAA has been inconsistent and erratic and passengers are angry and upset.
  
  I21I am very concerned. I and the Department of Transportation's Inspector General have been sounding the alarm for years about problems in the FAA's Flight Standards Program, yet we have seen repeated problems. Most recently, we learned that managers at the FAA allowed Southwest Airlines to violate Federal safety regulations and it punished the safety inspector who tried to bring the violation46120.000s  light.
s  light.
  I21Some observers inside the Government have tried to blame it all on a few bad apples at one inspection office in Dallas, Texas, but I don't buy it, and I want to know how the FAA will ensure to the flying public that it is meeting its core duty to enforce safety.
  
  I21For 4 of the last 7 years, this subcommittee has provided more money for safety oversight than the Bush administration or its FAA administrators have requested. It didn't matter if Senator Shelby was chairman, if I was chairman or if Senator Bond was chairman. We all heard the same concerns raised by the Inspector General, the Government Accountability Office and others, and
  ee airlines have declared bankruptcy, and 2 days ago, we learned of a planned mega merger to create the Nation's largest U.S. airline and more mergers could be announced soon.
  
  I21With all of this disruption, the millions of passengers who take to the skies in our country each year need to be sure that the agency in charge of enforcing safety is consistent and effective, but instead the FAA has been inconsistent and erratic and passengers are angry and upset.
  
  I21I am very concerned. I and the Department of Transportation's Inspector General have been sounding the alarm for years about problems in the FAA's Flight Standards Program, yet we have seen repeated problems. Most recently, we learned that managers at the FAA allowed Southwest Airlines to violate Federal safety regulations and it punished the safety inspector who tried to bring the violations  light.
s  light.
  I21Some observers inside the Government have tried to blame it all on a few bad apples at one inspection office in Dallas, Texas, but I don't buy it, and I want to know how the FAA will ensure to the flying public that it is meeting its core duty to enforce safety.
  
  I21For 4 of the last 7 years, this subcommittee has provided more money for safety oversight than the Bush administration or its FAA administrators have requested. It didn't matter if Senator Shelby was chairman, if I was chairman or if Senator Bond was chairman. We all heard the same concerns raised by the Inspector General, the Government Accountability Office and others, and
  <SUP><INF>cing safety is consistent and effective, but instead the FAA has been inconsistent and erratic and passengers are angry and upset.
  
  I21I am very concerned. I and the Department of Transportation's Inspector General have been sounding the alarm for years about problems in the FAA's Flight Standards Program, yet we have seen repeated problems. Most recently, we learned that managers at the FAA allowed Southwest Airlines to violate Federal safety regulations and it punished the safety inspector who tried to bring the violation46120.000s  light.
s  light.
  I21Some observers inside the Government have tried to blame it all on a few bad apples at one inspection office in Dallas, Texas, but I don't buy it, and I want to know how the FAA will ensure to the flying public that it is meeting its core duty to enforce safety.
  
  I21For 4 of the last 7 years, this subcommittee has provided more money for safety oversight than the Bush administration or its FAA administrators have requested. It didn't matter if Senator Shelby was chairman, if I was chairman or if Senator Bond was chairman. We all heard the same concerns raised by the Inspector General, the Government Accountability Office and others, and
  <SUP><INF>try each year need to be sure that the agency in charge of enforcing safety is consistent and effective, but instead the FAA has been inconsistent and erratic and passengers are angry and upset.
  
  I21I am very concerned. I and the Department of Transportation's Inspector General have been sounding the alarm for years about problems in the FAA's Flight Standards Program, yet we have seen repeated problems. Most recently, we learned that managers at the FAA allowed Southwest Airlines to violate Federal safety regulations and it punished the safety inspector who tried to bring the violation46120.000s  light.
s  light.
  I21Some observers inside the Government have tried to blame it all on a few bad apples at one inspection office in Dallas, Texas, but I don't buy it, and I want to know how the FAA will ensure to the flying public that it is meeting its core duty to enforce safety.
  
  I21For 4 of the last 7 years, this subcommittee has provided more money for safety oversight than the Bush administration or its FAA administrators have requested. It didn't matter if Senator Shelby was chairman, if I was chairman or if Senator Bond was chairman. We all heard the same concerns raised by the Inspector General, the Government Accountability Office and others, and

Relationship Between Inspectors and Airlines.....................    53
Inspector General Recommendations................................    54
Safety Oversight.................................................    55
Additional Committee Questions...................................    62
Questions Submitted to Hon. Robert A. Sturgell...................    62
Questions Submitted by Senator Patty Murray......................    62
Maintenance Outsourced Overseas..................................    62
Inspector Staffing...............................................    63
Retaliation and Harassment of Inspectors.........................    63
Senior Management................................................    63
Self-reporting...................................................    64
Losses in Controller Workforce...................................    64
Controller Experience and Safety.................................    65
ADS-B............................................................    66
ADS-B In ........................................................    67
NextGen..........................................................    67
NextGen Commitments..............................................    67
ASDE-X...........................................................    72
Questions Submitted by Senator Frank R. Lautenberg...............    73
Safety Oversight.................................................    73
Runway Safety Strategy...........................................    73
ASDE-X...........................................................    73
Questions Submitted by Senator Robert F. Bennett.................    74
Small Community Air Service Development Program (SCASDP) Grant 
  for Logan, UT..................................................    74
Questions Submitted to Hon. Calvin L. Scovel III.................    76
Questions Submitted by Senator Patty Murray......................    76
Inspector Staffing--Inspection Field Time........................    76
Inspector Staffing--Foreign Maintenance Oversight................    76
Retaliation and Harassment of Inspectors--Senior Executives 
  Actions........................................................    76
Retaliation and Harassment of Inspectors--Safety.................    76
Self-reporting (Safety Violations)...............................    77
Controller Experience............................................    77
Controller Experience and Safety--Oversight......................    77
Automatic Dependence Surveillance-Broadcast (ADS-B)--Runway 
  Incur- sions...................................................    77
NextGen..........................................................    78
Airport Surface Detection Equipment Model-X (ASDE-X).............    78
Questions Submitted by Senator Frank R. Lautenberg...............    79
National Runway Safety Plan......................................    79
Airline Self-policing on Safety..................................    79
Controller Fatigue and Certified Professional Controllers........    79
Low-fuel Landings................................................    80
Low-fuel Advisory vs. On-Time Performance........................    80
Auctioning ``Slots'' at LaGuardia................................    80


  AN EXAMINATION OF THE FEDERAL AVIATION ADMINISTRATION'S SAFETY AND 
                       MODERNIZATION PERFORMANCE

                              ----------                              


                        THURSDAY, APRIL 17, 2008

                           U.S. Senate,    
 Subcommittee on Transportation and Housing
        and Urban Development and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Feinstein, Lautenberg, Bond, 
Specter, and Stevens.


               opening statement of senator patty murray


    Senator Murray. This subcommittee will come to order. These 
are troubling times for our airline passengers and the entire 
aviation industry. In the last year, we have seen jet fuel 
prices climb by almost 70 percent. In the last 2 weeks, three 
airlines have declared bankruptcy, and 2 days ago, we learned 
of a planned mega merger to create the Nation's largest U.S. 
airline and more mergers could be announced soon.
    With all of this disruption, the millions of passengers who 
take to the skies in our country each year need to be sure that 
the agency in charge of enforcing safety is consistent and 
effective, but instead the FAA has been inconsistent and 
erratic and passengers are angry and upset.
    I am very concerned. I and the Department of 
Transportation's Inspector General have been sounding the alarm 
for years about problems in the FAA's Flight Standards Program, 
yet we have seen repeated problems. Most recently, we learned 
that managers at the FAA allowed Southwest Airlines to violate 
Federal safety regulations and it punished the safety inspector 
who tried to bring the violations to light.
    Some observers inside the Government have tried to blame it 
all on a few bad apples at one inspection office in Dallas, 
Texas, but I don't buy it, and I want to know how the FAA will 
ensure to the flying public that it is meeting its core duty to 
enforce safety.
    For 4 of the last 7 years, this subcommittee has provided 
more money for safety oversight than the Bush administration or 
its FAA administrators have requested. It didn't matter if 
Senator Shelby was chairman, if I was chairman or if Senator 
Bond was chairman. We all heard the same concerns raised by the 
Inspector General, the Government Accountability Office and 
others, and we responded. We tried to boost the number of 
safety inspectors and we increased the quality and amount of 
training and the thoroughness of their work.
    That is why, as I reviewed the Inspector General's 
testimony, I was particularly disturbed by the number of times 
that the IG's Office discovered the very same problems year 
after year with the FAA's Flight Standards Program. In other 
words, despite repeated commitments to fix the problems by the 
FAA, the problems didn't get fixed.
    The Inspector General will testify that in 2002 and again 
in 2005, his auditors found an inadequate number of 
inspections, inappropriate targeting of inspections, and 
safety-critical inspections that just weren't done.
    In 2005, the IG found that 26 percent of the necessary 
inspections identified by the FAA's own safety-targeting system 
were not done and half those inspections were considered safety 
critical.
    Those audits prompted the Inspector General to recommend 
that FAA headquarters take a more hands-on supervisory approach 
to make sure that individual inspection offices were getting 
the job done. The FAA, of course, said it was committed to 
fixing the problems.
    Well, now it's 2008 and we're finding many of those same 
problems. One of the most glaring is that the FAA failed to 
follow its own requirement that every airline be reviewed every 
5 years to ensure it was complying with airworthiness 
directives. Those directives are a critical component of 
aviation safety.
    At Southwest, the U.S. airline with the most domestic 
flights, this 5-year review has not taken place since 1999, 9 
years ago, and the FAA's management structure either didn't 
know about it or did nothing about it.
    We need an FAA that actually fixes problems as they are 
found rather than one that rushes into a public relations 
campaign to assure everyone there isn't a problem.
    Last year, we discussed the FAA's habit of glossing over 
problems with its Capital Program. Last year, FAA continually 
boasted that 100 percent of their projects were on time and on 
budget, even when they were costing hundreds of millions of 
dollars more than originally advertised.
    This year in the wake of the findings of Southwest 
Airlines, Acting Administrator Sturgell ordered a complete 
review of whether airlines were complying with certain 
airworthiness directives.
    When I first heard of this plan, I questioned why the 
agency needed to doublecheck its work. The taxpayers and this 
subcommittee paid for full compliance the first time. Since 
those initial reviews, the FAA is now boasting a 99 percent 
compliance rate, but I don't think that figure gives much 
comfort to the people who thought they were getting 100 percent 
safety compliance the first time around, and it is not going to 
be much comfort to the thousands of airline customers who found 
themselves with canceled flights last week, missing business 
meetings, weddings, or the opportunity to get home to their 
kids because of this last-minute review.
    Last Wednesday, close to 1 in every 10 domestic passengers 
saw their flights canceled, and it may have affected more than 
a half a million passengers, but this wasn't just an 
inconvenience. This incident raised serious concerns in my mind 
and many others about the FAA.
    The FAA had initially given the airlines 18 months to fix 
the problem with wire bundles and the wheel wells of MD-80s, 
but after the discoveries at Southwest, the FAA announced that 
the airlines couldn't wait another day to fix it. This was very 
troubling to me.
    I want to know why, if it wasn't safe enough to fly for one 
more day, did FAA give the airlines 18 months to fix the 
problem in the first place.
    As someone who flies the country twice a week and who 
represents many constituents who fly, we want to know how 
you're going to restore passengers' faith in the FAA. Your 
number one job is to ensure the airlines are safe for the 
flying public and that means that safety regulations must be 
clearly defined and enforced consistently.
    FAA inspectors also deserve respect. They are not just your 
employees, they are stewards of the public safety and they 
deserve the support of their superiors. The supervisors in the 
FAA inspection force are supposed to be agents for safety, not 
the agents of airlines. They are supposed to support the 
findings of their own employees and make sure those findings 
are turned into safe operating practices.
    One of the IG's most egregious findings was that both 
Southwest and Northwest Airlines were actually able to concoct 
phony complaints against safety inspectors they thought were 
being too aggressive. The result was the inspectors were taken 
off the case. That must never be allowed to happen.
    The airlines deserve clarity and consistency from the FAA. 
The taxpayers deserve accountability on the part of senior 
Government officials when those lapses are discovered and left 
unaddressed; and, they deserve better than empty promises that 
problems have been fixed or will be fixed when they have not.
    And finally, this subcommittee deserves answers about why 
FAA's management still doesn't get it right, even though this 
subcommittee continually adds funding and cites these problems 
year after year.
    I hope we will get some answers to those questions this 
morning, and with that, I will yield to my ranking member, 
Senator Bond.


            opening statement of senator christopher s. bond


    Senator Bond. Thank you very much, Madam Chair, and thank 
you, Mr. Sturgell, for your continued service to the Nation and 
the FAA. I also welcome Inspector General Scovel. I thank the 
chair for the opportunity to address these important safety 
issues and modernization issues at the FAA.
    Mr. Administrator, first, I echo the chair's deep concern 
about the state of the Aviation Safety Office within the FAA. I 
am, however, appreciative of the current safety record of your 
administration and believe you and your employees are owed a 
huge thank you from the entire flying public for the 
accomplishments so far.
    I think the current safety record commends itself with zero 
fatal accidents last year and a fatal accident rate of .022 
percent, just over two hundredths of a percent per 100,000 
departures over the past 3 years. We're seeing that this is an 
extremely safe period for air travel, but nearly good is not 
good enough when you are in the flying public who wants to see 
100 percent.
    It's now evident there were clearly practices within your 
AVS Office that exposed passengers to risks over the past few 
years and, as indicated, the recent Southwest episode and the 
American Airlines wiring situation raise a number of questions 
that I hope to address.
    Let me be clear. I believe the FAA, regardless of any 
customer service initiative or any other program, should 
regulate the aviation industry without second thought about 
hurting the balance sheets or feelings of any air carrier or 
certificate holder where safety is at issue.
    The FAA can and should do a better job of physically 
inspecting aircraft to ensure compliance after new 
airworthiness directives are applied to verify compliance. 
Merely assuming an airline is in compliance or relying on an 
airline's own maintenance logs is simply not enough, as has 
been proven over the past several weeks.
    I believe the use of targeted random selected inspections 
will allow you to determine whether the job is being done and 
make sure you call out immediately any areas where there are 
deficiencies and not just waiting for a 5-year general review. 
I believe these inspections should be made immediately and on 
an ongoing basis with the available inspectors.
    I applaud many of your recent actions to reform the 
inspection program, such as working with manufacturers and 
airlines to clarify airworthiness directives to provide more 
plain language directives and tougher office audits to ensure 
that collaboration between certificate holders and inspectors 
is transparent and that it's not ``too familiar.''
    I remain concerned that senior managers at certificate 
management offices are allowed to stay in place with one 
carrier indefinitely without rotation. By limiting the time 
these senior professionals can stay at one location, it seems 
to me you can avoid any instances or appearances of 
impropriety.
    While I'm concerned about the problems with airline 
maintenance compliance, there are still many issues facing the 
FAA's procurement accounts. The committee has been concerned 
about the Airport Surface Detection Equipment, Model X or ASDE-
X, program for several years. I'm glad to see the program is 
not experiencing further schedule slippages and the final 
schedule for completion is moving in the right direction. This 
critical safety technology is far too important to be delayed. 
I'm concerned, however, that recent decisions in expediting 
ASDE-X may be impacting the other capital budget procurements 
as well as the overall cost of the program.
    In the area of runway safety, I'm encouraged by recent news 
of the decision to expedite from 2014 to 2011 the Runway Status 
Lights program. Mr. Sturgell, for many years, the FAA has 
needed a capability to warn pilots directly of potential runway 
incursions. The NTSB has written about the FAA's deficiencies 
in this area in great detail for many years.
    Runway Status Lights could reach airports even sooner with 
increased investments, but your budget proposal only provides 
for a modest increase in the program while providing a massive 
increase for NextGen funding. Finding the appropriate balance 
is not easy but it's not impossible either.
    Safety programs that have immediate impact, for example, in 
the area of runway incursions, should receive priority, and I 
hope to work with you and the chair to move this program 
forward. In fact, Runway Status Lights are a great example of 
competing programs within your capital budget that need serious 
investment and oversight, all while the system is being 
modernized with increased spending for NextGen.
    The administration requests over $600 million for NextGen, 
the new NextGen modernization technologies for fiscal year 
2009, and while I agree that something must be done to 
modernize the current decrepit system, we cannot neglect 
maintaining the current system and adding long overdue safety 
improvements that are of relatively simple technical and 
monetary costs.
    I think a balance is needed to preserve the current system 
while we implement the needed changes that are part of NextGen, 
and while we're on the topic of NextGen, I'm concerned about 
the future of our air traffic system.
    While delays last year were the worst on record, the 
prognostications I see indicate that this summer could be even 
worse, and if you line up the rhetoric regarding the benefits 
of NextGen next to the forecasts for passenger and operational 
growth, there doesn't seem to be any relief any time soon 
coming.
    I'm alarmed to find that none of the planning documents for 
overall NextGen or any of the specific budget documents for the 
component programs contain any mention of how each NextGen 
capability will reduce delays and increase capacity in anything 
other than generalities.
    If the entire goal of NextGen is to expand capacity 
threefold compared to current levels, why can't you consider 
the benefits each new expensive program will have on the 
overall progress toward meeting our goals and specific 
estimations?
    It seems to me that a lot of investment decisions and 
calculations rely on a lot of luck and hope, two things that 
really have no place in Federal procurement, especially when 
related to costly technical systems. Simply knowing that we 
need three times the current capacity without a current plan 
that's concrete, that tells us how each investment will get us 
to the target goal is not going to help us avoid delays, cost 
escalations in procurements and schedule slippages.
    We need to see actual figures and estimations to make our 
funding decisions, not generalities, and while I have expressed 
concerns regarding the FAA, I'll reiterate my support for you, 
Mr. Sturgell. Your experience and approach to this position are 
uniquely suited to provide the type of leadership that is going 
to be needed for the modernization challenges ahead.
    I know the prospects of your confirmation are somewhat in 
question, but I have no doubt that you'll be a fine 
administrator at the FAA. The challenges before us are great. 
They are not unsolvable. We need good leadership.
    I thank you, Madam Chair.
    Senator Murray. Thank you, Senator Bond. Senator 
Lautenberg?


                statement of senator frank r. lautenberg


    Senator Lautenberg. Thank you, Madam Chairman. It's fairly 
obvious that the 2 million flyers that enter an airplane each 
day expect that the flight crews and the mechanics and the air 
traffic controllers are doing their jobs, but they also expect 
that the people making top-level decisions, the management of 
FAA, are making certain that the aviation system is operating 
carefully and precisely.
    They've got to make sure that there are enough safety 
inspectors deciding what to inspect, getting the right 
technology and practices to reduce flight delays and preventing 
the stranding of passengers, watching airline procedures to 
make sure that airplanes are properly fueled, budgeting for 
runway safety improvements and hiring enough air traffic 
controllers.
    Now these decisions are being made by the Bush 
administration's FAA and I've been extremely disappointed by 
the agency's decisions on these important matters.
    Recently, we've seen disturbing reports about safety 
inspection failures, letting planes filled with passengers take 
off with cracked hulls and cancellations of thousands of other 
flights. Meanwhile, FAA continues to focus on its plans to 
force airports to auction off landing rights or slots. Now not 
only will this mean higher fares for passengers but this mix-up 
in priorities is a management failure at the highest level of 
FAA.
    Unfortunately, instead of providing new leadership and 
changing the way this agency does business, President Bush has 
opted for the same process that's been existing.
    Mr. Sturgell, not to be supercritical, but you've been the 
second-in-command for the past 5 years and you're nominated to 
take over the agency. I come from the business world and the 
way we used to measure an individual or a department's 
competence was by the results. What did we get from the people 
that we have in place, and I would say here that it's obvious 
that senior management has to be held responsible for slipshod 
leadership again by looking at the results.
    On a personal note, I got into an airplane with my wife out 
West, going from Colorado to California, and as we boarded the 
plane, we were told that the baggage would not accompany us. 
This is at 9 o'clock at night. So, whatever you needed, if you 
carried a portable respirator, if you carried medication, if 
you carried things that were necessary for presentation that 
you were making, whatever, instead of reducing the number of 
paying seats, everyone who could fly should have been 
accompanied by their baggage.
    So, I look forward to your testimony today, Mr. Sturgell, 
and that as well of Inspector General Scovel. We've got to get 
to the bottom of these problems to understand what's really 
happening there.
    Thank you, Madam Chair.
    Senator Murray. Senator Feinstein?


                 statement of senator dianne feinstein


    Senator Feinstein. Thank you very much, Mr. Chairman, and 
welcome, gentlemen.
    Like Senator Murray, I'm a cross-continental traveler, 
generally on United, which I think is one of our great legacy 
airlines, but I want to talk to you just quickly about three 
things.
    The first is according to a November 2007 GAO report, Los 
Angeles International Airport had more runway incursions than 
any other airport in the country during 2001 to 2006. The GAO 
concluded, and I quote, ``Air traffic controller fatigue, which 
may result from regularly working overtime, continues to be a 
matter of concern for the National Transportation Safety Board 
which investigations transportation accidents.''
    Despite the attention that this report received, incursions 
continue. In December, Los Angeles International suffered its 
ninth near-miss of 2007 when controllers failed to prevent two 
aircraft from entering the same runway. This is a real concern 
to me.
    Second, I'd like to be updated about the funding and 
staffing situation at southern California's TRACON. Last year, 
Palm Springs, as you know, was consolidated into its system. 
I've been concerned about the understaffing of FAA traffic 
controllers at the facility which is the world's largest 
TRACON, servicing 62 airports and 2.3 million passengers each 
year. It services LAX, which I've just mentioned is a real 
problem.
    The next thing is I just read in the International Herald 
Tribune that the EU is going to sanction the use of cell phones 
on traffic and I'll tell you I don't know what's going to 
happen if I have to listen or anybody has to listen to the 
person next to them talking loudly on their cell phone for 5\1/
2\ hours as we travel from Washington to San Francisco.
    I mean, I'd rather not travel. I mean some people are so 
painfully loud on their cell phone that you know everything 
about them by the time they hang up and so I would hope that 
you would comment on that as well.
    Thank you, Madam Chairman.
    Senator Murray. Thank you, Senator. We will now hear from 
our witnesses today. I want to thank both of you for coming 
today to testify, and we'll start with the Honorable Robert 
Sturgell, the Acting Administrator at the FAA, and then we'll 
hear from Calvin Scovel, who is with the Office of the 
Inspector General.
    Mr. Sturgell?
STATEMENT OF HON. ROBERT A. STURGELL, ACTING 
            ADMINISTRATOR, FEDERAL AVIATION 
            ADMINISTRATION, DEPARTMENT OF 
            TRANSPORTATION
    Mr. Sturgell. Good morning, Madam Chairman. I'm pleased to 
testify before you, Senator Bond and members of the 
subcommittee regarding the budget request as well as our safety 
and capital programs for fiscal year 2009.
    As the operators and regulators of the national air space 
system, we believe that our 2009 budget request of $14.6 
billion will provide adequate funding to support all our 
critical priorities, the priorities on which the flying public 
and the taxpayers depend, especially in light of the activity 
we've all witnessed in the past several weeks, we take very 
seriously our role to instill public confidence in the system. 
I empathize with the public about the delays and the 
congestion. The sheer inconvenience of an unreliable experience 
remains a focus for us. I believe that this budget submission 
will help us address these very needs.


                             runway safety


    Madam Chairman, this subcommittee has rightly maintained 
that safety must be FAA's primary concern, and we are being 
particularly aggressive in doing so on our runways. Last year, 
and several of you have talked about runway incursions, last 
year, only eight runway incursions involved commercial 
aircraft. That's 8 in more than 61 million operations. Even 
though those numbers are small, we are pushing to make it even 
smaller. Just 6 months ago, I issued a Call to Action, a 
challenge to our industry and to us that we needed to step up 
our actions to make runways safer than they are today. 
Together, using the partnerships that are critical to the 
backbone of safety on which this relies, we are answering that 
call.
    We've had an incredibly positive response. The airlines and 
the airports have really stepped up to the plate in terms of 
focusing on quick turnaround solutions that have the potential 
to significantly improve runway safety. The Call to Action 
starts with things as simple as improving the markings and 
paint on taxiways at hundreds of airports around the country. 
That's already taken place at 74 of the 75 large airports that 
were mandated to do so, with more than 300 other small airports 
committing voluntarily to make the upgrades.
    We are also using technologies, specifically runway status 
lights, to make a difference as well. We're testing them at 
Dallas-Fort Worth, San Diego, and we recently added Los 
Angeles, LAX, and Boston to our current list. The technology is 
intuitive. A series of lights positioned strategically to tell 
the pilot and the driver of the ground vehicle that it's safe 
to proceed. Red means stop. The bottom line: they work. They've 
already averted one potential tragedy at DFW and they reduced 
runway incursions where they have been used there by about 70 
percent. Our 2009 request includes funding to begin a national 
rollout and I am hopeful to work with you to support that 
program going forward.


                                nextgen


    We also are pushing forward with another area that is of 
special interest to this subcommittee, NextGen, the Next 
Generation Air Transportation System. In many ways, the 
linchpin for NextGen is the buy-in from the stakeholders, 
industry and our employees.
    There will be no surprises as new technology and procedures 
are put in place. To the critics who say, ``There is no 
NextGen,'' I believe that couldn't be farther from the truth. 
We have a plan in place. We have participation from 
stakeholders and at all levels from seven different 
governmental organizations. We have regular meetings to make 
sure that participation and collaboration are still in 
operation.


                    air traffic controller staffing


    Then to be ready is our workforce. As our controller 
workforce retires, we have a major recruiting effort underway. 
Our most recent job postings drew more than 4,500 applications. 
We hired more than 1,800 controllers in 2007 and will hire over 
1,800 more this year as well. The 2009 budget request adds an 
additional net gain of 306 controllers.
    I must also underscore that our 2009 request provides 
strong support for our staff hiring goals, safety and capital 
programs and NextGen activities.


                      airport improvement program


    With respect to AIP, I understand the concerns about the 
funding level, but our program proposal is designed to 
strategically target Federal dollars to the airports where they 
will have the most impact. The proposed PFC increase will make 
another potential revenue source of $1.2 billion available to 
the airport community.


                             recent events


    I'd also like to take the opportunity to provide the 
subcommittee with some observations on the activities of the 
last several weeks. As I said at the outset, the delays that 
have inconvenienced the flying public are of great concern to 
me. With that said, critics of the FAA rightfully hold us 
accountable for safety lapses, as in the case of Southwest 
Airlines. They also are scolding us for doing our job, as in 
the case of the grounding of American's MD-80s.
    I think what is being lost in the rhetoric is that the 
system does depend on partnership and collaboration with 
industry to get the job done. The benefits of partnership 
between regulatory agencies and those they regulate were 
pointed out and promoted by the Commission on Aviation Safety 
and Security, led by then Vice President Al Gore, and Secretary 
Mineta's NCARC Commission produced the CASTeam, Commercial 
Aviation Safety Team, probably aviation's most productive and 
valuable partnership program.
    Those who push to abandon partnership and voluntary 
disclosure programs, I believe, are shortsighted. They can be 
improved but it is the oversight and partnership approach that 
has delivered us the safety record we enjoy today. We know the 
system is not perfect. We are not being complacent about it. 
Our challenge is to improve continuously upon this record and 
to do it with industry. If we return to the gotcha approach of 
decades past, where there were signs in the hangar, ``don't 
talk to the FAA,'' I think we risk driving these safety issues 
underground. Hidden data obscures trends. Undiscovered trends 
are the precursors to accidents and silence breeds catastrophe. 
I'm not willing to accept that.
    I sympathize and apologize for the stress last week's 
flight cancellations caused the flying public. It's my job to 
ensure they are safe in the air and that's what our agency did.


                           prepared statement


    That said we are going to look at all aspects of what 
occurred last week to try and minimize the chances of such 
disruptions again.
    Thank you for your time. Thank you for your support of our 
safety programs, and I'd be pleased to answer any questions you 
have.
    [The statement follows:]
             Prepared Statement of Hon. Robert A. Sturgell
    Good morning, Chairman Murray, Senator Bond, and members of the 
subcommittee. Thank you for the opportunity to appear here today to 
discuss the administration's fiscal year 2009 budget request for the 
Federal Aviation Administration (FAA).
                        fiscal year 2009 budget
    Our fiscal year 2009 budget request of $14.6 billion provides 
funding to support all critical priorities of the FAA. As always, 
safety is FAA's primary concern, with 67 percent of our budget request 
dedicated to our safety mission. (See attached chart showing our budget 
request in terms of agency goals). This request includes $688 million 
for key research and technologies to enable the transition to the Next 
Generation Air Transportation System (NextGen), as well as funding to 
meet our hiring goals for our air traffic controller and safety 
inspection workforces.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The 2009 budget request assumes adoption of the President's 
reauthorization proposal for FAA programs and revenue streams, with 
user fees implemented in 2010. We firmly believe that comprehensive 
reform of FAA's funding mechanism is necessary, and we will continue 
working with Congress and our stakeholders toward a successful 
reauthorization that is consistent with our key principles for a 
comprehensive cost-based financing structure. That structure must 
ensure that costs and revenues are better aligned, that all 
stakeholders are treated fairly, and that our aviation system is ready 
for the congestion and environmental challenges of the future. With a 
more efficient revenue structure, we will be able to build on our 
exemplary safety record while expanding the number of aircraft that the 
Nation's airspace can safely handle at any given time. Our proposal 
provides the tools we need to implement NextGen and the modern 
technology required to handle increased demand for aviation.
    For fiscal year 2009, we have proposed a new account structure that 
aligns FAA's budget accounts with its lines of business. We believe an 
account structure based upon agency functions makes sense both in terms 
of how we operate now as well as under our proposed financing reforms. 
For ease of understanding this approach, we have attached a 
``crosswalk'' chart showing a comparison of our request with the 
current account structure.

                     COMPARISON OF BUDGETS--FISCAL YEARS 2007-2009--OLD VERSUS NEW ACCOUNTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                     2008-2009
                    Accounts                        Fiscal Year     Fiscal Year     Fiscal Year       Change
                                                   2007 Enacted    2008 Enacted    2009 Request      (percent)
----------------------------------------------------------------------------------------------------------------
Operations......................................           8,374           8,740           8,998             3.0
Facilities and Equipment........................           2,518           2,514           2,724             8.4
Reseach, Engineering and Development............             130             147             171            16.3
Airport Improvement Program (Ob Lim)............           3,515           3,515           2,750           -21.8
                                                 ---------------------------------------------------------------
      FAA Total.................................          14,537          14,915          14,643            -1.8
                                                 ===============================================================
Safety and Operations...........................           1,769           1,893           2,052             8.4
    Salaries and Expenses.......................           1,634           1,774           1,920             8.2
    Capital Programs............................             135             119             132            10.9
ATO.............................................           9,123           9,361           9,670             3.3
    Salaries and Expenses.......................           6,740           6,966           7,079             1.6
    Capital Programs............................           2,383           2,395           2,591             8.2
Research, Engineering and Development...........             130             147             171            16.3
Airport Improvement Program (Ob Lim)............           3,515           3,515           2,750           -21.8
                                                 ---------------------------------------------------------------
      FAA Total.................................          14,537          14,915          14,643            -1.8
----------------------------------------------------------------------------------------------------------------

                         safety and operations
    The fiscal year 2009 request is $2 billion for Safety and 
Operations, including $1.2 billion for Aviation Safety (AVS), $14 
million for Commercial Space Transportation, and $851 million for Staff 
Offices. Most of the funds requested support the agency's activities to 
maintain and increase aviation safety and efficiency. The request will 
allow AVS to meet its mission of promoting aviation safety in the 
interest of the American public by regulating and overseeing the civil 
aviation industry. AVS consists of 8 distinct organizational elements 
employing approximately 7,000 personnel. These employees are 
responsible for the oversight of the Air Traffic Organization (ATO); 
certification, production approval, and continued airworthiness of 
aircraft; and certification of pilots, mechanics and other safety 
related positions. The agency recognizes that this subcommittee is 
particularly interested in our efforts regarding aviation safety 
inspector staffing. The fiscal year 2009 request maintains recent 
staffing gains to our aviation safety workforce, providing for 4,110 
safety inspectors, and requests an additional 30 safety staff positions 
for air traffic oversight. I should also note that the $14 million 
Commercial Space Transportation request includes $270,000 for four 
additional safety personnel needed to assess the human space flight 
aspects of the safety evaluations of commercial space license and 
permit applications.
                        air traffic organization
    The fiscal year 2009 request for FAA's Air Traffic Organization 
(ATO) is $9.7 billion, of which $7.1 billion is for ATO operating 
expenses. We recognize that this subcommittee is also very interested 
in our efforts regarding controller staffing. As with the safety 
inspector workforce, FAA is aggressively hiring and training 
controllers to ensure the right number of controllers are in place at 
the right time to address the well-documented retirement ``bubble.'' 
FAA began anticipating today's air traffic controller retirement wave 5 
years ago, issuing a comprehensive staffing plan that we update 
annually. Our 2008 plan was just published last month.
    The remaining $2.6 billion will support ATO capital projects, 
formerly in the Facilities & Equipment (F&E) account. This funding will 
continue to maintain and upgrade the current system, improving the 
aging infrastructure of our facilities, while laying the foundation for 
NextGen. This funding will also support important safety and capacity 
enhancing technology, such as Airport Surface Detection Equipment--
Model X (ASDE-X), runway status lights (RWSL), and Automatic Dependence 
Surveillance Broadcast (ADS-B).
    The ATO continues to see cost savings from the Flight Service 
Station (FSS) contract, which was initiated 2 years ago. We anticipate 
savings and cost avoidance of approximately $2.1 billion over the 13 
year period of the program, with $1.6 billion of these savings achieved 
over the 10 years of the Lockheed Martin contract. Our network of 
automated flight service stations, which provide weather guidance and 
other assistance to the pilots of small airplanes, has been reduced 
from 58 to 18--15 previously existing facilities and 3 new ones built 
by Lockheed Martin. The contract not only saves money, it also provides 
incentives for the vendor to modernize and improve the flight services 
we provide to general aviation pilots.
                    grants in aid for airports (aip)
    The FAA's reforms for the Airport Improvement Program contained in 
our reauthorization proposal are designed to target Federal dollars 
strategically to the airports where they will have the most impact. 
While large and medium hub airports have a greater ability to finance 
their own capital requirements with revenue from passenger facility 
charges and their own rates and charges, small primary and general 
aviation airports rely more heavily on AIP funding to help meet their 
capital needs and complete critical projects. We have proposed changes 
to the Federal funding program which will stabilize and enhance these 
funding sources for airports. With the proposed programmatic changes, 
including the increase in the passenger facility charges, the $2.75 
billion requested in our budget will be sufficient to finance airports' 
capital needs and meet national system safety and capacity objectives. 
Our request also includes $19 million for airport technology research 
and $15 million for the Airport Cooperative Research program, $5 
million of which is for environmental studies.
             research, engineering, and development (re&d)
    The fiscal year 2009 request for RE&D is $171 million. The request 
includes $91 million for continued research on aviation safety issues. 
The remaining research funding is to address congestion and 
environmental issues, including $42 million for new NextGen projects 
such as Self Separation, Weather Technology in the Cockpit, Air-Ground 
Integration, and the Environmental Research--Aircraft Technology, Fuels 
and Metrics. The RE&D budget also provides $14.5 million for the Joint 
Planning and Development Office (JPDO) to coordinate partner agency 
research and development in support of NextGen, and to continue 
facilitating the transition to NextGen, bringing this account's total 
fiscal year 2009 contribution to the NextGen effort to $56.5 million.
                          controller workforce
    Our highly trained air traffic controllers play a critical role in 
achieving the outstanding level of aviation safety we enjoy in the 
United States. Looking forward, I am dedicated to maintaining and 
improving the levels of safety we have achieved thus far while 
continuing to improve working conditions and expand the diversity of 
this workforce.
    With more than 60 percent of the controller workforce eligible to 
retire over the next 10 years, FAA plans to hire more than 16,000 
controllers over that period. Last year we hired 1,815 controllers, a 
third of them with previous air traffic control experience from the 
military, and ended the year with 14,874 controllers on board--67 more 
than our workforce plan target. Our new plan calls for hiring an 
additional 1,877 controllers this year and 1,914 more in 2009, bringing 
the total controller workforce to 15,436 by the end of 2009. Our fiscal 
year 2009 budget includes the funding necessary to carry out this plan. 
The last public sector announcement for an air traffic controller 
position closed on February 15, and generated 4,515 applications. We 
opened another announcement just this week. The agency is also working 
aggressively to build up staffing by offering a variety of incentives 
to recruit and retain controllers, including recruitment and relocation 
bonuses and repayment of student loans.
    Over the next few years, most facilities will be in a period of 
transition and will be staffed with a combination of certified 
professional controllers (CPCs), CPCs-In-Training, and developmental 
controllers. I must stress that developmentals are proficient, or 
checked-out, in specific sectors or positions, and that handling live 
traffic is a requirement to maintain proficiency as they progress 
toward CPC status. While not yet certified on all positions needed to 
achieve CPC status, these newer controllers are highly skilled, 
trained, and capable of carrying out the safety mission of FAA.
    To accelerate the hiring process for qualified individuals, we have 
implemented Pre-Employment Processing Centers (PEPCs). Individuals 
chosen by FAA selection panels are invited to come to the PEPCs, where 
they are interviewed and undergo pre-hire screenings such as medical 
examinations, psychological and drug testing, fingerprinting and 
security clearance application processes. Some recruits may now receive 
final offer letters from FAA in as little as 1 month after their 
interview--a process that could otherwise take up to 6 months. Our most 
recent PEPCs were held in Miami and Atlanta. A total of 200 air traffic 
control candidates and 40 Tech Ops candidates participated. The next 
PEPC will take place in Ft. Worth later this month.
    The Air Traffic Collegiate Training Initiative (AT-CTI) is becoming 
a more significant source for hiring, providing controller candidates 
who have college degrees. CTI schools do not receive Federal funding 
but are an important pipeline of recruitment for our agency. The number 
of AT-CTI graduates hired into controller positions has rapidly 
increased from 38 percent of new hires in fiscal year 2005 to 56 
percent in fiscal year 2007. To attract qualified new employees, we are 
expanding the program again in 2008 to allow new schools to apply. 
Currently, we have 23 schools in the program--14 original schools and 
nine new schools added as a result of our fiscal year 2007 expansion, 
the first expansion in more than a decade. Our goal is to have up to 35 
AT-CTI schools in the program graduating 2,000-2,500 students per year 
by fiscal year 2010.
    Veterans' programs are also a valuable source of new controllers. 
One-third of new controller hires last year had previous military air 
traffic control experience. In addition, FAA implemented the Veterans 
Training Program (VTP) for air traffic control specialist (ATCS) and 
airway transportation system specialist (ATSS) positions last August. 
Our first two VTP participants are currently in Academy training. One 
participant will be working in Louisville, and the other will be 
working in Tulsa, once training is complete. The Department of Veterans 
Affairs has also recently certified our on-the-job training program for 
developmentals. This certification allows developmentals with 
appropriate veteran entitlements under the Montgomery GI bill to 
receive monetary education benefits for the training they are 
receiving.
    Furthermore, I am focused on improving our facilities and the 
physical conditions under which our controllers work. Our improvement 
projects include modernization, sustainment, seismic upgrades, and 
facility condition lifecycle assessments. Projects are prioritized 
based on the impact of known problems in the facility, the importance 
of the facility to the National Airspace System, and the urgency of the 
sustainment need. For this year and next we will allocate slightly more 
than $300 million per year for the repair, modernization, and 
replacement of our air traffic control facilities. These projects will 
include replacement of obsolete infrastructure, asbestos and mold 
abatement, repair of roof leaks, and plumbing improvements.
                            increased safety
    Due to the combined efforts of Government and the aviation 
community, we are fortunate to be living in the safest period in 
aviation history and the FAA is committed to making it safer still. In 
the past 10 years, the commercial fatal accident rate has dropped 57 
percent, to a rolling 3-year average of 0.022 fatal accidents per 
100,000 departures as of the end of fiscal year 2007. In the past 3 
years, the United States averaged approximately 2 fatal accidents per 
year and 28 deaths per year; while any loss of life is tragic, this 
statistic is remarkable, given that there are roughly 12 million 
commercial aircraft flights per year. General aviation accidents are 
down. Air traffic control errors are occurring at a rate lower than in 
the previous 2 years.
    Approximately 67 percent of our budget request, or $9.9 billion, 
supports the FAA's safety mission to operate and maintain the air 
traffic control system, inspect aircraft, certify new equipment, ensure 
the safety of flight procedures, oversee the safety of commercial space 
transportation, and develop a replacement air traffic data and 
telecommunications system. For fiscal year 2009, we have adopted a new 
safety goal: to reduce U.S. commercial airline fatalities per 100 
million people (including crew) on board to fewer than 8.31 (an 
improvement of over 6 percent from our fiscal year 2008 goal) and to 
reduce the rate of general aviation fatal accidents. Under the old 
metric, all accidents were counted equally, regardless of how many 
fatalities occurred. This new metric is more relevant to the flying 
public, as it better measures the individual risk--as low as it is--to 
fly.
    The request includes an increase of $11.3 million to hire and train 
sufficient air traffic controllers to achieve our hiring targets noted 
earlier in my statement. It also includes $800,000 for 30 new positions 
to support continued development of the Air Traffic Oversight office, 
which was formed in fiscal year 2004 to ensure continued operational 
safety throughout the ATO. The fiscal year 2009 budget maintains the 
staffing gains to our aviation safety workforce during fiscal year 
2007-2008, with total aviation safety staffing reaching 7,069 by the 
end of fiscal year 2009.
    In March 2007, Southwest Airlines filed a report under the 
Voluntary Disclosure Reporting Program (VDRP) notifying FAA of its 
noncompliance with a structural Airworthiness Directive (AD). The FAA's 
subsequent investigation revealed that between March 15, 2007, and 
March 23, 2007, Southwest operated the 46 affected aircraft on 1,451 
additional revenue flights when it knew that it had not conducted the 
repetitive inspection required by the AD--making the planes not 
airworthy. These violations were deliberate and led to the initiation 
of enforcement action against Southwest Airlines resulting in a civil 
penalty of $10.2 million announced on March 6, 2008.
    The on site principal maintenance inspector for Southwest Airlines, 
an FAA employee, was aware at the time that Southwest was not in 
compliance with the AD. He had a clear responsibility to act and fell 
short of that responsibility. He has been reassigned to a different 
position pending further investigation and personnel action. Additional 
personnel actions are also in progress.
    Since then, AVS has held a Managers Conference and an organization-
wide Town Hall meeting to emphasize the importance of open and timely 
communications about all safety issues. We are undertaking a five point 
plan to refine our programs and ensure more accountability in our 
processes. As part of the plan, we will be implementing a Safety Issues 
Reporting System (SIRS), improving the VDRP to ensure awareness of 
reports at high levels of management in both FAA and the airlines, and 
clarifying and upgrading our AD processes. Furthermore, we have 
initiated a review of AD compliance, with initial results demonstrating 
99 percent compliance. We expect to complete this in-depth review in 
June. While our safety record indicates this is not a systemic problem, 
we are always open to working with industry and Congress to make our 
safe system even safer.
    Another major component of aviation safety is runway safety. FAA 
has made runway safety a focus since 1999, and the aviation community 
has made great progress over the years in improving runway safety. In 
fiscal year 2007, we met our performance target of 0.530 per million 
operations for the most serious runway incursions, Category A and B, 
and ATO's goal is 0.450 per million operations by 2010. Over the past 6 
years alone, we have reduced the number of serious runway incursions by 
more than 50 percent.
    Last August, more than 40 representatives from a cross-section of 
the aviation industry agreed to an ambitious plan focused on solutions 
in improving cockpit procedures, airport signage and markings, air 
traffic procedures, and technology. The Call to Action plan committed 
the group to a list of five short-term actions that could be completed 
within 60 days. These actions included upgrading runway entrance 
markings, improved training programs, development of an Air Traffic 
Safety Action Program (ATSAP) to encourage voluntary reporting, and 
reviews of surface operations and cockpit procedures. Since then, all 
of these actions have either been implemented or are on schedule, and 
the operational reviews have resulted in more than 100 short-term and 
numerous mid- and long-term initiatives.
    The FAA has spent more than $404 million to date to acquire and 
deploy the next generation of ground surveillance technology, known as 
Airport Surface Detection Equipment--Model X (ASDE-X). The fiscal year 
2009 request for ASDE-X reflects FAA's commitment to accelerate the 
entire deployment schedule for completion in 2010 instead of 2011. 
ASDE-X systems at 12 airports are fully operational and all remaining 
23 ASDE-X systems are in various phases of the implementation process. 
Funding for each of the six phases of the ASDE-X implementation process 
is usually required prior to beginning a new phase. Funding has already 
been obligated for the system hardware, all planned software 
development, and system enhancements for all 35 sites.
    Runway status lights (RWSL) are another system being deployed to 
reduce the potential for runway incursions. The RWSL system, which was 
developed as a result of the NTSB's ``Most Wanted'' list of safety 
improvements, integrates airport lighting equipment with approach and 
surface surveillance systems to provide a visual signal to pilots 
indicating that it is unsafe to enter, cross, or begin takeoff on a 
runway. Airport surveillance sensor inputs are processed and command 
in-pavement lights to illuminate red when there is traffic on or 
approaching the runway.
    The system is currently in operation at Dallas/Fort Worth (DFW) and 
San Diego airports. Recently, agreements have been signed with two 
additional airports, Los Angeles and Boston, to provide them with an 
early RWSL capability. RWSL equipment for the two airports will be 
installed and operational by March 2009 and December 2009 respectively. 
Further RWSL test installations are under consideration. At DFW this 
past February, a plane was cleared for take-off, while at the same time 
air traffic control cleared another aircraft to cross that same runway 
on a taxiway. The first plane did not initiate its takeoff roll, 
because the pilot ``saw the red lights'' of the RWSL System. In all, 
DFW has seen a 70 percent reduction in runway incursions since the 
technology was installed on one of the airport's seven runways. The FAA 
has already spent nearly $25.8 million on this initiative and will 
spend another $8.7 million in fiscal year 2008. Our current plan 
includes $27 million for fiscal year 2009, in line with the 
administrator's Call to Action goal of program completion by fiscal 
year 2011.
    To further increase runway safety, we are helping airports build 
end-around taxiways, which allow aircraft to avoid crossing an active 
runway. The first opened at Atlanta last year and has eliminated 612 
runway crossings per day. We anticipate the opening of another taxiway 
at Dallas/Fort Worth in December. We are also making progress improving 
Runway Safety Areas (RSAs). RSAs enhance safety in the event of an 
undershoot, overrun, or excursion from the side of the runway. In 
fiscal year 2000, FAA started an ambitious program to accelerate RSA 
improvements for commercial service runways that do not meet standards. 
We developed a long-term completion plan that will ensure that all 
practicable improvements are completed by 2015. Significant progress 
has been made and 63 percent of the RSA improvements have been 
completed. By the end of 2010, 88 percent of RSA improvements will be 
complete.
                          increasing capacity
    The aviation industry is critical to our Nation's economy. Over 2 
million people a day travel on our Nation's airlines and more than one-
third of the value of all goods is moved by air. Passenger traffic now 
exceeds pre-9/11 levels at most of the Nation's top airports, and is 
expected to grow to over a billion passengers by the middle of the next 
decade. By 2014, without any changes to the system, we expect to see 
delays 62 percent higher than they are today.
    To achieve an on-time arrival rate of more than 88 percent of 
flights in fiscal year 2009 and to increase average daily capacity at 
major airports, FAA requests $3.7 billion. This includes funding to 
replace obsolete radars and to continue automating terminal control 
facilities, as well as $21 million for oceanic automation to improve 
flight route flexibility. Programs that will form the core of NextGen 
are also part of this request, including $41 million to develop an 
internet-like System-Wide Information Management network and $300 
million to continue implementing the Automatic Dependent Surveillance 
Broadcast (ADS-B) system. $1.3 billion of the Airport Improvement 
Program request is aimed at reducing congestion, largely through the 
construction and maintenance of runways.
    In the last 7 years, 13 new runways (more than 20 miles of new 
runway pavement) have opened at some of the Nation's most capacity-
constrained airports. These runways provide the potential to 
accommodate 1.6 million more annual operations and decreased average 
delay per operation at these airports by about 5 minutes. Approximately 
one-third of the $5.3 billion cost of these runways has been covered by 
Airport Improvement Program funding. Three more runways will open later 
this year, at Seattle-Tacoma, Washington Dulles, and Chicago O'Hare. In 
addition, there are five other airfield projects (two airfield 
reconfigurations, one runway extension, one end-around taxiway, and one 
centerfield taxiway) under construction. These projects will be 
commissioned by 2012 and will provide these airports with the potential 
to accommodate an additional 400,000 annual operations.
    Aviation delays escalated in 2007, particularly in the New York 
area. Demand for air carrier access at LaGuardia and John F. Kennedy 
airports has historically been managed by the High Density Rule (HDR), 
which limited the number of operations during peak demand hours. The 
rule expired at both airports on January 1, 2007. A temporary order is 
in place to restrict the number of hourly operations at LaGuardia while 
the FAA works on a final congestion management rule for the airport. 
LaGuardia, JFK, and Newark airports consistently rank as the Nation's 
three most delayed airports.
    In response to the growing delays in the New York metro area, the 
President, Secretary Peters, and I met to discuss the unacceptable 
impact these delays were having on the Nation's airspace. We formed a 
New York Aviation Rulemaking Committee (ARC) to work with industry and 
community stakeholders to come up with a list of potential solutions. 
On December 19, the Secretary announced a number of steps being taken 
in New York as a result. These steps include a cap on flights at JFK, 
planned caps at Newark, a list of 77 operational improvements to reduce 
congestion in the region, and establishment of a New York airspace 
czar. Many of these solutions can be implemented in the short-term, but 
longer-term efforts such as airspace redesign and NextGen will also be 
required in order to provide additional capacity. To date, we have 
completed 8 of the 77 identified operational improvements, and we 
expect to complete an additional 9 by this summer. We are working 
closely with the Port Authority and our customers to prioritize the 
remaining 60 items, which are either long-term projects or items that 
are under review for feasibility, and expect to finalize the priority 
list this summer.
    Beginning March 30, as a short-term solution, operations at JFK 
were capped at either 82 or 83 operations per hour, depending on the 
time of day. These caps will be in place through 2009 and follow the 
conclusion of a schedule reduction meeting we held with the air 
carriers and airport. Hourly limits are also planned for Newark and 
will be in place as soon as we have completed our negotiations with the 
air carriers. In addition, implementation of the latest air traffic 
control technology at airports in the Philadelphia and New York region 
is being expedited, and a permanent aviation ``czar'' has been 
appointed to serve as director of the newly-created New York 
Integration Office.
    Our preference is to expand capacity in order to meet demand. As I 
have noted, the aviation industry is a major economic engine, providing 
support and jobs both for the country as a whole and for local 
communities. We need to find a way to address congestion and allocate 
limited space efficiently and fairly. We believe that a market-based 
approach provides the best outcome because it sets the right incentives 
for efficient use of the system. That is why we are also looking at 
market-based measures for solutions to congestion.
    On January 14, Secretary Peters announced a proposal for 
comprehensive market-based changes to the FAA's Policy on Airport Rates 
and Charges. The amendments, if adopted, will provide airports with 
more tools to finance projects that reduce congestion and to encourage 
more efficient use of existing facilities. The amendments will allow a 
congested airport to raise the price of using its runways. This in turn 
could provide a financial incentive to aircraft operators to consider 
alternatives, such as scheduling flights outside of peak demand times, 
increasing aircraft size to use the congested runways more efficiently, 
or meeting regional air service needs through alternative, less 
congested facilities.
                                nextgen
    Key to achieving higher levels of safety, efficiency, and 
environmental performance is the move to a 21st century National 
Airspace System. For the flying public, this investment is critical if 
we are to deploy state-of-the-art NextGen capabilities to safely and 
efficiently handle dramatic increases in the number and type of 
aircraft using our skies without being overwhelmed by congestion. Our 
fiscal year 2009 budget request will provide $688 million--a nearly 
$500 million increase from 2008--in support of NextGen. In the past 
year, key NextGen defining documents have matured. Last summer, the 
Joint Planning and Development Office (JPDO) released public versions 
of the Enterprise Architecture and Concept of Operations. In July, the 
initial baseline of the NextGen Integrated Work Plan was completed. The 
work plan lays out the progression from the present to the future, with 
activities and responsible agencies identified. As envisioned, the work 
plan would guide the formulation of future budgets within partner 
agencies.
    The fiscal year 2009 NextGen budget represents strong collaboration 
between JPDO and the new OEP--formerly the Operational Evolution Plan, 
and now the Operational Evolution Partnership--to define and estimate 
the budgetary requirements for fiscal year 2009. That collaboration 
will provide oversight and track progress to ensure that NextGen 
objectives are achieved. This NextGen investment portfolio includes 
programs and activities deemed ``transformational,'' i.e., those that 
will truly move toward the next generation system. The fiscal year 2009 
portfolio consists of $631 million in ATO Capital Programs, $57 million 
in Research, Engineering & Development, and $704,000 in Safety & 
Operations, for a total of $688 million. This funding level includes 
$19.5 million to directly support the JPDO: $5 million from ATO Capital 
and $14.5 million from RE&D. This represents a significant investment 
in NextGen programs and reflects the administration's commitment to 
comprehensively address capacity constraints in the aviation system.
    ADS-B is a critical part of developing our initial capabilities in 
satellite-based control and surveillance. The system allows an aircraft 
to continuously transmit its location, speed, and altitude to other 
planes, pilots, and controllers, which provides much more accuracy than 
today's radar. ADS-B provides an essential capability for reduced 
separation and allows for greater predictability in departure and 
arrival times. ADS-B will also give real-time cockpit displays of 
traffic information, both on the ground and in the air, to equipped 
users throughout the system. We estimate that ADS-B applications will 
save $1.7 billion in the terminal environment and another $800 million 
in the en route environment through 2035. The United Parcel Service 
(UPS) is already using ADS-B technology in Louisville, Kentucky to 
enable the use of Continuous Descent Arrivals (CDA), with great 
success. UPS aims to cut noise and emissions by about 30 percent each 
and reduce fuel burn by 40-70 gallons for each arrival.
    In August 2007, FAA awarded a contract to ITT Corporation to 
provide ADS-B services. Under the contract, ITT will install, own, and 
maintain the surveillance ground infrastructure, while FAA pays for the 
surveillance and broadcast services. Since the contract award, the 
program is on track; we intend to deploy ADS-B at key sites by 2010 and 
will roll out the nationwide infrastructure by 2013. ADS-B is also 
being implemented in the Gulf of Mexico, where controllers currently 
operate without radar coverage. Controllers must now track low-flying 
aircraft using a grid system based on reported--not actual--position 
and high-flying aircraft using 15 minute procedural separation. To 
ensure safety, a significant amount of separation must be maintained 
between aircraft, severely reducing capacity. ADS-B deployment in the 
Gulf of Mexico could allow us to reduce the amount of separation 
between aircraft while maintaining safety, and save an estimated $545.6 
million through 2035. It will also provide support for an additional 
246,400 flights over the gulf between 2017 and 2035.
    We are also undertaking efforts that better take advantage of 
aircraft capability. The area navigation (RNAV) program uses onboard 
avionics that allow an aircraft to fly more direct and precise flight 
paths. Improved performance on departure has led to a more efficient 
traffic flow, reducing departure delays, decreasing taxi times, and 
reducing fuel burn and associated emissions. RNAV operations have saved 
operators $8.5 million annually at Dallas/Fort Worth International 
Airport and a total estimated $34 million at Hartsfield-Jackson Atlanta 
International Airport. Required Navigation Performance (RNP) builds 
upon RNAV and allows flights to land with lower minima. Using RNP, in 
2006 Alaska Airlines was able to continue 980 approaches that otherwise 
would have been diverted, largely due to adverse weather conditions. 
NextGen plans call for continued deployment of RNAV and RNP procedures, 
and we will begin to couple them with other decision support tools to 
maximize their capabilities.
                       environmental stewardship
    NextGen must be more efficient than the current system, but it must 
also be quieter and cleaner. Our goal for NextGen is to meet growing 
demand by tripling the capacity of the Nation's airspace while reducing 
significant environmental impacts. Our fiscal year 2009 budget request 
includes $352 million, of which $264 million is requested from the AIP 
program, to address the environmental impacts of aviation. We will 
ensure that the number of people in the United States who are exposed 
to significant aircraft noise levels continues to decline, and that we 
are reducing air and water quality impacts, addressing the impact of 
aviation's greenhouse gas emissions on the global climate, and 
supporting the development of alternative aviation fuels.
    We will provide expertise and funding to assist in abating the 
impacts of aircraft noise in neighborhoods surrounding airports by 
purchasing land, relocating persons and businesses, soundproofing 
residential homes or buildings used for educational and medical 
purposes, purchasing noise barriers and monitors, and researching new 
noise prediction and abatement models and new technologies. We estimate 
that 20,000 people will see a reduction in aircraft noise from these 
AIP-supported mitigation efforts at airports. The fiscal year 2009 
request includes $16 million in new RE&D funding for the Aircraft 
Technology, Fuels and Metrics program to accelerate the introduction of 
quieter and cleaner technology in commercial fleets and to initiate a 
NextGen Environmental Management System. The request also includes a $5 
million increase for the Airport Cooperative Research Program (ACRP) 
for environmental research to help mitigate aviation environmental 
impacts in the airport vicinity.
                        international leadership
    Our fiscal year 2009 request includes $63.1 million to expand FAA's 
international leadership role and to help improve safety. We will 
expand training and technical assistance programs that help civil 
aviation authorities meet international standards, as well as promoting 
seamless global operations. We will also continue to work with our 
international partners and the International Civil Aviation Authority 
(ICAO) to harmonize global technological standards, and to expand the 
use of global satellite navigation systems.
    Our role as an international leader in the air transportation 
industry also requires us to meet the challenges of global 
environmental sustainability. Although aviation's overall contribution 
to global carbon emissions is relatively small, aviation is considered 
one of the few rapidly growing contributors. To meet this challenge, 
last June former Administrator Marion Blakey and the Vice President and 
Transport Minister of the European Commission (EC) announced the 
creation of the Atlantic Interoperability Initiative to Reduce 
Emissions (AIRE) Partnership. The partnership will strive to accelerate 
implementation of environmentally friendly, new air traffic control 
technology and procedures. On February 18, I further expanded our 
international environmental leadership role when I signed an agreement 
in Singapore with Airservices Australia and Airways New Zealand to 
establish the Asia and South Pacific Initiative to Reduce Emissions 
(ASPIRE).
    We are also working closely with China to promote seamless NextGen 
operations around the globe. On February 20, FAA signed a memorandum 
with the Air Traffic Management Bureau (ATMB) of China's General 
Administration of Civil Aviation in Beijing. The JPDO worked with 
counterparts in China to outline the framework for achieving the 
harmonization and interoperability of NextGen and China's NextGen Air 
Traffic Management System (CNATS). The ATO will be assisting ATMB with 
key NextGen technologies, including RNAV, Global Positioning System 
(GPS) technology, and ADS-B.
                                security
    As you know, responsibility for the security of the aviation system 
now rests with the Department of Homeland Security. Most of the $218.6 
million requested in our budget focuses on enhancing the security of 
the FAA's own personnel, facilities, and communications. The FAA 
ensures the operability of the national airspace through the 
facilities, equipment and personnel of the air traffic control system, 
which is essential to the rapid recovery of transportation services in 
the event of a national crisis. Additionally, the budget request 
includes funding to continue upgrading and accrediting facilities, 
procure and implement additional security systems, and upgrade our 
command and control communications equipment.
                       organizational excellence
    At FAA, ``acting more like a business'' is not just a slogan. We 
are actively engaging in a comprehensive pay-for-performance program, 
consolidating operations, improving internal financial management, and 
increasing benefits to our customers. Our bottom line is results for 
our stakeholders, including the taxpayer and traveling public.
    We are continuing to make every effort to control our operating 
costs. Personnel reform for the agency, granted in 1998, is starting to 
bear fruit, with conversion from the traditional GS-Schedule pay system 
to pay for performance. This conversion is allowing the agency to 
flatten pay bands and tie performance incentives to pay increases. 
Accountability for results is systemic throughout our organization, 
with 90 percent of our employees on the pay-for-performance system, 
including our executives. Flight Plan performance targets must be 
achieved before annual pay raises are calculated. Executives and 
managers have a good deal of discretion in rewarding high-performing 
employees, and incentives are present to ensure quality work and 
innovation are rewarded. Executives are also eligible for short-term 
incentive increases when specific performance thresholds are met or 
exceeded.
    We know that labor costs drive a significant share of our budget, 
and we have been working to slow the rate of growth in labor costs. We 
are also increasing workforce productivity through cutting multiple 
levels of management and improving oversight of our worker's 
compensation caseload.
    I have already mentioned ATO's success with competitively sourcing 
its flight service station function. They have also successfully 
consolidated administrative and staff support functions from nine 
service areas to three, allowing for better service while saving an 
estimated $360 to $460 million over the next 10 years. The FAA has also 
taken steps to consolidate and improve our real property management and 
information technology (IT) investments.
    In a concerted effort to control costs and make smarter capital 
investment choices, several years ago FAA created a capital investment 
team to review financial and performance data. The team provides an 
early warning for potential problems as well as help to develop 
corrective actions. So far, these business case reviews have identified 
$460 million in lifecycle savings by restructuring/terminating 10 
programs, 6 of them major. To date, over 165 projects were reviewed in 
various stages of acquisition, capital formulation, and business case 
development.
    Finally, the Strategic Sourcing for the Acquisition of Various 
Equipment and Supplies (SAVES) initiative is an ambitious effort begun 
in fiscal year 2006 to implement best practices from the private sector 
in the procurement of administrative supplies, equipment, and IT 
hardware. It is expected to achieve $9 million in savings annually.
                               conclusion
    Our fiscal year 2009 request provides strong support for our staff 
hiring goals, safety and capital programs and NextGen activities. 
However, to better enable a move to NextGen, we believe comprehensive 
reform of FAA's programs and revenue streams is necessary. We will 
continue working with Congress and our stakeholders toward a successful 
reauthorization that is consistent with our key principles for a 
comprehensive cost-based financing structure. Given the vital role 
aviation plays in the Nation's economy and the need to prepare for the 
future, our funding request for fiscal year 2009 is designed to support 
America's growing demand for aviation-related services.

    Senator Murray. Thank you very much. Mr. Scovel.
STATEMENT OF HON. CALVIN L. SCOVEL III, OFFICE OF THE 
            INSPECTOR GENERAL, DEPARTMENT OF 
            TRANSPORTATION
    Mr. Scovel. Chairman Murray, Ranking Member Bond, members 
of the subcommittee, we appreciate the opportunity to testify 
today regarding key safety and modernization challenges facing 
the FAA.
    FAA faces challenges in maintaining the current level of 
safety, operating an increasingly strained system, and 
developing and transitioning to the next generation of air 
traffic control, or NextGen.
    My statement today will address three points. First: 
strengthening oversight of the aviation industry. The recent 
events at Southwest Airlines brought to light serious lapses in 
FAA's oversight of air carriers. For example, we found that 
FAA's Southwest Inspection Office developed an overly 
collaborative relationship with the air carrier and allowed 
repeatedly self-disclosed airworthiness, or AD, violations 
without ensuring that the carrier had addressed the underlying 
problem.
    We found that the balance tipped too heavily in favor of 
collaboration at the expense of effective oversight and 
appropriate enforcement.
    We also found that weaknesses in FAA's national oversight 
allowed the problems at Southwest to go undetected for several 
years. As early as 2003, inspectors raised concerns about 
Southwest's AD compliance and urged FAA to conduct systemwide 
reviews. However, FAA did not begin these reviews until after 
details of the March 2007 disclosure became public.
    In fact, we found that FAA inspectors had not reviewed 
Southwest's AD compliance systems since 1999. We have 
identified problems with FAA's national program for risk-based 
oversight in the past and recommended greater national 
oversight in 2002 and again in 2005. This is still needed 
today.
    Additionally, we found serious problems with FAA's 
processes for conducting internal reviews and ensuring 
appropriate corrective actions. FAA did not attempt to 
determine the root cause of the safety issue at Southwest or 
begin to take enforcement against the carrier until November 
2007. Too much attention was focused on the messenger and not 
on fixing the legitimate safety concerns.
    Corrective actions are urgently needed to strengthen FAA's 
oversight and prevent similar problems from recurring. We 
recommend that FAA revise its voluntary disclosure guidance to 
ensure that air carriers take corrective actions to address 
violations identified through self-disclosure; require second-
level review of self-disclosures before accepting and closing 
them; periodically transfer supervisory inspectors to ensure 
reliable and objective air carrier oversight; require a post-
employment, cooling-off period for inspectors; implement a 
process to track field office inspections and alert local, 
regional, and headquarters offices to overdue ATOS inspections; 
and establish an independent body to investigate inspector 
concerns.
    Second: the transition to NextGen. FAA is at a crossroads 
with modernizing the NAS. It must keep existing projects on 
track and set realistic expectations for NextGen. FAA's capital 
account must now be in shape to buy NextGen, an enormously 
complex effort that will cost tens of millions of dollars.
    We are not seeing the massive cost growth and schedule 
slips of the past, but existing efforts must stay on track 
because 30 projects will serve as platforms for NextGen. 
Several programs require attention, including ASDE-X--a key 
technology to improve runway safety. Thus far, 12 of 35 systems 
have been deployed for operational use.
    We are concerned, however, about FAA's ability to complete 
ASDE-X deployment with all planned capabilities at the more 
complex airports with less than half of the planned funds 
remaining.
    FAA is exploring ways to accelerate NextGen. However, it 
remains uncertain how much NextGen will cost or what can be 
delivered in terms of capacity and delay reduction. A number of 
actions are needed.
    First, FAA must conduct a gap analysis between the current 
system and the NextGen architecture. FAA's NextGen plans for 
the 2025 timeframe remain at a high level and do not detail how 
FAA will complete the transition to NextGen. Until this gap is 
well understood, it will be difficult to set requirements and 
reliable cost estimates.
    Next, FAA must set expectations and establish NextGen 
funding priorities. At this point, it is difficult for 
decisionmakers to determine what to invest in first or what can 
be accelerated. FAA needs to identify the highest priority 
improvements and reflect them in its budget requests.
    Finally, FAA must develop an interim architecture for what 
can be accomplished in the 2015 timeframe. This would help FAA 
determine reasonable goals, establish priorities, and make 
adjustments to existing systems.
    My third point today is addressing attrition in two of 
FAA's critical workforces: air traffic controllers and aviation 
safety inspectors. The long-expected surge in controller 
retirements has begun. FAA expects to hire and train at least 
17,000 new controllers through 2017. As a result of the high 
level of controller attrition, the overall percentage of 
controllers in training has grown substantially over the past 3 
years. New controllers now represent about 25 percent of the 
workforce, up from 15 percent in 2004.
    A key issue is to train new controllers to the fully 
certified level, a process that currently takes up to 3 years.
    FAA also faces challenges to its oversight mission due to 
attrition in its inspector workforce. Last year, FAA's hiring 
efforts kept pace with retirements, and the Agency ended the 
year with 133 additional inspectors over fiscal year 2006 
levels. However, FAA must closely oversee this effort since 
nearly half of the inspector workforce will be eligible to 
retire over the next 5 years.

                           PREPARED STATEMENT

    That concludes my statement, Madam Chairman. I would be 
glad to address questions you or other members of the 
subcommittee might have.
    [The statement follows:]
            Prepared Statement of Hon. Calvin L. Scovel III
    Chairman Murray, Ranking Member Bond, and members of the 
subcommittee: We appreciate the opportunity to testify today on the 
Federal Aviation Administration's (FAA) safety and modernization 
performance. Ensuring that airlines safely meet the demand for air 
travel is important to the flying public and the national economy; this 
will remain a top priority for the Department. FAA is facing the 
formidable challenge of operating and maintaining an increasingly 
strained system while transitioning to the next generation of air 
traffic control. In addition, FAA must concurrently address attrition 
in two of its most critical workforces--air traffic controllers and 
aviation safety inspectors.
    All of these are key facets of FAA's primary mission--aviation 
safety oversight. As this subcommittee is aware, safety is a shared 
responsibility among FAA, aircraft manufacturers, airlines, and 
airports. Together, all four form a series of overlapping controls to 
keep the system safe.
    The United States has achieved an impressive safety record over the 
past several years. This is a remarkable accomplishment given the 
rapidly changing aviation industry. For example, network carriers face 
considerable uncertainty with a weakening economy, increasing fuel 
prices, and rising competition from low-cost carriers; these carriers 
now comprise one-third of the market in terms of available passenger 
seats.
    Network carriers have moved aggressively away from high-cost 
structures by reducing in-house staff, renegotiating labor agreements, 
and increasing the use of external repair facilities. Three air 
carriers recently ceased passenger operations and a fourth just filed 
for bankruptcy protection. In addition, the recently announced intended 
merger between Northwest and Delta has generated considerable 
speculation regarding further consolidation within the industry.
    At the same time, demand for air travel has increased, and aircraft 
load factors are at nearly 80 percent--an all-time high. In 2007, U.S. 
airlines transported over 700 million passengers, and this number is 
forecasted to grow to over 1 billion by 2016.
    However, several high-profile events, including fundamental 
breakdowns in FAA oversight at Southwest Airlines (SWA), have raised 
concerns about whether FAA's overall approach to safety oversight is 
effective and what changes are needed. These concerns have been 
amplified by airlines' grounding of nearly 700 aircraft, which caused 
4,198 flight cancellations, since FAA began industry-wide assessments 
of compliance with safety directives. There is an urgent need to 
identify the root causes of safety problems and proactively examine how 
to maintain and ultimately enhance the margin of safety.
    Madam Chairman, it is against this backdrop that we would like to 
discuss three key challenges facing FAA and its stakeholders over the 
next several years:
  --Strengthening FAA's oversight of the aviation industry.
  --Keeping existing modernization programs on track, reducing risk 
        with NextGen, and setting realistic expectations.
  --Addressing attrition within two of FAA's critical workforces.
         strengthening faa's oversight of the aviation industry
    The recent events at SWA drew national attention to serious lapses 
in FAA's oversight of air carriers. As this subcommittee is aware, 
FAA's handling of whistleblower concerns regarding SWA's failure to 
follow a critical FAA airworthiness directive (AD) has had a cascading 
effect throughout the industry. While these safety lapses indicated 
problems with the airline's compliance, they are symptomatic of much 
deeper problems with FAA's oversight in the following areas.
    We found FAA's inspection office for SWA developed an overly 
collaborative relationship with the air carrier, which allowed repeated 
self-disclosures of AD violations through FAA's partnership program.\1\ 
These programs are intended to facilitate cooperation between FAA and 
air carriers to identify and address safety issues. Yet, FAA allowed 
SWA to repeatedly self-disclose AD violations without ensuring that SWA 
had developed a comprehensive solution for reported safety problems--
which is required for FAA to accept the disclosure and absolve the 
carrier of any penalty.
---------------------------------------------------------------------------
    \1\ OIG Testimony Number CC-2008-046, ``Actions Needed To 
Strengthen FAA's Safety Oversight and Use of Partnership Programs,'' 
April 3, 2008. OIG reports and testimonies are available on our 
website: www.oig.dot.gov.
---------------------------------------------------------------------------
    We also found that the events at SWA demonstrated weaknesses in 
FAA's national program for risk-based oversight--the Air Transportation 
Oversight System (ATOS). This allowed AD compliance issues in SWA's 
maintenance program to go undetected for several years. As early as 
2003, one of the whistleblowers expressed concerns to FAA about SWA's 
compliance with ADs. In 2006, he began urging FAA to conduct system-
wide reviews, but FAA did not begin these reviews until after the 
details of the March 2007 disclosure became public.
    In fact, FAA inspectors had not reviewed SWA's system for 
compliance with ADs since 1999. At the time of SWA's disclosure, FAA 
inspectors had not completed 21 key inspections for at least 5 years. 
While FAA has subsequently completed some of these inspections, as of 
April 15, 2008, 4 of these 21 inspections were still incomplete; some 
had not been completed for nearly 8 years.
    We previously identified system-wide problems with ATOS. In 
2005,\2\ we found that inspectors did not complete 26 percent of 
planned ATOS inspections--half of these were in identified risk areas. 
We recommended, among other things, that FAA strengthen its national 
oversight and accountability to ensure consistent and timely ATOS 
inspections. However, FAA has still not fully implemented our 
recommendations.
---------------------------------------------------------------------------
    \2\ OIG Report Number AV-2005-062, ``FAA Safety Oversight of an Air 
Carrier Industry in Transition,'' June 3, 2005.
---------------------------------------------------------------------------
    Our work at SWA and Northwest Airlines (NWA) \3\ has identified 
similar weaknesses in FAA's processes for conducting internal reviews 
and ensuring appropriate corrective actions. In the SWA case, FAA's 
internal reviews found, as early as April 2007, that the principal 
maintenance inspector (PMI) was complicit in allowing SWA to continue 
flying aircraft in violation of the AD. Yet, FAA did not attempt to 
determine the root cause of the safety issue nor initiate enforcement 
action against the carrier until November 2007. At NWA, FAA's reviews 
of an inspector's safety concerns were limited and also overlooked key 
findings identified by other inspectors. Although FAA found that some 
of the inspector's safety concerns were valid, FAA informed him that 
all of his concerns lacked merit.
---------------------------------------------------------------------------
    \3\ OIG Report Number AV-2007-080, ``FAA's Actions Taken To Address 
Allegations of Unsafe Maintenance Practices at Northwest Airlines,'' 
September 28, 2007.
---------------------------------------------------------------------------
    We also have concerns regarding FAA's failure to protect employees 
who report safety issues from retaliation by other FAA employees. For 
example, in the SWA case, after one whistleblower voiced his concerns 
to FAA, an anonymous hotline complaint was lodged against him. 
According to the inspection office manager, the PMI indicated that a 
SWA representative submitted the complaint. The complaint was non-
specific and never substantiated, but the whistleblower was removed 
from oversight duties for 5 months while under investigation. Yet, FAA 
did not suspend other inspectors who were subjects of similar 
complaints, including the PMI who admitted that he allowed SWA to 
continue flying in violation of the AD.
    Our work at NWA found the same problem with FAA's handling of the 
inspector who reported safety concerns. As with the inspector in the 
SWA case, FAA managers reassigned an experienced inspector to office 
duties, after a complaint from the airline, and restricted him from 
performing oversight on the carrier's premises. Both the SWA and NWA 
cases demonstrate that FAA must pursue a more reliable internal review 
process and protect employees who identify important safety issues.
    FAA recently announced several actions to address the SWA safety 
directive violation. These include initiating a review of AD compliance 
at SWA and other air carriers. FAA also proposed to fine SWA more than 
$10 million.
    While FAA's proposed actions are necessary, albeit long overdue, it 
must make the following changes to its air carrier oversight to prevent 
recurrence of these safety issues:
  --Ensure that its Voluntary Disclosure Reporting Program (VDRP) 
        requires inspectors to (a) verify that air carriers take 
        comprehensive actions to correct the underlying causes of 
        violations identified through self-disclosure programs and (b) 
        evaluate, before accepting a new report of a previously 
        disclosed violation, whether the carrier developed and 
        implemented a comprehensive solution.
  --Implement a process for second-level supervisory review of self-
        disclosures before they are accepted and closed.
  --Periodically rotate supervisory inspectors to ensure reliable and 
        objective air carrier oversight.
  --Require that its post-employment guidance include a ``cooling-off'' 
        period when an FAA inspector is hired at an air carrier he or 
        she previously inspected.
  --Implement a process to track field office inspections and alert the 
        local, regional, and Headquarters offices to overdue 
        inspections.
  --Establish an independent organization to investigate safety issues 
        identified by its employees.
  --Develop a national review team that conducts periodic reviews of 
        FAA's oversight of air carriers.
    FAA needs to address these recommendations to demonstrate its 
commitment to effective oversight. We will continue to examine FAA's 
oversight of the aviation industry from a national perspective. We will 
keep this subcommittee apprised of our progress as well as other 
actions FAA should take to ensure safety.
    Our work has also shown that FAA's oversight of repair stations and 
aircraft manufacturers' suppliers must keep pace with the dynamic 
changes occurring in those industries. Although outsourcing has 
increased in recent years, FAA's oversight has focused primarily on 
carriers' in-house repairs instead of repair stations performing a 
higher volume of repairs. We have emphasized that the issue is not 
where maintenance is performed, but that maintenance requires effective 
oversight.
    FAA's system for overseeing manufacturers' suppliers does not fully 
consider their increased role in the production of aircraft parts. As a 
result, we found that FAA has not ensured that manufacturers 
effectively oversee suppliers or that its inspectors perform enough 
supplier audits to adequately assess manufacturers' quality assurance 
systems.
 keeping existing modernization projects on track, reducing risk with 
              nextgen, and setting realistic expectations
    A major challenge for FAA over the next 10 years and beyond will be 
transitioning to the Next Generation Air Transportation System 
(NextGen). FAA's capital account is now being shaped by NextGen--an 
enormously complex effort that will cost tens of billions of dollars. 
FAA is requesting $2.7 billion for its capital account in fiscal year 
2009, an increase of over $200 million from the fiscal year 2008 
enacted level of $2.5 billion. Over $600 million in the fiscal year 
2009 request is dedicated to NextGen efforts, such as the Automatic 
Dependent Surveillance-Broadcast (ADS-B)--a new satellite-based 
surveillance system that has the potential to enhance safety and 
capacity.
    It will be important to keep existing modernization efforts on 
track as 30 projects are expected to serve as platforms for NextGen 
initiatives. Our recent report \4\ on FAA's modernization efforts 
examined the status of 18 major acquisitions with a combined value of 
$17.5 billion.
---------------------------------------------------------------------------
    \4\OIG Report Number AV-2008-049, ``Air Traffic Control 
Modernization: FAA Faces Challenges in Managing Ongoing Projects, 
Sustaining Existing Facilities, and Introducing New Capabilities,'' 
April 14, 2008.
---------------------------------------------------------------------------
    While we are not seeing the massive cost growth or schedule slips 
that occurred in the past, we are concerned about several projects that 
continue to experience cost and schedule risks or reduced benefits. For 
example, FAA has spent about $314 million (57 percent) of planned 
funding for the Airport Surface Detection Equipment-Model X (ASDE-X) 
program (a technology to prevent accidents on runways). However, FAA 
has only deployed 12 of 35 systems for operational use and must now 
deploy 23 systems at the more complex airports with less than half of 
the planned funds remaining.
    FAA is making progress in developing the NextGen Enterprise 
Architecture (a technical blueprint), which is planned for 
implementation by 2025. The agency is also exploring ways to accelerate 
NextGen. However, costs for NextGen remain uncertain, and FAA needs to 
establish reasonable expectations for NextGen investments and realistic 
timeframes for improvements to enhance capacity and reduce delays. At 
this juncture, FAA needs to pursue the following actions:
  --Conduct a gap analysis of the current National Airspace System 
        (NAS) and future NextGen capabilities. Until FAA completes a 
        gap analysis, it will not be able to determine technical 
        requirements that translate into reliable cost and schedule 
        estimates for major acquisitions.
  --Set expectations and establish NextGen funding priorities. FAA 
        needs to better understand costs and benefits and then identify 
        the high priority improvements for inclusion in its budget 
        requests.
  --Develop an interim architecture for what can be accomplished by 
        2015. This would help FAA to determine reasonable goals, 
        establish priorities, fully identify adjustments to existing 
        projects, refine requirements for new systems, and understand 
        complex transition issues.
  --Develop a strategy for acquiring the necessary skill mix to 
        effectively manage and execute NextGen. FAA must anticipate 
        needed skill sets for NextGen to avoid the problems that have 
        hindered its modernization efforts.
      addressing attrition within two of faa's critical workforces
    Another key issue for FAA for at least the next 10 years is 
addressing attrition in two of its critical safety workforces--air 
traffic controllers and aviation safety inspectors. Since 2005, 3,300 
controllers have left the agency--23 percent more than projected. FAA 
has accelerated its hiring efforts and has hired 3,450 new controllers 
since 2005--25 percent more than projected. Still, FAA faces a major 
challenge as it must hire and train at least 17,000 new controllers 
through 2017.
  --As a result of the high level of controller attrition, FAA is 
        facing a fundamental transformation in the composition of its 
        controller workforce. The overall percentage of controllers-in-
        training has grown substantially during the past 3 years. New 
        controllers now represent about 25 percent of the workforce (up 
        from 15 percent in 2004). However, that percentage can vary 
        extensively by location--from as little as 2 percent (e.g., the 
        Boston Terminal Radar Approach Control facility [TRACON]) to as 
        much as 50 percent (e.g., the Las Vegas TRACON).
      A major challenge in addressing the attrition surge will be to 
        train new controllers to the Certified Professional Controller 
        (CPC) level at their assigned locations--a process that can 
        take up to 3 years. Training new controllers to the CPC level 
        is important for two reasons: (1) only CPCs are qualified to 
        control traffic at all positions of their assigned area; and 
        (2) only CPCs certified for at least 6 months (at their 
        assigned location) can become on-the-job training (OJT) 
        instructors for other new controllers. FAA must have enough OJT 
        instructors at all locations if it is to achieve its ambitious 
        hiring and training plans for the next 10 years and beyond.
  --FAA also is facing challenges to its oversight mission due to 
        attrition in its inspector workforce. FAA has about 4,100 
        inspectors to oversee a dynamic and rapidly changing industry, 
        which includes 114 commercial air carriers, almost 5,000 
        foreign and domestic repair stations, more than 700,000 active 
        pilots, and more than 1,600 approved manufacturers. Last year, 
        FAA's hiring efforts kept pace with retirements, and the agency 
        ended the year with 133 additional inspectors compared to 
        fiscal year 2006 levels. However, FAA must continue to closely 
        oversee this effort, since nearly half of the inspector 
        workforce will be eligible to retire in the next 5 years.
      To maximize its limited inspector resources, FAA has been working 
        toward risk-based safety oversight systems for air carriers, 
        repair stations, and manufacturers. These systems target 
        inspector resources to areas of greatest risk. However, unless 
        FAA develops a reliable staffing model, it will not be able to 
        effectively use its inspectors.
    I would now like to discuss these areas in further detail.
         strengthening faa's oversight of the aviation industry
Recent Events at Southwest Airlines Underscore System-Wide Weaknesses 
        in FAA's Air Carrier Oversight
    The recent events at SWA exposed significant weaknesses in FAA's 
oversight of air carriers and problems with its partnership programs. 
The FAA directive \5\ in this case required SWA to inspect the 
fuselages of its Boeing 737s for potential cracks. FAA issued this 
directive after an Aloha Airlines 737 lost a major portion of its hull 
while in flight at 24,000 feet in 1988, resulting in 1 fatality and 
multiple injuries.
---------------------------------------------------------------------------
    \5\ FAA Airworthiness Directive 2004-18-06 requires that Boeing 
737s (series 200, 300, 400, and 500) be inspected for fuselage cracks 
every 4,500 cycles (1 cycle equals 1 take-off and landing) after they 
reach 35,000 cycles.
---------------------------------------------------------------------------
    According to FAA, when an air carrier determines that it has not 
implemented an AD, it is required to immediately ground all non-
compliant aircraft. FAA inspectors share this responsibility--if an 
inspector becomes aware that an air carrier has violated the terms of 
an AD, the inspector is required to ensure that the aircraft are 
grounded.
    To meet this requirement, air carriers need a system to help them 
perform repetitive inspections of aircraft fuselages in a timely 
manner. However, we found that SWA did not have an adequate system to 
ensure it completed these inspections. As a result, SWA operated 46 
aircraft that were not inspected for fuselage cracks. These aircraft 
flew in violation of the AD on more than 60,000 flights for up to 9 
months. We estimate that these aircraft carried 6 million passengers 
during this period.
    According to SWA, it discovered it had violated this directive on 
March 14, 2007. SWA notified an FAA principal maintenance inspector the 
following day. However, the inspector did not direct SWA to ground the 
affected planes, and SWA continued to operate them on 1,451 flights for 
8 more days, carrying an estimated 145,000 passengers.
    The PMI permitted--and encouraged--SWA to formally self-disclose 
the AD violation through its Voluntary Disclosure Reporting Program, 
which would allow the airline to avoid any penalties. FAA accepted the 
self-disclosure, even though it had already accepted multiple 
disclosures on AD violations; this should have prompted FAA to question 
whether the carrier had corrected underlying problems.
    Once it formally self-disclosed the violation on March 19, 2007, 
SWA stated that it was in compliance with the AD, meaning it had 
inspected or grounded all affected aircraft. However, two FAA 
inspectors (the whistleblowers in this case) reported that their 
supervisor, the PMI, knowingly permitted SWA to continue flying the 
identified aircraft even after SWA's self-disclosure. SWA officials 
confirmed this and stated that the PMI gave them verbal permission to 
continue flying the aircraft.
    We found that--after SWA self-disclosed the overflight--several of 
these aircraft flew into airports multiple times where they could have 
received the required inspections. When SWA finally inspected the 
aircraft, it found fuselage cracks in five of them. The AD specifies 
that these cracks could potentially lead to fuselage separation and 
rapid aircraft depressurization if left in disrepair.
    While these critical safety lapses indicate problems with SWA's 
ability to comply with safety directives, they are symptomatic of much 
deeper problems with FAA's oversight (the timeline below shows the 
events of the SWA disclosure and FAA actions).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Overly Collaborative Relationship With Air Carrier Contributed to 
        Breakdowns in Partnership Program
    We found that FAA's inspection office for SWA developed an overly 
collaborative relationship with the air carrier that allowed repeated 
self-disclosures of AD violations through its partnership program. 
Partnership programs are intended to encourage data-sharing between FAA 
and air carriers to identify and address safety issues. Yet, FAA 
allowed SWA to repeatedly self-disclose AD violations without ensuring 
that SWA had developed a comprehensive solution for reported safety 
problems--which is required for FAA to accept the disclosure and 
absolve the carrier of any penalty.
    However, SWA's proposed solutions, which FAA has repeatedly 
accepted, have failed to solve AD compliance issues as the carrier has 
violated four different ADs eight times since December 2006, including 
five in 2008. FAA's oversight in this case appears to allow, rather 
than mitigate, recurring safety violations.
    FAA maintains that disclosure programs are valuable, as they can 
help to identify and correct safety issues that might not otherwise be 
obtainable. However, we are concerned that FAA relies too heavily on 
self-disclosures and promotes a pattern of excessive leniency at the 
expense of effective oversight and appropriate enforcement. Further, a 
partnership program that does not ensure carriers correct underlying 
problems is less likely to achieve safety benefits.
    Our ongoing work at another carrier has identified concerns with 
employees using disclosures to avoid penalties for safety violations. 
FAA must take steps to maintain the safety objective of these programs 
by actively discouraging improper relationships between inspection 
offices and carriers so that these programs do not lapse into an 
amnesty path for perpetual safety violators.
Missed Inspections at SWA Demonstrate Weaknesses in FAA's National 
        Oversight
    Our work at SWA and other carriers has found weaknesses in FAA's 
national program for risk-based oversight--the Air Transportation 
Oversight System (ATOS). At SWA, multiple, missed ATOS inspections 
allowed AD compliance issues in SWA's maintenance program to go 
undetected for several years. As early as 2003, one of the 
whistleblowers expressed concerns to FAA about SWA's compliance with 
ADs. In 2006, he began urging FAA to conduct system-wide reviews, but 
FAA did not begin these reviews until after the details of the March 
2007 disclosure became public.
    In fact, FAA inspectors had not reviewed SWA's system for 
compliance with ADs since 1999. At the time of the SWA disclosure, FAA 
inspectors had not completed 21 key inspections in at least 5 years. 
While FAA has subsequently completed some of these inspections, as of 
April 15, 2008, four of these inspections were still incomplete; some 
had not been completed for nearly 8 years.
    We have previously identified system-wide problems with ATOS. For 
example, in 2002,\6\ we found inconsistent inspection methods across 
FAA field offices for various carriers. As a result, FAA inspectors 
were confused over how to conduct ATOS inspections and assess risks.
---------------------------------------------------------------------------
    \6\ OIG Report Number AV-2002-088, ``Air Transportation Oversight 
System,'' April 8, 2002.
---------------------------------------------------------------------------
    In 2005, we found that inspectors did not complete 26 percent of 
planned ATOS inspections--half of these were in identified risk areas. 
We recommended, among other things, that FAA strengthen its national 
oversight and accountability to ensure consistent and timely ATOS 
inspections. However, FAA still has not fully addressed our 
recommendations.
Events at SWA and NWA Demonstrate Weaknesses in FAA's Internal Reviews 
        of Safety Issues and Protection for Employees Who Report Them
    Our work at SWA and NWA have identified weaknesses in FAA's 
processes for conducting internal reviews, ensuring corrective actions, 
and protecting employees who report safety concerns. In the SWA case, 
FAA's internal reviews found as early as April 2007 that the PMI was 
complicit in allowing SWA to continue flying aircraft in violation of 
the AD. Yet, FAA did not attempt to determine the root cause of the 
safety issue nor initiate enforcement action against the carrier until 
November 2007.
    At NWA, FAA's reviews of an inspector's safety concerns were 
limited and overlooked key findings identified by other inspectors. 
Although some of the inspector's safety concerns were valid, FAA 
informed him that all of his concerns lacked merit.
    We also have concerns regarding FAA's failure to protect employees 
who report safety issues from retaliation by other FAA employees. For 
example, in the SWA case, after one whistleblower voiced his concerns 
to FAA, an anonymous hotline complaint was lodged against him. 
According to the inspection office manager, the PMI indicated that a 
SWA representative submitted the complaint.
    The complaint was non-specific and never substantiated, but the 
whistleblower was removed from his oversight duties for 5 months while 
under investigation. However, FAA did not suspend other inspectors who 
were subjects of similar complaints, including the PMI who admitted he 
allowed SWA to continue flying in violation of the AD.
    Our work at NWA found the same problem with FAA's handling of the 
inspector who reported safety concerns. As with the inspector in the 
SWA case, FAA managers reassigned an experienced inspector to office 
duties, following a complaint from the airline, and restricted him from 
performing oversight on the carrier's premises.
    Both the SWA and NWA cases demonstrate that FAA must pursue a more 
reliable internal review process and protect employees who identify 
important safety issues.
FAA Needs To Make Immediate and Comprehensive Changes to Its Air 
        Carrier Oversight Programs
    FAA recently announced several actions to address the SWA safety 
directive violation. These include initiating a review of AD compliance 
at SWA and other air carriers. FAA also proposed to fine SWA more than 
$10 million.
    While FAA's actions are necessary, albeit long overdue, the issues 
we have identified will require FAA to make the following changes to 
its air carrier oversight programs:
  --Ensure that its VDRP guidance requires inspectors to (a) verify 
        that air carriers take comprehensive actions to correct the 
        underlying causes of violations identified through self-
        disclosure programs and (b) evaluate, before accepting a new 
        report of a previously disclosed violation, whether the carrier 
        developed and implemented a comprehensive solution.
  --Implement a process for second-level supervisory review of self-
        disclosures before they are accepted and closed--acceptance 
        should not rest solely with one inspector.
  --Periodically rotate supervisory inspectors to ensure reliable and 
        objective air carrier oversight.
  --Require that its post-employment guidance include a ``cooling-off'' 
        period when an FAA inspector is hired at an air carrier he or 
        she previously inspected.
  --Implement a process to track field office inspections and alert the 
        local, regional, and Headquarters offices to overdue 
        inspections.
  --Establish an independent organization to investigate safety issues 
        identified by its employees.
  --Develop a national review team that conducts periodic reviews of 
        FAA's oversight of air carriers.
FAA Must Improve Its Oversight of Repair Stations and Aircraft 
        Manufacturers' Suppliers
    As with its oversight of air carriers, our work has also shown that 
FAA must make similar improvements to its oversight of repair stations 
and its risk-based system for overseeing aircraft manufacturers' 
suppliers. We found that FAA's oversight has not kept pace with the 
dynamic changes occurring in both of these industries.
FAA Must Closely Monitor Air Carriers' Increased Use of Repair Stations
    Air carriers have outsourced maintenance for years to both domestic 
and foreign repair facilities. These facilities can complete repairs at 
lower costs and provide services, such as engine repair, that otherwise 
would require air carriers to have specialized equipment and staff. 
Many air carriers outsource their engine work to the original equipment 
manufacturers because they can provide a specific level of expertise as 
well as warranties for their products. However, in recent years, air 
carriers' use of external repair facilities has become more prominent.
    As we testified in June,\7\ from 1996 to 2006, while total 
maintenance costs fluctuated, air carriers continued to increase the 
percentage of maintenance dollars spent on outsourced maintenance--from 
37 to 64 percent. In 2006, $3.7 billion of the $5.7 billion spent on 
maintenance was outsourced (see figure 2).
---------------------------------------------------------------------------
    \7\ OIG Testimony Number CC-2007-076, ``Aviation Safety: FAA 
Oversight of Foreign Repair Stations,'' June 20, 2007.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Neither FAA nor the Department maintains information on how much 
maintenance air carriers outsource to foreign facilities. However, our 
work shows that the number of foreign FAA-certificated repair stations 
repairing U.S. aircraft increased from 344 in 1994 to 698 in 2007. We 
have emphasized that the issue is not where maintenance is performed, 
but that maintenance requires effective oversight.
    We have identified weaknesses in FAA's ability to effectively 
monitor the increase in outsourcing. For example, in July 2003, we 
reported \8\ that FAA had not shifted its oversight of aircraft 
maintenance to the locations where the maintenance was performed. 
Although air carriers were using external repair stations to perform 
more of their maintenance work, FAA was still focusing most of its 
inspections on the maintenance work that air carriers performed within 
their own facilities.
---------------------------------------------------------------------------
    \8\ OIG Report Number AV-2003-047, ``Review of Air Carriers' Use of 
Aircraft Repair Stations,'' July 8, 2003.
---------------------------------------------------------------------------
    During the past 8 years, FAA has taken important steps to move its 
safety oversight for air carriers and repair stations to risk-based 
systems. FAA's new oversight system applies to both domestic and 
foreign repair stations. However, FAA cannot effectively implement a 
risk-based system for oversight of aircraft maintenance if it does not 
know where the maintenance is performed.
    In December 2005,\9\ we again reported that FAA did not have good 
systems for determining which repair facilities air carriers were using 
to perform their most critical maintenance. FAA subsequently developed 
new inspector guidance and air carrier processes to address this 
problem, but these efforts still fall short of providing FAA with the 
information it needs. We have concerns about the new system primarily 
because it does not require air carriers to report: (1) volume data for 
repairs performed; and (2) all repair stations that provide critical 
component repairs. Further, FAA does not validate the information that 
carriers provide. FAA also does not have specific inspector guidance 
for identifying the types of non-certificated repair facilities that we 
found were performing critical maintenance.
---------------------------------------------------------------------------
    \9\ OIG Report Number AV-2006-031, ``Review of Air Carriers' Use of 
Non-Certificated Repair Facilities,'' December 15, 2005.
---------------------------------------------------------------------------
    FAA has agreed to require air carriers to report overall volume 
data on repairs, but it has not agreed to require them to report volume 
data for repair stations providing critical component repairs. In 
addition, FAA still does not require inspectors to validate the 
information that carriers provide. If air carrier reports are to be an 
effective means for FAA to track and accurately target repair 
facilities that air carriers use the most, a more thorough process will 
be needed.
FAA Must Improve Its Oversight of Aircraft Manufacturers' Suppliers
    In February, we reported \10\ that FAA has worked toward a risk-
based oversight system for aviation manufacturers since 1998. FAA 
implemented this system in fiscal year 2003, but it does not take into 
account the degree to which manufacturers now use suppliers to make 
aviation products. FAA based the new system on historical manufacturing 
business models, in which manufacturers maintained primary control over 
the production of their aircraft rather than using suppliers to design 
and manufacture extensive portions of aircraft.
---------------------------------------------------------------------------
    \10\ OIG Report Number AV-2008-026, ``Assessment of FAA's Risk-
Based System for Overseeing Aircraft Manufacturers' Suppliers,'' 
February 26, 2008.
---------------------------------------------------------------------------
    We found weaknesses throughout FAA's oversight system for 
manufacturers and their suppliers. First, FAA has not ensured that 
manufacturers are overseeing their suppliers. Manufacturers are the 
first line of defense in ensuring the products used on their aircraft 
meet FAA and manufacturer standards. Yet, during the 24 months 
preceding our review, manufacturers had not audited 6 of the 21 
critical parts suppliers we visited.
    Second, FAA does not require inspectors to perform enough audits of 
suppliers to determine how well manufacturers' quality assurance 
systems are working. FAA's guidance for overseeing manufacturers' 
quality assurance systems only requires inspectors to perform, at most, 
four supplier audits, regardless of how many suppliers the manufacturer 
uses.
    Supplier control audits are a primary tool that FAA uses to assess 
how well manufacturers' oversight systems are working. Equally 
important, these audits function as a second layer of control for 
preventing improperly produced parts from entering the market.
    However, as shown in table 1 below, in each of the last 4 years, 
FAA has inspected an average of 1 percent of the total suppliers used 
by the five manufacturers we reviewed. At FAA's current surveillance 
rate, it would take inspectors at least 98 years to audit every 
supplier once. This is particularly troubling because manufacturers are 
not evaluating these suppliers frequently or comprehensively.

                TABLE 1.--NUMBER OF SUPPLIER AUDITS COMPLETED BY FAA FOR FIVE MAJOR MANUFACTURERS
----------------------------------------------------------------------------------------------------------------
                                     No. of                                                              Avg.
          Manufacturer              Supplier     Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Percent Per
                                 Facilities \1\      2003         2004         2005         2006     Fiscal Year
----------------------------------------------------------------------------------------------------------------
A..............................          4,012             2            1            7            4            1
B \2\..........................          2,553            31           26           15           27            1
C..............................            706             5            4            4            6            1
D..............................            489             5            3            1            2            1
E..............................            367   ...........            2            3            2           1
----------------------------------------------------------------------------------------------------------------
\1\ Number of supplier facilities based on information obtained for 2004.
\2\ This manufacturer operates seven separate manufacturing divisions. As a result, FAA evaluated the seven
  divisions separately for risk assessment purposes, which resulted in more supplier control audits. Source:
  FAA's National Supplier Control Audit Schedules, fiscal year 2003-2006.

    Third, the systemic deficiencies we identified at the 21 supplier 
facilities we visited indicate that manufacturers and FAA need to 
strengthen their oversight of these facilities. For example, nearly 
half (43 percent) of the suppliers had deficiencies in their tool 
calibration and employee training programs. Deficiencies in these areas 
could impact the quality of the parts these suppliers produce.
 keeping existing modernization programs on track, reducing risks with 
              nextgen, and setting realistic expectations
Progress and Problems With FAA Acquisitions
    Overall, we are not seeing the significant cost growth and schedule 
slips with FAA major acquisitions that occurred in the past. This is 
because FAA has taken a more incremental approach to managing major 
acquisitions. When comparing revised baselines, only 2 of the 18 
projects we reviewed have experienced additional cost growth ($53 
million, combined) and delays (5 years, combined) since our last report 
in 2005.\11\ However, from program inception, six programs have 
experienced cost growth of close to $4.7 billion and schedule delays of 
1 to 12 years.
---------------------------------------------------------------------------
    \11\ OIG Report Number AV-2005-061, ``Status of FAA's Major 
Acquisitions: Cost Growth and Schedule Delays Continue To Stall Air 
Traffic Modernization,'' May 26, 2005.
---------------------------------------------------------------------------
    While FAA's incremental approach may reduce risk in the near term, 
it has left several programs with no clear end-state and less 
visibility into how much they will ultimately cost. A case in point 
involves modernizing facilities that manage traffic in the vicinity of 
airports, commonly referred to as ``terminal modernization.''
    In 2004, faced with cost growth of over $2 billion for the Standard 
Terminal Automation Replacement (STARS) program, FAA shifted to a 
phased process, committing STARS to just 47 sites at an estimated cost 
of $1.46 billion. FAA's original plan was to deploy the system to 172 
sites for $940 million. FAA renamed this modernization effort the 
Terminal Automation Modernization-Replacement (TAMR) initiative.
    In 2005, FAA approved modernizing displays through the TAMR program 
(referred to as TAMR Phase 2) by replacing legacy equipment at five 
additional small sites and replacing the aging displays at four large, 
complex facilities. However, this leaves over 100 sites still in need 
of modernization. Although FAA has not decided how it will modernize 
these sites, its fiscal year 2008 budget submission indicates that the 
total cost for this effort could be over $1 billion. FAA is requesting 
$31.2 million for terminal modernization efforts for fiscal year 2009.
    There is no defined end-state for terminal modernization, and past 
problems with developing and deploying STARS leave FAA in a difficult 
position to begin introducing NextGen capabilities. Future terminal 
modernization costs will be shaped by: (1) NextGen requirements; (2) 
the extent of FAA's terminal facilities consolidation; and (3) the need 
to replace or sustain existing (legacy) systems that have not been 
modernized.
    There are several ongoing acquisition programs that warrant 
attention because of their importance to NextGen and potential cost 
increases, schedule slips, or diminishing benefits.
    En Route Automation Modernization (ERAM).--This program replaces 
the hardware and software at facilities that manage high-altitude 
traffic and is a key platform for NextGen. With an estimated cost of 
$2.1 billion, ERAM is one of the largest, most complex acquisitions in 
FAA's modernization portfolio. FAA is requesting $203 million for ERAM 
for fiscal year 2009, a reduction from the fiscal year 2008 level of 
$369 million. ERAM is currently on schedule for its first operational 
use at the Salt Lake En Route Center in October 2008, but considerable 
testing and integration work lies ahead. Because ERAM is expected to 
serve as a foundation for NextGen, any program cost increases or 
schedule delays will affect the pace of introducing new capabilities 
and could directly impact the overall transition to NextGen.
    ASDE-X.--ASDE-X is FAA's latest effort designed to help controllers 
identify aircraft and vehicle positions on the airport surface, with 
the ultimate goal of reducing the risks of accidents on runways. It is 
planned to improve airport safety by operating in all-weather and low-
visibility conditions (e.g., fog, rain, and snow) when controllers 
cannot see surface movement on ramps, runways, and taxiways. In fiscal 
year 2007, Congress appropriated $70.6 million to FAA for the ASDE-X 
program. In fiscal year 2008, FAA expects to spend $40.6 million for 
ASDE-X efforts. For fiscal year 2009, it is requesting $32.7 million.
    ASDE-X was initially designed to provide FAA with a low-cost 
alternative to its ASDE-3 radar systems for small- to medium-sized 
airports, but it has evolved into a different program. In September 
2005, FAA made a major change to the scope of the program, increasing 
ASDE-X costs from $505.2 million to $549.8 million and extending the 
completion date from 2007 to 2011. FAA now plans to upgrade ASDE-3 
systems with ASDE-X capabilities at 25 large airports and install the 
system at 10 other airports that have no existing surface surveillance 
technology. FAA concluded this would yield the greatest return on its 
investment and maximize safety benefits by deploying ASDE-X 
capabilities to airports with larger traffic counts or more complex 
operations.
    In October 2007, we reported \12\ that the ASDE-X program is at 
risk of not meeting its goal to commission all 35 ASDE-X systems for 
$549.8 million by 2011 and may not achieve all planned safety benefits.
---------------------------------------------------------------------------
    \12\ OIG Report Number AV-2008-004, ``FAA Needs To Improve ASDE-X 
Management Controls To Address Cost Growth, Schedule Delays, and Safety 
Risks,'' October 31, 2007.
---------------------------------------------------------------------------
  --Since the 2005 re-baseline, FAA has increased the cost to acquire 
        and install some ASDE-X activities by $94 million. To stay 
        within the revised baseline, FAA offset this cost by decreasing 
        planned expenditures for seven other program activities, such 
        as construction for later deployment sites.
  --We are also concerned that the ASDE-X schedule is not realistic. At 
        the time of our October 2007 report, FAA had commissioned 11 of 
        the 35 ASDE-X sites; however, only 6 of the 11 had all the 
        planned capabilities commissioned for operational use. We note 
        that in April 2008, FAA commissioned the 12th ASDE-X system for 
        operational use. FAA officials told us that all ASDE-X systems 
        have been purchased with spares and test equipment to support 
        each site and that site prep has begun. They also noted that 
        each airport presents unique challenges that must be addressed. 
        We maintain that FAA should not declare ASDE-X as commissioned 
        for operational use until all planned capabilities are fully 
        implemented.
  --FAA needs to resolve operational performance issues associated with 
        key ASDE-X safety capabilities. For example, while FAA has 
        commissioned the first ASDE-X system that can alert controllers 
        of potential collisions on intersecting runways or converging 
        taxiways, under certain circumstances the system does not 
        generate timely alerts for controllers to take appropriate 
        action. Additionally, ASDE-X is susceptible to dropping targets 
        during heavy precipitation. FAA has made progress in addressing 
        these problems. FAA will need to fully test ASDE-X safety 
        capabilities to ensure the system can meet the unique needs of 
        each airport scheduled to receive ASDE-X.
    Because of these issues, the program is at risk of not meeting its 
goals to deliver all 35 ASDE-X systems by 2011. In October 2007, we 
recommended that FAA develop realistic cost estimates for all 
activities required to complete ASDE-X implementation. We also 
recommended that FAA resolve operational performance issues identified 
during system testing before deploying key ASDE-X safety capabilities 
at remaining airports. FAA concurred with our recommendations and 
agreed to address our concerns. We will continue to monitor FAA's 
efforts to deploy ASDE-X and implement safety capabilities.
    FAA Telecommunications Infrastructure (FTI) Program.--FTI is 
intended to replace seven FAA-owned and -leased telecommunications 
networks with a single network to provide FAA with services through 
2017 and reduce operating costs. In fiscal year 2007, Congress 
appropriated $28 million in facilities and equipment (F&E) funds to FAA 
for this program. In fiscal year 2008, FAA expects to spend $8.5 
million in F&E funds for FTI efforts. Unlike most acquisitions, 
however, the vast majority of FTI is funded out of the operations 
account as opposed to the F&E account.
    For fiscal year 2008, FAA estimates it will need $210 million in 
operations funds to support FTI operations and another $91 million to 
extend legacy network operations while continuing the FTI transition. 
For fiscal year 2009, the Agency is planning to spend $186 million to 
support FTI operations and an additional $19 million for legacy 
telecommunications systems. The costliest legacy network FTI will 
replace is the Leased Interfacility National Airspace System 
Communications System (LINCS), with over $600 million spent for 
operations from 2002 to 2007. In April 2007, FAA completed negotiations 
to extend LINCS until April 2008 for a $92 million ceiling price, with 
three 6-month options. FTI program officials told us they do not intend 
to extend the contract for LINCS legacy network beyond April 2008. This 
will help to control telecommunication costs.
    In April 2006, we reported \13\ that FTI was unlikely to meet its 
December 2007 transition completion date and recommended that FAA 
improve FTI management controls and develop a realistic master 
schedule. FAA agreed and tasked the MITRE Corporation with conducting 
an independent assessment of the FTI master schedule. The assessment 
identified several risks associated with FAA meeting its transition 
deadline. Consequently, in August 2006, FAA's Joint Resource Council 
approved a second re-baseline of FTI's cost and schedule goals, which 
extended the completion date to December 2008 and increased the overall 
cost from $3.3 billion to $3.4 billion. FAA also reduced the total 
number of NAS services to be transitioned to FTI from 25,294 to 20,033.
---------------------------------------------------------------------------
    \13\ OIG Report Number AV-2006-0147 ``FAA's Telecommunications 
Infrastructure Program: FAA Needs To Take Steps To Improve Management 
Controls and Reduce Schedule Risks,'' April 27, 2006.
---------------------------------------------------------------------------
    Since we last reported, FAA has made significant progress with the 
FTI transition. As of January 31, 2008, FAA has delivered 18,294 
services. However, it is important to note that shifting requirements, 
eroding cost benefits, and risks to air traffic operations during the 
transition have impacted the FTI program.
    We note that FAA will not replace all networks as originally 
planned. FAA has decided not to replace digital equipment that supports 
long-range radars or switching equipment that supports flight data for 
high-altitude communications, as originally envisioned by the FTI 
program office. As a result, FAA will have to maintain this existing 
equipment much longer than expected. The cost of doing so and the 
impact on potential FTI benefits remain uncertain. Additionally, even 
though the last baseline significantly reduced the number of services 
planned for transition, this number has since climbed to 22,545. FAA 
attributes the increase to ``emerging requirements'' (requirements for 
new services). Further, the master schedule does not yet include 
requirements for moving forward with NextGen efforts. We recognize that 
these requirements will have to be addressed through adjustments to the 
FTI program or another effort.
    FAA's main goal for FTI was to reduce agency operating costs. Yet, 
we found that costs for FTI remain uncertain since FAA still has not 
validated cost and benefit estimates as agreed after our 2006 report. 
Although FAA reduced the number of services planned, the overall 
program cost estimate grew by over $100 million through 2017. As costs 
have escalated, cost savings have eroded. In 2006, when FAA re-
baselined FTI, we estimated that cost savings decreased from $672 
million to $434 million (when including previous investments in FTI). 
Further, FAA did not achieve any FTI cost savings for fiscal year 2007. 
Until FAA independently validates FTI cost and benefit information, the 
cost effectiveness of the investment in FTI will remain questionable.
    Finally, because of recurring outages and customer service 
problems, many FTI services are not meeting availability requirements--
9 percent of accepted FTI services in December 2007, as reported by the 
FTI program office. The contractor also reported that many of these 
were not being restored to service within contractual timeframes after 
outages.
    Unscheduled outages of both primary and back-up services have led 
to flight delays and affected air traffic operations. For example, on 
September 25, 2007, the Memphis En Route Center lost its radar, flight, 
and voice communications data on its primary and alternate paths, which 
triggered 566 flight delays. FAA attributed the outage to its third-
party telecommunications provider, which was inappropriately routing 
FAA telecommunications through a single point of failure. According to 
FAA, this same design is in place at other critical FAA facilities, 
including the Atlanta and Jacksonville En Route Centers.
    Additionally, on November 9, 2007, the Jacksonville En Route Center 
experienced an FTI equipment failure that caused the loss of radar and 
communication services, forcing air traffic controllers to implement a 
ground stop and triggering 85 flight delays. The most recent outage 
occurred on April 12, 2008, at the Southern California TRACON, where an 
FTI equipment failure caused the loss of flight data to controllers. We 
will be reporting on the FTI program again later this year.
    Air Traffic Management (ATM).--This program provides FAA with 
hardware and software tools to manage air traffic, expand system 
capacity, and reduce the impact of bad weather system-wide. FAA is 
requesting $90.2 million for ATM for fiscal year 2009. FAA baselined 
ATM for $454 million in August 2005 and scheduled its deployment for 
fiscal year 2011. ATM is baselined for two initial segments with plans 
for additional segments.
    Although the ATM effort has not experienced cost increases or 
schedule delays, we are concerned about risks and the final outcome 
since FAA and the contractor significantly underestimated the size and 
complexity of software development. Since then, FAA has modified the 
contract and adjusted the scope of the work. Although FAA is attempting 
to adjust the contract, we note that underestimating software 
development has led to significant problems with other modernization 
projects.
    The challenges FAA faces with ATM include: (1) developing complex 
software and integrating ATM with other NAS systems; and (2) 
determining cost and schedule decisions on the additional segments, 
which are unknown at this time.
Challenges With NextGen Programs
    FAA has established initial cost and schedule baselines for the 
first segments of two key NextGen initiatives: ADS-B and the System-
Wide Information Management program (SWIM). Both programs will require 
enhanced oversight as FAA begins integrating them with existing 
systems.
    ADS-B.--This program provides satellite-based technology that 
allows aircraft to broadcast their position to other aircraft and 
ground systems. For fiscal year 2009, FAA is requesting $300 million 
for ADS-B. In August 2007, FAA awarded a service-based contract for the 
ADS-B ground infrastructure worth $1.8 billion if all options are 
exercised. FAA estimates that ADS-B will cost about $1.6 billion in 
capital costs for initial segments of its implementation through 2014, 
which include the completion of a nationwide ground system for 
receiving and broadcasting ADS-B signals.
    FAA must address several challenges to realize the benefits of ADS-
B. These include: (1) gaining stakeholder acceptance and aircraft 
equipage; (2) addressing broadcast frequency congestion concerns; (3) 
integrating with existing systems; (4) implementing procedures for 
separating aircraft; and (5) assessing potential security 
vulnerabilities in managing air traffic. As we noted in October 
2007,\14\ the implementation of ADS-B is a long-term effort that will 
require significant investment from Government and industry. Given 
FAA's history with developing new technologies and its approach to ADS-
B, in which the Government will not own the ground infrastructure, we 
believe this program will require a significant level of oversight. We 
will report on ADS-B later this year.
---------------------------------------------------------------------------
    \14\ OIG Testimony Number CC-2007-100, ``Challenges Facing the 
Implementation of FAA's Automatic Dependent Surveillance-Broadcast 
Program,'' October 17, 2007.
---------------------------------------------------------------------------
    SWIM.--This program provides FAA with a web-based architecture that 
allows information sharing among airspace users. For fiscal year 2009, 
FAA is requesting $41 million for SWIM. In June 2007, FAA baselined the 
first 2 years of segment one (planned to occur between fiscal year 2009 
and fiscal year 2010) for $96.6 million. FAA's latest Capital 
Investment Plan cost estimate for SWIM is $285 million. Current 
challenges include the work to determine requirements and interfaces 
with other FAA systems, including ERAM and ATM. Moreover, SWIM will 
require integration with other Federal agencies' operations to realize 
NextGen benefits and develop a robust cyber security strategy and 
design. While FAA has begun initial efforts, it still needs to 
establish the architecture, strategy, and design. FAA still has not 
determined additional SWIM segments or the cost to fully implement 
SWIM.
FAA Must Enhance Its Cost and Schedule Metrics To Monitor NextGen 
        Programs
    In its fiscal year 2007 Flight Plan and most recent Performance and 
Accountability Report, FAA reported that, for fiscal year 2006, 100 
percent of its critical acquisitions were within 10 percent of budget 
estimates and 97 percent were on schedule. In fiscal year 2006, FAA 
tracked about 29 projects, including acquisition of new radars. While 
FAA cost and schedule performance metrics are worthwhile tools, they 
have limitations that decisionmakers must understand to properly assess 
the status of FAA's major acquisitions.
  --First, FAA's cost and schedule metrics are ``snapshots'' in time. 
        They are not designed to address changes in requirements, 
        reductions in procured units, or shortfalls in performance that 
        occur over time.
  --Second, FAA's budget metrics compare cost estimates taken during 
        the fiscal year using updated, ``re-baselined'' cost figures--
        not estimates from the original baseline. This is why the Wide 
        Area Augmentation System (a satellite-based navigation system) 
        is considered ``on budget'' even though costs have grown from 
        $892 million to over $3 billion since 1998.
  --Finally, FAA's schedule metrics used for assessing progress with 
        several programs in 2006 and 2007 were generally reasonable but 
        focused on interim steps or the completion of tasks instead of 
        whether systems met operational performance goals. For example, 
        ASDE-X metrics focused on the delivery of two systems instead 
        of whether the systems entered service or operated as planned. 
        We also found that there are no written criteria for selecting 
        or reporting the milestones, and FAA needs to develop written 
        criteria for offices to improve milestone reporting.
    Although re-baselining a project is important to obtain reliable 
cost and schedule parameters and is consistent with Office of 
Management and Budget guidelines, comparisons of revised baselines--
absent additional information--do not accurately depict a program's 
true cost parameters. To sufficiently measure progress with NextGen 
initiatives, FAA will need to explore a wider range of metrics that 
focuses on promised capabilities and benefits from bundled procedures 
and multiple systems. Our report issued earlier this week recommended 
that FAA develop new metrics to assess progress with NextGen with 
respect to enhancing capacity, boosting productivity, and reducing 
Agency operating costs.
Much Work Remains To Determine How To Transition Existing Projects to 
        NextGen
    In February 2007, we recommended that FAA examine existing projects 
to determine if they were still needed and, if so, what adjustments 
would be required. FAA concurred with our recommendation and stated 
that it has begun this assessment. To date, however, FAA has not made 
major adjustments to modernization projects
    According to FAA, approximately 30 existing capital programs will 
serve as ``platforms'' for NextGen. Over the next 2 years, FAA must 
make over 20 critical decisions about ongoing programs. These decisions 
have significant budget implications and affect all major lines of the 
modernization effort with respect to automation, communications, 
navigation, and surveillance.
  --Automation.--FAA will approve a limited number of ``candidate 
        capabilities'' and enhancements for the second major ERAM 
        software release. In fiscal year 2008, FAA will identify the 
        requirements and cost parameters for new capabilities based on 
        ERAM targeted for the 2012 to 2018 timeframe. FAA will also 
        have to address what changes are needed to modernize its 
        terminal facilities and whether or not it will pursue a 
        ``common automation platform'' for terminal and en route 
        environments in the future.
  --Communications.--Between fiscal year 2008 and fiscal year 2009, FAA 
        plans to decide how to move forward with data communications 
        and when to restart a data-link communications program for 
        controllers and pilots. Costs remain uncertain, and FAA faces a 
        myriad of complex questions about its overall technical 
        approach, implementation plans, and rulemaking initiative 
        timeline.
  --Navigation.--FAA intends to decide how much of the existing ground-
        based navigation system will be retained. Specifically, in 
        fiscal year 2008, FAA will consider how best to move forward 
        with the next generation precision and approach landing system 
        and whether to pursue the Local Area Augmentation System--which 
        has been in research and development status since fiscal year 
        2004.
  --Surveillance.--As part of the effort to move forward with ADS-B, 
        FAA must decide how to best incorporate ``fusion'' into 
        existing air traffic control automation systems. Fusion in this 
        context is defined as taking all surveillance data available 
        for an aircraft and using the best data or combination of data 
        to determine aircraft position and intent. Industry groups have 
        asked FAA to accelerate its work on fusion.
FAA Needs To Refine Its Plans To Move Forward With NextGen, Reduce 
        Risks, and Focus Investment Decisions
    FAA is making progress toward developing the NextGen Enterprise 
Architecture (a technical blueprint), which is planned for 
implementation by 2025. FAA is exploring ways to accelerate NextGen. 
However, costs for NextGen remain uncertain, and FAA has yet to 
establish reasonable expectations for mid- and long-term NextGen 
investments and realistic timeframes for improvements to enhance 
capacity and reduce delays. At this juncture, FAA needs to pursue the 
following actions:
  --Conduct a Gap Analysis of the Current NAS and Future NextGen 
        Capabilities.--FAA's architecture for NextGen does not detail 
        how FAA will transition from the present NAS and the future 
        NextGen architectures, which will have considerably different 
        capabilities and performance parameters. Until FAA completes a 
        gap analysis, it will not be able to determine technical 
        requirements that translate into reliable cost and schedule 
        estimates for major acquisitions.
  --Set Expectations and Establish NextGen Funding Priorities.--At this 
        point, it is difficult for decisionmakers and FAA to determine 
        what projects to invest in first or what elements can be 
        accelerated. FAA needs to better understand costs and benefits 
        and then identify the high priority improvements and reflect 
        those priorities in budget requests.
  --Develop an Interim Architecture for What Can Be Accomplished by 
        2015.--Because of the significant differences between the 
        present system and the NextGen architecture and concept of 
        operations, FAA should develop an interim architecture for the 
        2012 to 2015 timeframe. This would help FAA to determine 
        reasonable goals, establish priorities, fully identify 
        adjustments to existing projects, refine requirements for new 
        systems, and understand complex transition issues.
  --Develop a Strategy for Acquiring the Necessary Skill Mix to 
        Effectively Manage and Execute NextGen.--In response to our 
        February 2007 report,\15\ FAA contracted with the National 
        Academy of Public Administration to assess the skill sets 
        needed for NextGen. A preliminary report \16\ highlighted the 
        need for proficiency in systems integration and systems 
        engineering, particularly with an understanding of the human 
        factors discipline. FAA must anticipate needed skill sets for 
        NextGen to avoid the problems that have hindered its 
        modernization efforts.
---------------------------------------------------------------------------
    \15\ OIG Report Number AV-2007-031, ``Joint Planning and 
Development Office: Actions Needed To Reduce Risks With the Next 
Generation Air Transportation System,'' February 12, 2007.
    \16\ Report by a panel of the National Academy of Public 
Administration, ``Workforce Needs Analysis for the Next Generation Air 
Transportation System (NextGen), Preliminary Findings and 
Observations,'' December 2007.
---------------------------------------------------------------------------
         addressing attrition within faa's critical workforces
    A key challenge for FAA for at least the next 10 years is 
addressing attrition in two of its critical safety workforces--air 
traffic controllers and aviation safety inspectors. FAA is currently 
training more new controllers than it has in the past 15 years. The 
percentage of new (developmental) controllers within the controller 
workforce has increased from about 15 percent in 2004 to about 25 
percent in 2007.
    As a result, FAA is facing a fundamental transformation in the 
composition of its controller workforce that will require improvements 
in its facility training program--a critical component in addressing 
controller attrition. However, we found that FAA's facility training 
program continues to be extremely decentralized and the efficiency and 
quality of the training varies extensively from one location to 
another. We found similar problems in 2004.\17\
---------------------------------------------------------------------------
    \17\ OIG Report Number AV-2004-060, ``Opportunities To Improve 
FAA's Process for Placing and Training Air Traffic Controllers in Light 
of Pending Retirements,'' June 2, 2004.
---------------------------------------------------------------------------
    FAA also is facing substantial safety oversight challenges due to 
potential attrition in its inspector workforce. FAA has about 4,100 
inspectors to oversee a dynamic and rapidly changing industry, which 
includes 114 commercial air carriers, almost 5,000 foreign and domestic 
repair stations, more than 700,000 active pilots, and more than 1,600 
approved manufacturers.
Addressing Controller Attrition by Improving Facility Training
    The long expected surge in controller attrition has begun. Since 
2005, 3,300 controllers have left the workforce \18\--only 37 of these 
left because they had reached the mandatory retirement age of 56. The 
total rate of attrition was 23 percent higher than FAA had projected. 
However, FAA has accelerated its hiring efforts to fill vacancies. 
Since 2005, FAA has hired 3,450 new controllers--25 percent more than 
projected. Still, FAA faces a major challenge as it must hire and train 
17,000 new controllers through 2017.
---------------------------------------------------------------------------
    \18\ Attrition includes retirements, resignations, promotions to 
supervisory or non-controller positions, training failures, and deaths.
---------------------------------------------------------------------------
    Figure 3 shows FAA's estimates and actual numbers for controller 
attrition and new controller hiring from fiscal year 2005 through 
fiscal year 2007.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The overall percentage of controllers-in-training has grown 
substantially over the past 3 years. From April 2004 to December 2007, 
the overall size of the controller workforce remained constant. 
However, during the same period, the number of controllers-in-training 
increased by 1,375, or 62 percent, while the total number of CPCs 
decreased by 1,302, or 11 percent (see table 2). As a result, FAA is 
now training more new controllers than it has in the past 15 years.

                                TABLE 2.--TOTAL CONTROLLER WORKFORCE COMPOSITION
----------------------------------------------------------------------------------------------------------------
                                                                                  Controllers In
                              Date                                     CPCs        Training \1\        Total
----------------------------------------------------------------------------------------------------------------
April 2004.....................................................          12,328            2,209          14,537
December 2007..................................................          11,026            3,584      \2\ 14,610
Difference.....................................................         (-1,302)          +1,375             +73
----------------------------------------------------------------------------------------------------------------
\1\ Includes newly hired or developmental controllers and transferred CPCs in training at new locations.
\2\ This number does not include new hires in training at the FAA Academy.Source: FAA.

    While the number of controllers in training has increased 
significantly since 2004, FAA's reports to its stakeholders do not 
reflect this change. This is because FAA does not differentiate between 
CPCs and controllers-in-training in its Controller Workforce Plan. FAA 
only reports the total number of controllers at each location. In our 
opinion, FAA should report the number of CPCs and the number of 
controllers-in-training separately for each location. Differentiating 
those figures by location could provide Congress and the Secretary with 
a ``snapshot'' of the controller workforce and provide a benchmark for 
year-to-year comparisons.
    A major challenge in addressing the surge in controller attrition 
will be to train transferring and developmental controllers to the CPC 
level at their assigned locations. Facility training can take up to 3 
years and is the most expensive part of new controller training. 
Developmental controllers and transferring veteran controllers face a 
demanding training process at their assigned locations. The training is 
conducted in stages and consists of a combination of classroom, 
simulation, and OJT.
    After controllers complete classroom and simulation training they 
begin OJT, which is conducted by a CPC who observes and instructs 
trainee controllers individually as they work the control position. 
Controllers in training achieve certification on each position as they 
move through the various stages. After they have certified on all 
positions within their assigned area, they are commissioned as a CPC at 
that facility.
    Training new controllers to the CPC level is important for two 
reasons: (1) only CPCs are qualified to control traffic at all 
positions of their assigned area; and (2) only CPCs certified for at 
least 6 months (at their assigned location) can become OJT instructors 
for other new controllers. FAA must have enough OJT instructors at all 
locations if it is to achieve its ambitious hiring and training plans 
for the next 10 years and beyond.
    It is important to note that new controllers who have completed 
portions of training and have been certified on a position can 
independently staff that position. However, controllers are not 
qualified CPCs until they have certified on all positions within their 
assigned area. In addition, using position-qualified controllers 
extensively to staff positions can lengthen the time required for them 
to become CPCs since they are not training on other new positions.
    We recently completed an audit of FAA's controller facility 
training program--our second review of this program since 2004. 
Overall, we found that the program continues to be extremely 
decentralized and the efficiency and quality of the training varies 
from one location to another. We found similar problems in 2004. FAA is 
taking actions at the national level to get this important program on 
track. For example, FAA increased the use of contractor training 
support from 53 facilities in 2004 to 190 facilities in November 2007.
    However, many of FAA's other efforts are still in the early stages 
of implementation. To achieve its goals for the controller workforce, 
FAA will need to take the following actions.
    Clarify Responsibilities for Oversight and Direction of the 
Facility Training Program at the National Level.--Since the creation of 
the Air Traffic Organization, FAA has assigned national oversight 
responsibility for facility training to the Air Traffic Organization's 
Vice President for Terminal Services and the Vice President for En 
Route Services. However, the Vice President for Acquisition and 
Business Services oversees new controller hiring and the FAA Academy 
training program, and the Senior Vice President for Finance oversees 
the development of the Controller Workforce Plan. Both play key roles 
in the controller training process.
    As a result of these overlapping responsibilities, we found that 
there is significant confusion at the facility level. During our 
review, facility managers, training managers, and even Headquarters 
officials were unable to tell us who or what office was responsible for 
facility training. In our opinion, FAA needs to clarify responsibility 
for oversight and direction of the facility training program at the 
national level and communicate those roles to facility managers.
    Establish Realistic Standards for the Level of Developmental 
Controllers That Facilities Can Accommodate.--FAA plans to increase the 
number of developmental controllers to over 30 percent of the total 
controller workforce. This would be the highest percentage of 
developmental controllers in the past 15 years. In its Controller 
Workforce Plan, FAA estimates that the controller workforce at each 
facility can comprise up to 35 percent in developmental controllers and 
still maintain operations and training.
    FAA also estimates that if facilities exceed that amount, training 
times would significantly increase because the number of developmental 
controllers would surpass available training capacity. However, we 
found that many facilities already meet or exceed the 35-percent level. 
As of December 2007, 70 facilities nationwide (over 22 percent of all 
FAA air traffic control facilities) exceeded that level, compared to 
just 22 in April 2004. This represents a 218-percent increase in just 3 
years. For example, as of December 2007:
  --Teterboro Tower had 12 CPCs and 13 developmental controllers (52 
        percent developmental).
  --Oakland Center had 163 CPCs and 101 developmental controllers (38 
        percent developmental).
  --Las Vegas TRACON had 22 CPCs and 22 developmental controllers (50 
        percent developmental).
    Many facility managers, training officers, and union officials we 
spoke with disagreed with FAA's estimate of an acceptable level of 
developmental controllers. They stated that, in order to achieve 
effective controller training while maintaining daily operations, the 
maximum percentage of developmental controllers should be limited to 
between 20 percent and 25 percent of a facility's total controller 
workforce.
    The difference between these estimates and FAA's maximum percentage 
is disconcerting, particularly since 70 facilities already exceed the 
FAA limit. A significant issue is that FAA's 35-percent estimate was 
originally intended to determine how many developmental controllers 
could be processed through the FAA Academy--not how many new 
controllers that could be trained at individual facilities. However, it 
appears FAA is now using that percentage as a benchmark for all 
facilities.
    FAA Headquarters officials we spoke with agreed that ``no one size 
fits all'' when determining how many trainees a facility can 
accommodate. We agree, given the various sizes and complexities of 
FAA's more than 300 facilities. In our opinion, FAA needs to re-examine 
its estimate and identify (by facility) how many developmental 
controllers facilities can realistically accommodate.
    In determining this amount, FAA needs to consider several factors 
at each location, such as the number of available OJT instructors, 
available classroom space, the number of available simulators, and the 
number of recently placed new personnel already in training.
    Implement Key Initiatives Proposed in its 2004 Controller Workforce 
Plan.--FAA has not implemented several key initiatives relating to 
facility training that it first proposed in its December 2004 
Controller Workforce Plan. Those included ``developing, implementing 
and enforcing a policy that assigns facility training as a priority 
second only to operations.'' This was to be accomplished by: (1) 
placing developmental controllers only at facilities that had available 
training capacity; (2) requiring facility managers to suspend training 
only for critical operational necessities; and (3) establishing nominal 
``time-to-certify'' metrics and holding managers accountable for 
achieving those targets. However, FAA never issued this policy.
    In addition, FAA has not comprehensively evaluated its facility 
training program. In its 2004 Controller Workforce Plan, FAA stated it 
would, ``conduct a thorough review of facility training to ensure it 
begins where the Academy ends. This review will take into consideration 
other efficiency gains identified in this plan and will result in 
facility training programs tailored to meet the needs of developmental 
controllers of the future.'' FAA intended for this effort to help 
reduce the time it takes new controllers to become CPCs. However, FAA 
never conducted the evaluation.
    To its credit, FAA has successfully implemented an important 
initiative--increasing the use of training simulators at towers. Tower 
simulators were recently installed at four towers: Chicago O'Hare, 
Miami, Ontario, and Phoenix. The simulators are programmed with 
scenarios and occurrences exclusive to those airports, using actual 
aircraft with their respective call signs. By using simulators, 
controllers gain inherent knowledge of a particular airport, its 
airspace, and application of air traffic procedures for that specific 
location. The simulators also have a function that writes software for 
additional airports; this allows controllers from surrounding 
facilities to utilize the simulators as well.
    Results thus far indicate that simulators at towers are a valuable 
training tool, and managers of the facilities with simulators are 
pleased with the results. The National Aeronautics and Space 
Administration (NASA) Ames Research Center conducted an evaluation and 
found that it took 60 percent fewer days for developmental controllers 
to complete ground control training at the Miami tower. Further, at 
Chicago O'Hare, NASA reported that it took developmental controllers 42 
percent fewer days to complete ground control training.
    FAA plans to install 12 additional simulators this year (6 at large 
airports and 6 at the FAA Academy) and 12 next year (at other 
airports). FAA must ensure that this effort remains on track to 
capitalize on the significant success that this training has 
demonstrated.
    We plan to issue our final report on controller facility training 
later this spring. We are also conducting other congressionally 
requested reviews of related controller issues. At the request of the 
Chairman of the House Subcommittee on Aviation, we are reviewing 
controller training failures (developmental controllers who fail 
training either at the FAA Academy or at their assigned facility). At 
the request of Senator Durbin of Illinois, we are reviewing factors 
that could affect controller fatigue. This issue was identified by the 
National Transportation Safety Board after the crash of Comair 5191 in 
2006. We are focusing our current efforts at Chicago O'Hare Tower, 
Chicago TRACON, and Chicago Center but may review other locations and 
FAA's national efforts based on the results of our work at Chicago.
Addressing Inspector Attrition and Implementing Staffing Models
    FAA and the U.S. aviation industry have experienced one of the 
safest periods in aviation history. While much of the credit for this 
impressive safety record is due to safety systems that air carriers 
have built into their operations, FAA regulations and inspectors play 
an important role in providing an added layer of safety oversight. This 
oversight covers a vast network of operators and functions, which make 
up the largest, most complex aviation system in the world (see table 3 
below).

                   TABLE 3.--FAA INSPECTORS' WORKLOAD
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Commercial Air Carriers......................................        114
Repair Stations..............................................      4,978
Active Pilots................................................    749,834
Approved Manufacturers.......................................      1,647
Flight Instructors...........................................     89,396
FAA Designee Representatives.................................     11,292
Aircraft.....................................................    319,549
FAA-Licensed Mechanics and Repairmen.........................    361,273
------------------------------------------------------------------------
Source: FAA.

    FAA's approximately 4,100 inspectors must oversee both domestic and 
foreign aspects of these operations. This task is made more difficult 
by the rapidly changing aviation environment. We see two issues that 
warrant attention. FAA must: (1) maximize risk-based oversight 
programs; and (2) develop and implement a reliable staffing model to 
ensure it has a sufficient number of inspectors where they are most 
needed.
    To maximize its limited inspector resources, FAA has been working 
toward risk-based safety oversight systems for air carriers, repair 
stations, and manufacturers. These systems target inspector resources 
to areas of greatest risk.
    FAA has worked to move its safety oversight for aircraft repair 
stations to a risk-based system over the past 2 years. However, FAA's 
new system does not include a process for overseeing critical repairs 
performed by non-certificated repair facilities. In December 2005, we 
reported that FAA must understand the full extent and type of work that 
non-certificated repair facilities perform. These facilities are not 
licensed or routinely visited by FAA inspectors but perform critical 
maintenance, such as engine replacements. FAA's efforts to identify 
which non-certificated repair facilities perform this type of 
maintenance for air carriers are still underway.
    FAA will also need to modify its risk-based system for 
manufacturers so that inspectors can more effectively oversee 
manufacturing operations in today's complex aviation environment. FAA's 
current oversight system does not consider the increasingly prominent 
role that aircraft parts and component suppliers now play in aviation 
manufacturing. In the past, manufacturers built the majority of their 
aircraft within their own manufacturing facilities using their own 
staff. Now, manufacturers use domestic and foreign part suppliers to 
build large sections of their aircraft. Given these changes, FAA needs 
to strengthen its system for overseeing aircraft and aircraft part 
suppliers so that its oversight is effective and relevant.
    In addition to targeting inspector resources through risk-based 
oversight, FAA must have a reliable staffing model on which to base its 
inspector assignments. FAA has made at least two attempts to develop a 
staffing model to determine the number of inspectors needed and the 
best locations for placement. Neither model, however, provided FAA with 
an effective approach for allocating inspector resources.
    Last year, FAA's hiring efforts kept pace with retirements, and the 
agency ended the year with 133 additional inspectors over fiscal year 
2006 levels. Because of staffing gains in fiscal year 2007 to 2008, 
FAA's budget request for fiscal year 2009 does not include funding for 
any additional inspectors over the fiscal year 2008 levels. However, 
FAA must continue to closely oversee this hiring effort since nearly 
half of the workforce will be eligible to retire within the next 5 
years. FAA will never have an inspection workforce that is large enough 
to oversee every aspect of aviation operations, but it must develop a 
reliable staffing model to effectively use its inspector resources.
    At the direction of Congress, the National Research Council 
evaluated FAA's current methods for allocating inspector resources in 
September 2006. This study reported similar concerns that we identified 
in past reports--that FAA's current method of allocating inspectors is 
antiquated and must be redesigned to effectively target inspectors to 
those areas of higher risk.
    The Council also reported that the changing U.S. and global 
aviation environments will be key drivers of future inspector staffing 
needs. For example, airlines' outsourcing of aircraft maintenance, 
FAA's shift to a system safety oversight approach, and safety 
inspectors' attrition and retirement are all important factors that 
must be considered in determining staffing needs.
    FAA is still in the early stages of developing a new staffing 
method and has established an interim target date to assess current 
staffing methods and begin identifying the elements of the next 
generation staffing tool by September 2008. FAA recently finalized 
milestones to develop and implement the new model and plans to begin 
using it by October 2009. FAA's measurable progress toward a new 
staffing model is a key watch item, and we will continue to monitor 
this important initiative.
    That concludes my statement, Madam Chairman. I would be happy to 
address any questions you or other members of the subcommittee may 
have.

                                 SAFETY

    Senator Murray. Thank you very much. Mr. Sturgell, the 
flying public wants to know that there is no question about the 
safety of the aviation system when they get on a plane, and as 
a passenger that flies coast to coast every weekend, I and all 
of the taxpayers in this country believe that they already pay 
for a safe system.
    I want to know how you are doing to reassure the public 
that safety is not being compromised by the inconsistent 
inspection and enforcement activities that we've seen on the 
part of the FAA?
    Mr. Sturgell. Madam Chairman, the first thing I would point 
to is the tremendous safety record and the advances that have 
been made, especially over the last decade. Today, we have the 
safest system in the world, but as I said, it is not perfect. 
Our challenge is to not be complacent about that record and to 
not rest on that record. It is to make that record better.

                        AIRWORTHINESS DIRECTIVE

    The AD review that we are going through now is designed to 
check and affirm that what we have been doing in this one area 
has been proven effective. I think a 99 percent compliance rate 
of the over 2,400 audits we have done in this area is high. It 
is the 1 percent that I worry about and that's my job to worry 
about it.
    But in all the areas, again, I think we've made tremendous 
advances. We made these advances both as a regulator and 
overseer, as an agency of enforcement, but also as a partner 
and in collaboration with industry on very important 
partnership efforts as well, and we're going to continue down 
this path.
    Senator Murray. Well, the grounding of the MD-80s this past 
weekend inconvenienced about a half a million passengers. Do 
you think that whole entire mess was the fault of American 
Airlines?
    Mr. Sturgell. Madam Chairman, I again regret and empathize 
with the disruption that that event caused.
    It is my job, though, to worry about the safety of the 
system and to act on the deficiencies we see in the system. 
With respect to that particular wiring AD, I think it's 
important to understand the context here, which is that we have 
learned a lot about wiring and the problems with wiring since 
the Swiss Air Flight 111 accident from years and years ago. Out 
of that accident, we have developed directives and requirements 
now to ensure that wire does not chafe, that it does not come 
in contact with certain other pieces of the airplane, 
especially in very critical areas where it is close to fuel 
tanks and close to things like hydraulic lines.
    So, we went through a notice and comment period on this. We 
then had an 18-month period where we factored in the risks 
involved and how much time should we give people to comply with 
our safety directives. In some cases, our airworthiness 
directive requirements are much, much shorter. In some cases, 
they are longer, but it is all about the risks in the system 
and further improving the system.
    Senator Murray. Okay, let me ask you about that and the 
consistency here. You first issued the airworthiness directive 
affecting this wiring that you're talking about in the MD-80s 
and you gave them 18 months to fix the problem and after the 
problems at Southwest came to light a few weeks ago and you 
conducted some additional audits on all the air carriers, there 
were questions raised about whether American Airlines had fixed 
it correctly. The result is that all of these MD-80 aircraft 
were grounded immediately and as many as a half a million 
passengers were then inconvenienced.
    Now you're the safety expert, I'm not, but can you explain 
to us why, if you initially thought it was safe to give the 
airlines who fly these MD-80s with this wiring problem an 
additional 18 months, all of a sudden everything had to stop in 
a day?
    Mr. Sturgell. Madam Chairman, it is all about accepting a 
level of risk in the system and that's what our AD compliance 
time frames are based on.
    There was an 18-month period to comply. When we began the 
audit, and the audit was not a crackdown or, getting tough, it 
was in response to claims that in light of Southwest and what 
happened, and that was the failure on our part as well as 
Southwest's, but in light of that incident, people raised 
questions about ADs broadly in the system.
    So, in order to take a snapshot and get an assessment of 
it, we decided to conduct audits. The first time around, about 
the middle of March or so, this particular AD, which had just 
become effective March 5, at the end of the 18 months, was 
raised as an issue among all the operators of MD-80s, not just 
American but Delta, Alaska, and Midwest. We believed people had 
taken action, alternative means of compliance were issued, and 
we believed that problem was addressed.
    When we came back several weeks later, we found that at 
American, it had not been addressed.
    Senator Murray. But just explain to me what the difference 
between 18 months and 18 months and 2 weeks is.
    Mr. Sturgell. The 18 months is based on a level of risk for 
this particular problem. With any additional time you are 
increasing your level of risk, and granted it is a low 
probability in some cases, but in this particular case, it is a 
high consequence. These are wires that are in the area of the 
fuel tank and the hydraulic lines.

                           SOUTHWEST AIRLINES

    Senator Murray. Okay, let's go to Southwest Airlines and 
how your agency responded. We know that there was a record 
$10.2 million civil penalty against Southwest Airlines. That 
fine was actually announced just days before Chairman 
Oberstar's planned hearing on Southwest's problems and the 
FAA's cozy relationship with that airline and it took only a 
week instead of the usual 60 days for that civil penalty to be 
forwarded out of your regional counsel and announced.
    Should we really believe that the timing of that 
announcement with the record fine and Chairman Oberstar's 
planned hearing was just a coincidence?
    Mr. Sturgell. Madam Chairman, that process began back in 
April when the office manager discovered some discrepancies 
with the voluntary disclosure reporting form. I will grant you 
that from those investigations and then we have a process where 
we go through an enforcement action, that it took longer than 
we would have liked.
    Senator Murray. You say the timing is just a coincidence?
    Mr. Sturgell. That is my belief, yes.
    Senator Murray. General Scovel, have you found that this 
finding is consistent with the FAA's previous enforcement?
    Mr. Scovel. The size of the fine, Madam Chairman? I have 
not examined it in detail. I have been informed by my staff, 
however, and through media reports, that this is one of the 
largest, if not the largest, civil enforcement penalty assessed 
by FAA.
    Senator Murray. Mr. Sturgell, the reason that I'm bringing 
this up is we count on your agency to provide us, as the flying 
public, the knowledge that what we fly on is a safe airplane. 
We expect you to make sure that is done safely and 
consistently.
    It just seems weird to us when all of a sudden, somebody 
was saying, there is going to be a hearing; there's a major 
fine at Southwest; and, then within days, hundreds of planes 
are grounded.
    What was happening in the last 18 months? Why was this not 
done consistently? What occurred that all of a sudden there was 
in the last 3 weeks a huge focus on safety? Shouldn't that have 
been happening prior to that? That's what the picture looks 
like to all of us.
    Mr. Sturgell. Madam Chairman, a couple points, if I may. 
The fine with Southwest is large and it is because of the 
deliberate nature of the activities involved. From my 
perspective, Southwest should not have flown those airplanes 
once they found that they were over the inspection requirements 
and our inspectors should not have permitted them to continue 
flying knowingly like that.
    Your second question about 18 months and why now and the 
consistency, again there were concerns raised systemwide. The 
way for me to assess whether it's a systemwide process is to go 
out and take a snapshot. These are inspections we would 
otherwise be doing in the normal course of business. We have 
accelerated that requirement into a defined timeframe.
    Senator Murray. It appears to us the only reason the FAA 
acted was because this was going to become public. We as the 
public want to be assured that it is done because it is the 
right thing to do.
    Mr. Sturgell. Madam Chairman, it was not because of that. 
We are trying to do the right thing. We are trying to make this 
system even safer than it is today.
    Senator Murray. Mr. Scovel, do you have any comment?
    Mr. Scovel. FAA's action recently is most assuredly the 
right thing to do. The rush with which it was brought to bear 
most recently, however, gives rise naturally to questions: What 
happened before? Why not this attention before? The record for 
the Southwest case is as follows. The event occurred in March 
2007, the initial investigation was completed in April, the 
subsequent investigation submitted at the national level in 
July, and a supplemental investigation was returned to national 
headquarters in October. I believe, as illustrated by the 
timeline in our statement, that this begs the question of what 
level of national review was being conducted once this had been 
brought to the attention of national authority figures?
    Apparently, not until November 2007 when enforcement action 
was initiated against Southwest, and then most recently when 
Chairman Oberstar on the House side made public his intent to 
hold hearings focusing on the Southwest question was the 
overall issue of FAA's oversight, especially of airworthiness 
directives, brought to bear. FAA then began to move with 
dispatch.
    Senator Murray. I'm way over my time. Senator Bond?

                        AIRWORTHINESS DIRECTIVES

    Senator Bond. Thank you, Madam Chair. Let me follow up on 
the airworthiness directives. It appears to me that you are 
assuming, and in most cases with justification, that the ADs 
are being complied with by the airlines, but when a new 
airworthiness directive is issued, I'm interested in what your 
agency does, and I raised in my opening remarks the possibility 
that there should be random inspections, not systemwide 
inspections but random inspections in all carriers to ensure 
compliance--when the airworthiness directive has been issued 
and it goes into effect.
    I understand this wiring directive did not come into effect 
until early March this year, but when it comes into effect, why 
do you not, should you do random checks to ensure that the 
paper reports and the assurances of compliance of airlines are 
in fact being accomplished?
    Mr. Sturgell. Senator Bond, as part of our regular 
oversight program, our inspectors do conduct random checks of 
ADs, there's a requirement over a specified period of time to 
do that.
    In the case of this wiring AD, the process involves an 
airworthiness directive, service bulletins, an engineering 
change order, and then eventually ends up as a maintenance work 
card. The airline mechanic has the work cards and those are the 
instructions they go to work on the airplane to meet the 
requirements of the airworthiness directives and the 
airworthiness directives and the documents are generally 
engineering documents and are very complicated.
    We're seeing issues of translation, of human factors, and 
similar types of issues in this review. One of the things we 
are doing is we're going to sit down with Boeing and the 
manufacturers and industry to figure out if we can improve and 
how to improve upon this process.
    Senator Bond. Well, it seems to me that it doesn't do much 
good, you can have the best engineering document in the world 
and if the guy or the gal who actually is doing the work can't 
understand it. I mean somebody from your shop ought to be 
looking at this, maybe in conjunction with representatives to 
say, Number one, do you understand it, Number two, are you 
doing it, and then focus your attention in the short term to 
make sure that when the deadline for completing these ADs 
arrives, that they have been adequately observed. I would think 
that that kind of check would be important.
    Let me ask Mr. Scovel his comments and then you, Mr. 
Sturgell.
    Mr. Scovel. Good morning again, Senator Bond. I would agree 
with you that random audits ought to be a part of it, and my 
understanding is that, to some extent, random audits already 
are a part of FAA's inspection process.
    Another aspect that I would highlight for the 
subcommittee's attention is the ATOS system, which is FAA's 
risk-based and data-driven air carrier oversight system.
    We know from the Southwest case that the carrier's AD 
compliance program was first audited, or first inspected, by 
FAA in 1999. As required, another inspection should have been 
done within 5 years after that date, by 2004.
    As of March 2007, when the incidents occurred at Southwest, 
the carrier's AD compliance program still had not been 
inspected some 7 years after that date.
    A follow-on point for FAA ought to be not only performing 
random audits to test compliance with individual ADs, but 
making sure that certificate management offices inspect each 
carrier's AD compliance program on at least the 5-year basis 
that is currently required by the ATOS system. That was not 
done at Southwest. Had it been done, the March 2007 incidents 
might have been avoided.
    Senator Bond. Mr. Sturgell, two questions. Number one, to 
respond to the question I asked, Mr. Sturgell, about random 
audits when an AD goes into effect, and the second one was were 
there any random audits conducted during the 18-month period 
that the AD was pending to see that the job was being done 
prior to the effective date to ensure that airlines could meet 
the goal of compliance by March 2008.
    Mr. Sturgell. Senator Bond, going back to the Southwest 
Airlines incident first, I want to be very clear. I'm not 
making any excuses for what happened on behalf of the FAA at 
that office. It was not appropriate. We're going to take action 
and we're going to fix it.
    To your question about airworthiness directives, the kinds 
of questions you are asking are the kinds of questions that our 
task force with industry will address.
    During that 18-month compliance period, no, I'm not aware 
that we went out and checked to see, because compliance is not 
required until March 5. That is a question, though, that 
several people have raised. Is there a way to, during that 
timeframe ``check up'' and see if the work being performed is 
appropriate or not.
    So those questions we're going to address. I would just 
caution that my worry would be not to let FAA become the 
quality control outfit for each individual airline. I want the 
airlines to have that capability. I want them to be quality 
controlling their work.
    Senator Bond. Granted. I agree with you on that point, but 
obviously there are times when their quality assurance program 
has not worked. That's why I suggested it.
    On the Southwest issue quickly, one of the IG's 
recommendations was to rotate the senior certificate management 
office personnel. Do you agree with that approach or if that's 
not the right approach, do you have another approach?

                       SENIOR PERSONNEL ROTATION

    Mr. Sturgell. My initial concerns with that type of an 
approach go to the funding that would be required to uproot and 
relocate people, and not just our inspectors, but it would be 
their families with them and taking folks out of school and 
everything like that. In effect, what we're talking about is a 
military type of rotation.
    Another concern would be the loss of corporate knowledge 
about that particular airline. If an inspector has been there 
and knows that airline's system, I think the inspector can 
provide more effective oversight. The system depends on people 
and it depends on people doing the right thing. This is a 
recommendation that I'm going to continue to talk to the IG 
about and see if there is some way to address what is being 
asked, but those are my initial concerns.
    Senator Bond. Thank you, Mr. Administrator.

                        AIRWORTHINESS DIRECTIVES

    Senator Murray. Just a quick follow-up so that I 
understand. So, on American Airlines and the MD-80s, there was 
a directive administered. They were given 18 months and during 
that 18-month timeframe, the only thing the FAA did was look at 
paperwork, there were no physical inspections, correct?
    Mr. Sturgell. I do not believe there were physical 
inspections of that particular AD. I am certain there were 
other types of inspections.
    Senator Murray. Maybe this question would be better: if 
there had been physical inspections checking to see if the work 
had been done right during that 18-month period, would we not 
have seen everybody grounded at the time?
    Mr. Sturgell. That is an assumption that if you look at one 
airplane and it looks good, then all the other airplanes would 
have that----
    Senator Murray. Some of the work was being done wrong.
    Mr. Sturgell. I'm sorry?
    Senator Murray. Somebody could have seen that this was 
being done wrong a year ago instead of all in one weekend, 
correct? If there was a physical inspection rather than just 
paperwork.
    Mr. Sturgell. If, during the 18 months, American had done 
an airplane and an FAA inspector had looked at that particular 
airplane for the work that was done, then that inspector could 
have seen whether or not the work was being done in conformity 
with the airworthiness directive or not.
    Senator Murray. Senator Feinstein?

                 AIR TRAFFIC CONTROLLER STAFFING AT LAX

    Senator Feinstein. Thank you very much, Madam Chairman. To 
the FAA Administrator, I want to thank you for your letter of 
January 18. This was in response to my concern on the air 
traffic controller situation, and you point out in this letter 
that you've been on a hiring wave and that this hiring wave 
created the potential for a large portion of the controller 
workforce to reach retirement age at roughly the same time and 
you say that time is not upon us now.
    And at Los Angeles, 50 controllers are anticipated to 
retire in 2008. I note that in 2005, you hired 438, 2006 1,116, 
2007 1,815, 2008 1,877, and in this budget, you have 1,914 
controllers.
    My question to you specifically with respect to LAX, will 
these new hires enable LAX to have the sufficient number of air 
traffic controllers so that they don't have, I think, 18 
percent trainees doing the work of the controller?
    Mr. Sturgell. Madam Senator, the plan that you described, 
we have been working from since 2004 in preparation for this 
retirement wave, which will last about a decade. I suspect 
we'll be hiring anywhere between 1,800 and 2,000 new 
controllers for the foreseeable future. We do have facility 
plans for each individual facility.
    Senator Feinstein. Could you--I have limited time. Could 
you just answer my question because I think LAX is at high risk 
of catastrophic runway incursion and the GAO report points that 
out.
    In view of this, it seems to me that LAX has to be a high 
priority and so what I want to know is will these 1,944 people 
provide enough controllers to Los Angeles International Airport 
to reduce that high risk of catastrophic runway incursion?
    Mr. Sturgell. We will ensure that LAX Tower has the 
appropriate number of controllers to be staffed safely. We are 
putting runway status lights into LAX on the north side this 
year, and I thank the airport for helping to fund that program 
with us.
    Senator Feinstein. So your answer is yes for this year?
    Mr. Sturgell. Yes.
    Senator Feinstein. Mr. Scovel, how many additional air 
traffic controllers did you find that LAX would need not to be 
at catastrophic risk of a runway incursion?
    Mr. Scovel. Good morning, Senator.
    Senator Feinstein. Good morning.
    Mr. Scovel. I would need more information specifically 
regarding LAX, but overall it has a sufficient number of 
controllers. For us, the key question is the composition of 
that workforce at the facility. Specifically, how many are 
experienced veteran controllers versus how many are controllers 
in training. This is a theme that runs consistently across 
every facility throughout FAA's air traffic control system.
    If the mix is too high, that is, if the number of 
controllers in training is too high, that raises legitimate 
safety and controller fatigue concerns because it takes up to 3 
years for new controllers to complete facility training. 
Facility training is an intensive process.
    Senator Feinstein. Well, you estimate then that LAX will 
continue to be at high risk of catastrophic runway incursion, 
even with this hiring plan? I don't know.
    Mr. Scovel. I do not want to say that because I do not have 
that data. My office has not had an opportunity to study your 
facility in that degree of detail.
    Senator Feinstein. Is it possible to ask you for that data?
    Mr. Scovel. Of course.
    [The information follows:]

    As of December 2008, LAX had 39 certified professional controllers 
and 10 controllers in training for a total of 49 controllers. The total 
number of controllers is above the validated staffing range for the 
facility (between 39 and 47 controllers). Also, the percentage of 
controllers in training (20 percent) is below FAA's national average of 
26 percent. At your request, my office will be issuing a report in 
March 2009 detailing our findings and recommendations for ensuring 
appropriate staffing levels at LAX as well as the Southern and Northern 
California TRACONs.''

    Senator Feinstein. I'm very concerned. Mr. Sturgell.
    Mr. Sturgell. Senator, the issue at LAX and runway 
incursions goes to the layout of that airfield and the 
closeness of the parallel runways. They have addressed that on 
the south side of the airport by moving the runways further 
apart. I believe they need to do that on the north side of the 
runway as well. Addressing runway incursions is a very 
complicated issue that has to be attacked from all angles, 
staffing, technology, airport layout, as well as procedures, 
markings and everything that goes along with it.

                  SAN FRANCISCO INTERNATIONAL AIRPORT

    Senator Feinstein. It's just I went to northern California 
TRACON once and when I saw the number of planes in the sky at a 
given time, I couldn't believe it. I could imagine what it is 
in southern California and therefore for me, at the very least, 
I want to know that the personnel are there and that they're 
trained and that this is a major public safety factor. So, I'm 
going to continue this and keep coming at you until this gets 
done. I think it's important.
    Let me quickly go to one other thing and that is San 
Francisco International. John Martin is one of the best airport 
directors in the country. I have known him. I have watched him 
for 20 years. He runs a great airport. He would like to reduce 
the plane limit in the morning hours to 35 because I believe 
San Francisco International had the worst on-time performance 
recently of any airport in the United States.
    When it's foggy, one runway goes out. So, the airport 
operates with one runway only. It is doubtful, in my view as a 
former mayor, that that is ever going to be remedied. 
Therefore, the only way San Francisco International can operate 
relatively on time is to be able to change the number of planes 
coming in in a given hour.
    Mr. Martin has suggested that 35 is that number. Will you 
be willing to work with him to accommodate that request?
    Mr. Sturgell. We have talked to John Martin, and I hold him 
in great regard as well, about what is going on at his airport. 
I believe some of the changes in the proposed airport's rates 
and charges policies will permit him to more evenly distribute 
traffic throughout the time period that he is concerned about.
    Senator Feinstein. So, the answer is yes?
    Mr. Sturgell. So, he has----
    Senator Feinstein. I need to understand yes or no, I'm 
afraid.
    Mr. Sturgell. So, he has talked to us about----
    Senator Feinstein. I know that.
    Mr. Sturgell. The policies and what he would like, assuming 
there are changes to the airport rates and policy charges, 
which are under comment right now, he'll be able to achieve his 
desired goals.

                         CELL PHONES ON PLANES

    Senator Feinstein. That's excellent. Thank you very, very 
much. Let's go back to LAX. I'm really not--as you know, there 
was a runway accident in 1991 and 34 people lost their lives. 
So, this isn't something that's conjured up and you were 
saying, Mr. Sturgell, that airline travel is the safest it's 
ever been, but I can tell you, I came out this week on a fully 
loaded 777 with everything stuffed everywhere, including 
individuals, and that plane had trouble lifting up, it was so 
heavy, and I felt it as a passenger.
    So, I'm really worried. These planes are moving fully 
loaded, carrying a lot of fuel, a lot of baggage, and I would 
just like to ask--I didn't get to my cell phone question but 
perhaps on the next round I can.
    Perhaps you can quickly say what you're going to do with 
cell phones. Are we going to have to live through them cross 
country?
    Mr. Sturgell. Senator, my top priorities are staffing, 
runway safety, and our oversight. Cell phones is far, far, far, 
far down the list.
    Senator Feinstein. So that means you'll never get to it, 
which is fine with me. Thank you for that answer.
    Senator Murray. Senator Lautenberg. Thank you.

                            AVIATION SAFETY

    Senator Lautenberg. Thank you, Senator Feinstein, for 
bringing up that subject. It's a grotesque consideration, 
especially if phone calls are uninteresting. That didn't get a 
response.
    Anyway, thanks very much for your testimony. Mr. Sturgell, 
since last month, thousands of flights have been cancelled for 
safety inspections and repairs, and why were airplanes able to 
fly that hadn't been inspected?
    Suddenly, this discovery that canceled thousands of 
flights, the conditions existed before the decisions were made 
by the respective airlines, and we talked, Mr. Scovel, about 
the fine and what inducement that might have been for them to 
get on with it before they themselves were being fined.
    But did you believe, Mr. Sturgell, that airlines were 
complying with safety regulations before all the groundings 
last month?
    Mr. Sturgell. Senator Lautenberg, in general, airlines 
comply with airworthiness directives and the audit has shown 
that there is a very high compliance rate in the system.
    Senator Lautenberg. That's challenged by the suddenness of 
the announcements that these flights were being cancelled all 
over the place, 2,000 in a single day, I think it was, by 
American in a couple days.
    So, how could that be that--how could you have been 
satisfied that these--that they were complying if suddenly 
thousands of flights were canceled?
    Mr. Sturgell. Senator, I'm not happy about the 
cancellations and those disruptions on any level.
    Senator Lautenberg. Well, does that mean you would have 
preferred that they kept flying as they were and not have done 
the cancellations?
    Mr. Sturgell. No. That is why they were grounded. That is 
why the airlines grounded them, because they were not in 
compliance with the airworthiness directives.
    Senator Lautenberg. Right. So then that--you'll forgive 
me--challenges the statement you made just a moment ago that 
you thought that they were in full compliance. So, where do we 
go from there?
    Mr. Sturgell. Your chart reflects the timeline of this 
particular event. There were 18 months to achieve compliance. 
In the first phase of the audit, we identified issues with the 
wiring with American and Delta and a couple of other airlines 
as well.
    Senator Lautenberg. But couldn't----
    Mr. Sturgell. We believe they were taken care of and when 
we came back, we found that American had not complied with the 
airworthiness directive.
    Senator Lautenberg. How is it possible over that period of 
time that someone at your level, someone at FAA didn't say, 
hey, we noted this and why aren't these airlines forced to make 
the decisions that protect the flying public against the 
possibility of a problem?
    Mr. Sturgell. The cancellation numbers show that the 
airlines were taking measures.

              LOW FUEL LANDINGS AT NEWARK-LIBERTY AIRPORT

    Senator Lautenberg. Well, this is a cart and the horse kind 
of thing because we look at you as the traffic cops to stop the 
speeding traffic at crossroads and suddenly to discover that 
it's been taking place is--doesn't make us feel very 
comfortable, I must tell you.
    General Scovel, thank you for the report you did for me on 
low fuel landings at Newark-Liberty.
    With the pressure of ever-higher fuel prices, do you think 
that FAA is doing its job of monitoring whether airlines are 
providing sufficient amounts of fuel to their planes on the 
long overseas trips and other lengthy flights?
    Mr. Scovel. Good morning, Senator Lautenberg. Thank you for 
referring that question to us because it brought to light a 
disturbing situation, at least with regard to Newark-Liberty 
and Continental Airlines fuel practices and flight practices 
with Boeing 757s.
    As you know from the material that we provided to you, FAA 
has stringent regulations regarding fuel that must be carried. 
It has to be sufficient for the flight to the announced 
destination, plus there must be enough for the nearest 
alternate airport beyond that, should the necessity arise. 
There must also be enough fuel for an additional 45 minutes of 
flight beyond even the alternate destination airport.
    Our information regarding Continental is that all of the 
flights where a low fuel declaration was made carried enough 
fuel in accordance with FAA regulations.
    Senator Lautenberg. Did we note any increase in the low 
flight requests for landing?
    Mr. Scovel. There was an increase. In fact, our information 
was that in 2005, there were 44 minimum and emergency fuel 
declarations declared on flights into Newark-Liberty. In 2007, 
there were 151 such declarations. The majority of those 
declarations, 56 percent, occurred on international routes. 
Continental Airlines accounted for 64 percent of the fuel 
declarations.

                             RUNWAY SAFETY

    Senator Lautenberg. The FAA policy requires the agency to 
have a national runway safety plan and look at it every 2 to 3 
years. But FAA hasn't updated it since 2002 and you as well as 
the Government Accountability Office recommended that FAA needs 
to update its national runway safety plan immediately.
    What are the dangers of not making these updates?
    Mr. Scovel. Senator, the NTSB has identified runway safety 
and specifically runway incursions as its number one safety 
worry with regard to aviation.
    Last week, I testified before the Senate Aviation 
Subcommittee with a member of the NTSB, Steven Chelander, and 
he reiterated NTSB's concerns regarding runway incursions.
    FAA made great progress in the early part of this decade 
with regard to runway safety. Runway incursions declined from 
well over 400 per fiscal year to a range in the neighborhood of 
in the 320s and 330s per fiscal year, and that was a dramatic 
improvement.
    However, with that improvement, it seemed to us as well as 
to the GAO that FAA then took its eyes off the ball. A 
permanent director of its National Runway Safety Office was not 
appointed for a number of years. Funding and staffing for that 
office was cut. The national runway safety plan was not updated 
and reissued for a number of years, as you pointed out.
    I give great credit to Mr. Sturgell for his runway safety 
action plan, which he initiated last summer. It has shown 
tremendous benefits already. We wish, however, that consistent 
attention had been paid to runway safety during the years 
between 2002 and 2007 because, during that time, the overall 
number of runway incursions increased from roughly 330 to again 
near 370 in the most recent fiscal year, and that is very 
discouraging.
    Senator Lautenberg. Madam Chairman, thanks for your 
patience for going over time here.
    Senator Murray. Thank you very much. Senator Specter?

                         PHILADELPHIA AIRSPACE

    Senator Specter. Thank you very much. I join my colleagues, 
Mr. Sturgell and Mr. Scovel, in welcoming you here. You 
certainly have enormously important jobs as air travel becomes 
more frequent. There is no issue more on the minds of the 
traveling public than air safety.
    Thank you, Mr. Sturgell, for scheduling a field hearing in 
Philadelphia on Friday, the 25.
    I'd like to take up two issues with you in the brief time I 
have. One is the scheduling issue and the other is the 
overflight patterns. I'm advised that airlines are permitted to 
schedule as they choose in Philadelphia; vast overscheduling 
from what I've been able to observe in terms of delays on 
departures, delays on arrivals, especially when there is a 
weather problem. It looks to me in its simplistic terms very 
much like a restaurant that has 100 seats and books 175 people.
    Mr. Sturgell, why not have some schedule so that we have a 
reasonable, realistic likelihood that planes can depart and 
arrive on time?
    Mr. Sturgell. Senator, good morning. I think all of us 
would prefer that the first approach be to address the capacity 
issues by adopting policies that increase the capacity of the 
system, and I know Philadelphia----
    Senator Specter. Oh, I agree with increasing. I've only got 
7 minutes. Why not have a schedule which is accommodating to 
people being able to leave and arrive on time? I want you to 
come to the point because there's not much time.
    Mr. Sturgell. We don't control the airlines' scheduling 
practices.
    Senator Specter. You don't control the scheduling but 
Congress can. Would you recommend that Congress establish a 
requirement that there be schedules established which are 
realistic, that travelers can rely upon for departures and 
arrivals?
    Mr. Sturgell. Again, I think we ought to be adopting 
capacity to improve and where we see problems that affect the 
national airspace system, like we have in New York and the 
scheduling there----
    Senator Specter. Okay. Now focus on my question.
    Mr. Sturgell. Should Congress decide to move in that 
direction, we would obviously want to work with you on it.
    Senator Specter. Okay. Let's work on it because it seems to 
me Congress can do that and my instinct is Congress ought to do 
that, but let's move ahead and work on it together.
    Before my time expires and it runs fast, let me move to the 
question of overflights where you and I have had considerable 
correspondence, and you confirmed that my understanding was 
correct, that there was a commitment that if there were more 
than 10 flights, they wouldn't fly over Delaware County.
    We have a very serious concern about overflights over 
Delaware County and we're trying to see that they're minimized 
to the maximum extent possible and you have said in your letter 
to me, dated March 20, and I would ask consent for these 
letters to be made a part of the record, that ``for us to 
change any of the technical disclosed mitigation strategies as 
detailed in our record of decision would require a re-
evaluation and analysis of both the operational and 
environmental impacts.''
    [The information follows:]
                     Letter From Robert A. Sturgell
                 U.S. Department of Transportation,
                           Federal Aviation Administration,
                                  Washington, DC, February 7, 2008.
The Honorable Arlen Specter,
United States Senate,
Washington, DC 20510.
    Dear Senator Specter: Thank you for your January 31 letter about 
the implementation of dispersal headings at the Philadelphia 
International Airport (PHL), more specifically the use of the 268-
degree heading from runways 27 L/R. We hope to clarify the differences 
between the mitigation strategies applied at both the PHI and Newark 
Liberty International Airports (EWR). I've enclosed a copy of my 
response to your November 29, 2007 letter that you had not yet received 
when you wrote.
    At the briefing of congressional staffers on November 16, 2007, we 
explained the mitigation measures, and I am pleased to provide further 
clarification. At PHL, once the project is fully implemented, the three 
departure headings will be used throughout the daytime hours (7 a.m. to 
10 p.m.), while the 255-degree heading, used before the implementation 
of the project, will be used during nighttime hours (10 p.m. to 7 
a.m.). Because all three departure headings for PHL will not be 
available until later stages of implementation, we became concerned the 
two available headings (245 degrees and 268 degrees) could create noise 
impacts that were not modeled as part of our analysis. As a result, the 
Federal Aviation Administration has elected to use the two available 
headings only during PHL peak departure hours. Currently, these hours 
are 9 a.m. through 11 a.m. and 2 p.m. through 7 p.m. These hours will 
be adjusted in the future to accommodate changes in airline schedules.
    Once airspace changes and procedures have been developed to allow 
full implementation and use of dispersal headings at PHL, these time-
of-day restrictions will no longer apply. As a mitigation measure, we 
did agree to the use of a single heading (255 degrees) down the river 
between the hours of 10 p.m. and 6 a.m. The mitigation strategy of 
demand-triggered use of headings, based on numbers of departures 
waiting, was used at EWR and not at PHL. The mitigation strategies 
applied at PHL involved a reduction in the number of departure headings 
used. The original alternative called for six dispersal headings off 
runways 27 L/R in the Draft Environmental Impact Statement and was 
reduced to three dispersal headings in the noise mitigation document. 
In addition, the single heading down the river was also retained as a 
mitigation strategy. Please note that, as part of the airspace redesign 
project, we are also using departure dispersal headings for runways 9L/
R at PHL. These, like the headings for runways 27 L/R, were modified by 
reducing the number of headings available for use from seven to four.
    While we're currently studying the benefits of the departure 
dispersal headings, our initial review indicates a reduction in overall 
departure delays. The FAA is sensitive to the impact this airspace 
redesign project has on the residents of Delaware County. We will 
continue to consider Delaware County's concerns when implementing 
additional elements of the project.
    If I can be of further help, please contact me or Ms. Megan Rosia, 
Assistant Administrator for Government and Industry Affairs, at (202) 
267-3277.
            Sincerely,
                                        Robert A. Sturgell,
                                              Acting Administrator.
                                 ______
                                 
                     Letter From Robert A. Sturgell
                 U.S. Department of Transportation,
                           Federal Aviation Administration,
                                    Washington, DC, March 20, 2008.
The Honorable Arlen Specter,
United States Senate,
Washington, DC 20510.
    Dear Senator Specter: Thank you for your February 15 letter about 
implementing dispersal headings at the Philadelphia International 
Airport (PHL) and their use during light periods of traffic.
    Your assertion that my representative advised your staff the PHL 
dispersal headings over Delaware County would initially only be used 
during peak demand periods, which we define as periods where 10 or more 
aircraft would be waiting to depart in the absence of the dispersal 
heading, is correct. As we tried to clarify in our previous 
correspondence dated February 7, the time-of-day restriction on the use 
of dispersal headings at PHL was, technically speaking, based on peak 
demand periods which do correspond to the times when most aircraft are 
waiting to depart.
    Once the project is fully implemented, we will be using three 
departure headings (for the westbound configuration) throughout the 
daytime hours (7 a.m. to 10 p.m.). The 255-degree heading, which was 
used before the implementation of the project, will be used during 
nighttime hours (10 p.m. to 7 a.m.). Because all three departure 
headings for PHL will not be available until later stages of 
implementation, we are limiting the use of the two available headings 
(245 degrees and 268 degrees) to only PHL peak departure hours. 
Currently, these hours are from 9 a.m. to 11 a.m. and from 2 p.m. to 7 
p.m. We are limiting the use of the 245- and 268-degree headings to 
avoid creating noise impacts that were not modeled as part of our 
analysis in the Environmental Impact Statement. These hours may be 
adjusted to accommodate changes in airline schedules.
    We understand that you are requesting we consider additional 
mitigation strategies that would restrict the use of the headings based 
on the number of aircraft waiting to depart. It is important to again 
clarify that peak demand hours do correspond to the times when the most 
aircraft are waiting to depart. In practice, air traffic controllers 
routinely use dispersal headings during the busy periods. For us to 
change any of the technical disclosed mitigation strategies as detailed 
in our Record of Decision it would require a reevaluation and analysis 
of both the operational and environmental impacts.
    While we remain sensitive to the concerns of your constituents, we 
believe the adjustments made to the selected alternative provide a 
reasonable solution to the noise impacts. The reduction in the number 
of departures headings from six headings to three headings, on the 
westbound configuration during the day, was designed to provide optimum 
noise mitigation. Additionally, a single heading down the river at 
night was retained as a mitigation strategy. These procedures provided 
the best options for noise relief for the residents of Delaware County, 
Pennsylvania, while still meeting the purpose and need of this project.
    If I can be of further help, please contact me or Ms. Megan Rosia, 
Assistant Administrator for Government and Industry Affairs, at (202) 
267-3277.
            Sincerely,
                                        Robert A. Sturgell,
                                              Acting Administrator.

    Senator Specter. Now your letter, dated February 7, to me 
notes, ``The mitigation strategy of demand for use of headings 
based on the number of departures waiting was used at Newark 
and not at Philadelphia.''
    Now what we have here is a situation where you have 
scheduling as to time from 9 a.m. to 11 and from 2 p.m. to 7 
but not geared to the number of planes waiting.
    Now my question, why shouldn't Philadelphia have the same 
consideration that Newark does to limit the overflights? And I 
understand in Newark, you're limiting the overflights over 
residential areas. Why not have the same consideration for 
Delaware County which Newark has that you don't fly over 
Delaware County unless there are more than 10 planes waiting?
    Mr. Sturgell. Senator, I'll look forward to talking about 
these issues with you next week at the field hearing.
    Senator Specter. Let's talk about it now. We have 1 minute 
and 40 seconds left.
    Mr. Sturgell. Those times do also correlate, my 
recollection is, with the peak departure periods for----
    Senator Specter. That's not----
    Mr. Sturgell [continuing]. There, and in both places, we 
are limiting the number of dispersal headings.
    Senator Specter. No, that's not necessarily so. Those times 
do not correspond with having more than 10 planes waiting. 
That's the standard you have at Newark but not in Philadelphia.
    Mr. Sturgell. Then I don't have the specifics you're asking 
me today. I'd certainly be glad to go back, study it, get it 
and either meet with you before next week or discuss it next 
week.
    Senator Specter. Okay. You say in your letter, dated March 
20, ``For us to change any of the technical disclosed 
mitigation strategies as detailed in our record of decision 
would require re-evaluation and analysis of both the 
operational and environmental impacts.''
    What's the problem with a re-evaluation, Mr. Sturgell? You 
have the community which is up in arms, really up in arms about 
the noise, and they asked me the questions, why does Newark not 
fly over the neighborhoods unless they have more than 10 
waiting and you write back and say require re-evaluation. 
That's all we hear around here is re-evaluate things from 
morning till night. Make legislative changes to try to have 
public policy that accommodates people. Why not a re-
evaluation?
    Mr. Sturgell. Senator, we went through a very extensive 
public process with this airspace redesign project. I think we 
held over 120 meetings. We did mitigations specifically to 
reduce noise impacts and in fact there is a net noise reduction 
in this project for tens of thousands of people in that region. 
There are, I believe, a dozen lawsuits at this point in the 
process. So, I think these issues will get played out in 
litigation.
    Senator Specter. Well, I don't rely on having them played 
out, but I know you spent a lot of time. Makes me think of the 
patent bill where we spent a lot of time. We spent more time on 
the patent bill than you have on this issue, I think, and we're 
still working on it, but when you say it will take a re-
evaluation, I want the re-evaluation, but we'll have some more 
time in Philadelphia when we won't have this heavy gavel 
hanging over the proceeding.
    Thank you very much, Senator Murray.

              RELATIONSHIP BETWEEN INSPECTORS AND AIRLINES

    Senator Murray. Thank you. Mr. Sturgell, a lot of the 
controversy surrounding the Southwest incident relates to the 
overly-cozy relationship between your FAA inspector-in-charge 
and his former FAA colleagues that now work for Southwest.
    The Inspector General has recommended that the FAA include 
in its term of employment a cooling-off period before an 
inspector can start working at an airline that he or she 
previously inspected.
    Now the FAA has stated that they're going to adopt this 
approach to help reduce the risk of conflicts and it sounds 
like an appealing solution, but I want to understand what that 
cooling-off period would look like, and I want to know how you 
envision that. When is it going to go into effect?
    Mr. Sturgell. Madam Chairman, we currently have a policy 
when we hire a person from an airline to be an FAA inspector, 
we impose a 2-year cooling-off period----
    Senator Murray. That's the current policy?
    Mr. Sturgell. That is incoming into the FAA. So, we limit 
that person's interaction with their previous employer for 2 
years. We have not had a policy when an airline hires an 
inspector to come to work for them. We're going to institute a 
policy that's going to require the same 2-year cooling-off 
period.
    Senator Murray. When does that go into effect?
    Mr. Sturgell. I believe we have to do this with a comment 
period, but we're going to expedite it as quickly as we can.
    Senator Murray. So, it would be a 2-year waiting period 
after they leave the FAA before they can go work for the----
    Mr. Sturgell. Before they can go into direct contact with 
the FAA, yes.
    Senator Murray. And whom specifically would that apply to?
    Mr. Sturgell. It would apply, as we've talked about it, at 
the inspector level for people that would then be interacting 
with our inspector workforce.
    Senator Murray. So supervisors?
    Mr. Sturgell. Yes. Offhand, I would say that if a 
supervisor gets hired and moves to an airline and then 
interacts with our inspector workforce, we're going to require 
a 2-year cooling-off period. There are already general 
Government regulations that I think have pay levels that 
require this kind of cooling-off period. Our inspector 
workforce is generally below those pay levels. So, it's my 
understanding that is why there is not a current policy that 
applies, but we're going to put one in effect.
    Senator Murray. Okay. Can we expect to see that soon?
    Mr. Sturgell. As soon as we can get the counsel's office 
acting on it and get the comment period, if that is required.
    Senator Murray. All right. Now some people are arguing that 
if an airline wants to make sure that they hire a person with 
the best knowledge, that this will preclude them from doing so. 
Should that be a concern?
    Mr. Sturgell. Hopefully those kinds of things will be 
brought out in the comment period and then we'll have to sit 
down and discuss the balances here.
    Senator Murray. General Scovel, do you want to comment on 
that?
    Mr. Scovel. Senator Murray, we think a cooling-off period 
is good. It ought to apply to supervisors as well as line 
inspectors. We think that if it is properly structured, it 
should not be a problem for an air carrier who wants to hire a 
former FAA inspector because the cooling-off period should 
prohibit direct contact between that former FAA employee now 
working for the carrier and FAA. That is the real essence of 
the problem; specifically, those personal contacts that we 
believe contributed to this overly collaborative relationship 
at Southwest.
    Senator Murray. If this is a concern and an issue that 
should be addressed with the FAA, what about Federal Railroad 
inspectors or pipeline inspectors? Should we be looking at the 
same policy there?
    Mr. Scovel. Perhaps. I do not want to speculate because, of 
course, we have not investigated any cases or instances that 
would lead us to think that there have been specific problems 
in those areas, but the fact that those safety inspectors in 
other modes within DOT may be susceptible to the same problems 
should prompt the Department to take a look at that question.

                   INSPECTOR GENERAL RECOMMENDATIONS

    Senator Murray. Okay. I appreciate that. Mr. Sturgell, many 
of the issues that were raised by the Inspector General today 
aren't new. General Scovel's testimony includes at least four 
instances when the FAA has not fully addressed safety concerns 
that were found years ago in prior audits by the Inspector 
General.
    Back in 2002, the IG found that implementation of your new 
approach for risk-based inspection was inconsistent across the 
FAA field offices and he recommended that the FAA strengthen 
national oversight and accountability for your new approach. 
The FAA agreed to comply.
    But when the IG reviewed your efforts in 2005, he found 
that inspectors had not completed 26 percent of the planned 
inspections and that half of those missed inspections were 
considered high risk.
    Again the IG recommended that FAA strengthen its national 
oversight and accountability to ensure consistent and timely 
inspections. Again FAA agreed to comply but even today some of 
those inspections haven't been completed.
    When the FAA commits to the Inspector General and to this 
subcommittee that it's going to fix particular problems, why 
don't they get fixed?
    Mr. Sturgell. Senator Murray, I appreciate those concerns. 
One of my take-aways over the last week has been to have put 
together all of the various GAO and IG recommendations by our 
Chief Financial Officer and then to see where we are in terms 
of addressing those recommendations based on our responses.

                            SAFETY OVERSIGHT

    Senator Murray. But you can see how this is hard for us 
year after year after year after year after year after year 
after year. You come before our subcommittee, you report 
everything will be addressed, I don't want to be back here a 
year from now looking at the same issue. How do I know that's 
not going to happen?
    Mr. Sturgell. Because I'm committing to you to do that kind 
of review of the IG recommendations and we will certainly 
discuss with you in the cases where we don't agree or don't 
fully comply, the reasons for doing so.
    I do want you to know that on the ATOS Program, we have 
now, as of December 2007, put every 121 carrier into that 
program and we have just recently released an updated version 
of ATOS which will permit us to do the kind of national 
overlook that the IG has been requesting. We are setting up an 
office in Flight Standards, AFS-900, that's going to be tasked 
with conducting those types of national reviews.
    Senator Murray. Well, as you sit here this morning, can you 
guarantee to us that your agency has conducted a comprehensive 
audit on every airline that you regulate within those 5-year 
timeframes?
    Mr. Sturgell. We will be using this office to double check 
on where we are in terms of all of the required audits.
    Madam Chairman, the 5-year audit is part of the program. 
Inspectors can request an additional year delay and written 
justification is required to delay that program. At Southwest, 
we do have a team down there now, an evaluation team----
    Senator Murray. It's been 9 years. Have they gotten a 
waiver on that?
    Mr. Sturgell. Again, I know, from all the testimony and 
records, there were issues going on at that office for several 
years that should have been addressed.
    Senator Murray. Nine years.
    Mr. Sturgell. They should have been addressed.
    Senator Murray. Well, General Scovel, let me ask you. I 
mean this is frustrating. We sit here every year. We go through 
the same questions. We have an FAA director who comes before us 
and says the same things. What do we need, timelines? I mean, 
we've had timelines and timelines and that doesn't happen. What 
is missing?
    Mr. Scovel. It is frustrating. In response to our 2002 
recommendation for greater national oversight, FAA promised 
that its newly appointed Director of Flight Standards Division 
would undertake that responsibility. It did not happen.
    When we reviewed ATOS again in 2005, we found the same 
problem. Greater national oversight appeared to be the solution 
to us. FAA has communicated back to us with a number of 
proposed solutions. Quite frankly, Madam Chairman, we have 
declined to close that particular recommendation with the 
solutions proposed to us by FAA because we did not think that 
they would solve the problem. The recommendation is still open.
    With regard to the Southwest situation specifically, you 
were talking about required ATOS inspections at Southwest that 
are still left undone. The latest information I have is, as you 
read in our statement, in March 2007, 21 key ATOS inspections 
had not been done within the required 5-year period. Within the 
last week, we have checked that again. Four of those still 
remain undone----
    Senator Murray. Why?
    Mr. Scovel [continuing]. At Southwest.
    Senator Murray. Why, Mr. Sturgell?
    Mr. Sturgell. It is my belief that the air carrier 
evaluation team that is down there now will be completing those 
four. It's a comprehensive review and audit that they are doing 
of Southwest's programs beginning with airworthiness directives 
and the maintenance programs.
    Senator Murray. Lack of personnel? Lack of----
    Mr. Sturgell. I will get back to you----
    Senator Murray [continuing]. Time? Lack of people? What's 
the reason this isn't being done?
    Mr. Sturgell. Again, Madam Chair, it's my belief that this 
team is going to complete those four audits, in addition to the 
audit work that it's doing.
    Senator Murray. What about the other airlines, other than 
Southwest?
    Mr. Sturgell. We will take a look and see whether there are 
any programs that are required inspections that are 
outstanding. I am not aware of any at this time, no.
    Senator Murray. Any that you know of?
    Mr. Sturgell. No. We can talk to our CMO offices and we can 
put together some information for you about these 5-year 
inspections and get back to you with it.
    Senator Murray. Well, how long is that going to take?
    Mr. Sturgell. I'll know when I get back to the office and 
I'll give you a call back.
    Senator Murray. Well, you can understand why the flying 
public is frustrated here. Mr. Sturgell, it's your job to make 
sure that everybody who gets on an airplane knows they're 
flying a safe flight. I know that's a huge responsibility. 
There's risk involved in it, but it is frustrating to this 
subcommittee that has oversight over the FAA to hear the same 
answers year after year, and it is frustrating to this 
subcommittee to hear that the audits haven't been done, the 
reports haven't been filed, and we get an answer from you today 
sitting in front of us that you'll get back to us. Believe me, 
I've heard it before.
    How do I know that this time it's different? That's what I 
want to know.
    Mr. Sturgell. Madam Chairman, I'm giving you my word that 
we're going to address this and have a national oversight 
capability in as timely a manner as possible. That's the best I 
can do today.
    Senator Murray. General Scovel, do you have any advice to 
this subcommittee about how we can get an assurance and some 
action on this, other than just pleading at every subcommittee 
hearing that we have?
    Mr. Scovel. If FAA adopts our specific recommendation--and 
it sounds like it is headed in that direction with this 900 
office to oversee ATOS and incorporate the program alerts at 
the local, regional, and national levels when a CMO is in 
danger of missing the required 5-year inspection--that would 
certainly help.
    The data are available, Madam Chairman. My audit staff had 
it within 6 or 7 weeks regarding the 21 key inspections under 
ATOS that had not been done at Southwest. I would expect that 
FAA would be able to find that from every CMO in fairly short 
order.
    Senator Murray. Mr. Sturgell?
    Mr. Sturgell. I am sure we can. I just cannot give you as 
we sit here a definitive time to be able to do that, but when 
we get back, you know, we will sit down and figure out how 
quickly we can get that.
    Senator Murray. Can you give me a commitment to have that 
answer back to me within the week?
    Mr. Sturgell. I think I can do that, yes.
    [The information follows:]

    In response to your request for information on air carrier 
oversight assessments that have not been completed in 5 year intervals, 
I provide the following information.
    The Air Transportation Oversight System (ATOS) was implemented by 
the FAA in the late 1990s. At the time of transition, we moved only 10 
major air carriers into the system and we accepted that the carriers' 
existing systems met regulatory requirements. The guidance we provided 
our inspectors recommended--but did not require--that the system design 
assessments be completed within 5 years.
    For each carrier, there are 106 system design assessments covering 
areas such as aircraft airworthiness, major repairs and alterations, 
manual currency, and flight crew training.
    A review of our data as of April 21 shows that 8 of the 117 
carriers participating in ATOS have a total of 103 system design 
assessments exceeding the recommended 5-year period. The number of 
assessments not performed ranges from a high of 30 at one carrier to a 
low of 2 at another carrier. Twenty-nine of these assessments are in 
progress and will be completed by June 30, 2008. Over 30 additional 
assessments are scheduled to be completed before the end of this 
calendar year. The remainder of assessments are scheduled to be 
performed over the next several years, depending on the level of risk 
they pose. Again, these system design assessments were recommended, but 
not required.
    I cannot provide definitive data on why these inspections were 
deferred because the automated data collection system we used at the 
time did not require inspectors to document the reasons for delay. 
However, it is likely these system design assessments were not 
completed because inspectors were assessing the performance of the 
systems and the data indicated the system performed properly and 
therefore was adequately designed. It is also possible that some of the 
system design assessments were not performed due to inadequate 
resources. In the early years of implementation of this program 
resources in the Aviation Safety (AVS) organization fluctuated, In the 
last several years, due to support from the administration and 
Congress, AVS resources have grown substantially, which allows us to 
better manage our oversight program.
    As of December 2007 all part 121 carriers (at the time there were 
117) were moved into the ATOS system. With that implementation, we 
introduced a new version of the ATOS automation that requires the 
principal inspector to document why an assessment is delayed--even if 
the reason is a lack of resources. This enhancement will allow senior 
managers to monitor inspections on a national basis, review the reasons 
for deferral and, if necessary, change inspection priorities or provide 
additional resources. In addition, the system will automatically 
schedule all design assessments every 5 years--although it will permit 
deferral with a documented reason.


------------------------------------------------------------------------
                                    Last      Risk  Priority    Status
------------------------------------------------------------------------
American (26 overdue):
    1.1.1--Aircraft               3/27/2002    117         2  On-going
     Airworthiness.
    1.1.2--Appropriate           10/15/1999     28        40  ..........
     Operational Equipment.
    1.2.1--Airworthiness          3/26/2003     60        21  2008
     Release/Logbook Entry.
    1.2.3--Maintenance Log/       3/26/2003     56        28  ..........
     Recording Requirements.
    1.2.6--Aircraft Listing...   10/31/2002     28        43  ..........
    1.3.1--Maintenance Program    5/14/2002     68        14  On-going
    1.3.3--Maintenance            9/28/2000     66        15  2008
     Facility/Main Maintenance
     Base.
    1.3.5--MEL/CDL/Deferred       6/13/2001     62        19  2008
     Maintenance.
    1.3.8--Control of             4/18/2002     62        20  2008
     Calibrated Tools and Test
     Equipment.
    1.3.9--Engineering/Major      3/22/2001     93         7  On-going
     Repairs and Alterations.
    1.3.10--Parts/Material         5/9/2002     70        12  On-going
     Control/SUP.
    1.3.16--Fueling...........     2/7/2002     64        16  On-going
    1.3.17--Weight and Balance    2/27/2001     56        30  ..........
     Program.
    1.3.18--De-Icing Program..    3/30/2000     64        17  2008
    1.3.21--Parts Pooling.....      4/14/03     28        45  ..........
    1.3.22--Parts Borrowing...      4/14/03     28        46  ..........
    2.1.5--Supplemental           7/17/2000     56        36  ..........
     Operations Manual
     Requirements.
    4.1.2--Maintenance            2/14/2003     28        48  ..........
     Certificate Requirements.
    4.2.1--Maintenance             6/7/2001     60        24  2008
     Training Program.
    4.2.2--RII Training          10/29/2002     58        25  ..........
     Requirements.
    4.4.1--Recency of              2/6/2003     28        49  ..........
     Experience.
    4.4.2--Display of              2/6/2003     28        50  ..........
     Certificate.
    4.4.3--Privileges Airframe     2/6/2003     28        51  ..........
     and Powerplant.
    4.4.4--Privileges and          2/6/2003     28        52  ..........
     Limitations for Repairmen.
    7.1.1--Director of            3/20/2002     28        53  ..........
     Maintenance.
    7.1.2--Chief Inspector....    3/20/2002     29        39  ..........
Alaska (13 overdue):
    1.2.4--MIS Reports........    1/31/2003     28        40  ..........
    1.3.23--Short-Term            3/20/2003     56        28  ..........
     Escalations.
    1.3.24--Coordinating          2/28/2003     28        45  ..........
     Agencies for Suppliers
     Evaluation (CASE).
    2.1.1--Manual Currency        1/30/2003     56        29  ..........
     (AW).
    2.1.1--Manual Currency        1/30/2003     56        15  ..........
     (OPS).
    2.1.2--Content Consistency    1/30/2003     56        30  ..........
     Across Manuals.
    2.1.3--Distribution           1/30/2003     56        31  ..........
     (Manuals) (AW).
    2.1.3--Distribution            2/3/2003     54        23  On-going
     (Manuals) (OPS).
    2.1.4--Availability           1/30/2003     56        32  ..........
     (Manuals) (AW).
    2.1.4--Availability           1/30/2003     54        24  ..........
     (Manuals) (OPS).
    3.1.1--Passenger Handling.    3/22/2001     66         8  ..........
    3.1.11--Computer Based        5/22/2002     27        35  ..........
     Record Keeping System.
    5.1.6--Use of Approved         1/4/2000     28        33  ..........
     Areas, Routes and
     Airports.
Continental (2 overdue):
    1.3.14--General               1/10/2003     28        42   2008
     Maintenance Manual/
     Equivalent.
    4.3.3--Advanced               3/24/2003     54        32   2008
     Qualification Program
     (AQP).
Delta (6 overdue):
    1.1.2--Appropriate              No date     28        40  ..........
     Operational Equipment.
    1.2.3--Maintenance Log/      10/18/2001     68        15  On-going
     Recording Requirements.
    1.3.10--Parts/Material        8/10/2001     56         9  ..........
     Control/SUP.
    1.3.18--De-Icing Program..    3/25/2003     56        35  2008
    2.1.4--Availability           1/24/2002     56        38  ..........
     (Manuals).
    7.1.4--Director of            7/17/2002     27        22  2008
     Operations.
Northwest (2 overdue):
    3.1.3--Airmen Duties/         3/31/2003     99         1  On-going
     Flight Deck Procedures.
    5.1.7--Special Navigation      6/6/2002     28        33  On-going
     Areas of Operation.
Southwest (9 overdue):
    1.2.3--Maintenance Log/       1/25/2002    170        13  On-going
     Recording Requirements.
    3.1.1--Passenger Handling.    1/15/2003     54        19  On-going
    4.1.2--Maintenance             6/8/1999     58        35  On-going
     Certificate Requirements.
    4.2.2--RII Training            4/9/1999     56        42  On-going
     Requirements.
    4.4.1--Recency of             3/12/2003     58        36  On-going
     Experience.
    4.4.3--Privileges Airframe    8/16/1999     33        49  On-going
     and Powerplant.
    7.1.1--Director of            6/27/2002     58        37  On-going
     Maintenance.
    7.1.2--Chief Inspector....    6/28/2002     58        38  On-going
    7.1.3--Director of Safety.     6/1/1999     83        32  On-going
United (15 overdue):
    1.1.2--Appropriate              No date     30        34  On-going
     Operational Equipment.
    1.2.1--Airworthiness          3/28/2002     56        26  On-going
     Release/Logbook Entry.
    1.3.1--Maintenance Program    11/8/2000     64        15  On-going
    1.3.12--SFAR36............    4/22/1999     56        31  2008
    1.3.18--De-Icing Program..    7/29/1999     56        33  On-going
    1.3.19--Lower Landing          8/2/1999     56        34  On-going
     Minimums (LLM).
    1.3.21--Parts Pooling.....     5/8/2002     28        47  2008
    1.3.22--Parts Borrowing...     5/8/2002     28        48  2008
    3.1.10--Lower Landing          9/8/1999     27        35  On-going
     Minimums (LLM).
    3.1.11--Computer Based          No date     27        36  2008
     Record Keeping System.
    4.2.10--Aircrew Designated     5/1/2000     27        37  2008
     Examiner (ADE) Program.
    4.3.1--Pilot Operating          No date     54        29  On-going
     Limitations/Recent
     Experience.
    4.3.2--Appropriate Airmen/     5/1/2000     54        30  On-going
     Crewmember Checks and
     Qualifications.
    7.1.1--Director of            9/22/1999     30        41  On-going
     Maintenance.
    7.1.2--Chief Inspector....    5/13/1999     31        40  2008
US Airways (30 overdue):
    1.1.3--Special Flight         1/30/2002     60        30  On-going
     Permits.
    1.3.11--Continuous            2/25/2003    114         9  2008
     Analysis and Surveillance
     (CAS).
    1.3.13--Designated           11/19/1999     56        35  2008
     Alteration Station (DAS).
    1.3.14--General              12/15/1999     31        40  On-going
     Maintenance Manual/
     Equivalent.
    1.3.20--Engine Condition      1/31/2002     62        28  On-going
     Monitoring.
    1.1.2--Appropriate              No date     28        36  ..........
     Operational Equipment.
    1.3.21--Parts Pooling.....     6/6/2002     34        38  2008
    1.3.22--Parts Borrowing...    5/14/2002     34        39  ..........
    1.3.23--Short-Term            5/30/2002     60        32  2008
     Escalations.
    1.3.24--Coordinating           7/1/2002     28        49  ..........
     Agencies for Suppliers
     Evaluation (CASE).
    2.1.1--Manual Currency....    2/24/2003     56        36  2008
    2.1.3--Distribution          12/16/2002     58        33  On-going
     (Manuals).
    3.1.9--Aircraft               9/29/1999     54        25  On-going
     Performance Operating
     Limitations.
    3.1.10--Lower Landing         5/11/1999     27        40  ..........
     Minimums (LLM).
    4.2.3--Training of Flight     1/25/2001     56        18  On-going
     Crewmembers.
    4.2.6--Training of Station    2/28/2003     56        19  2008
     Personnel.
    4.3.1--Pilot Operating        7/20/1999     54        29  On-going
     Limitations/Recent
     Experience.
    5.1.6--Use of Approved        1/13/2000     27        41  ..........
     Areas, Routes and
     Airports.
    5.1.7--Special Navigation     3/25/2002     27        42  ..........
     Areas of Operation.
    5.1.8--Extended Range         7/26/2002     84        15  On-going
     Operations with Two-
     Engine Airplanes (AW).
    5.1.8--Extended Range          9/9/2002     27        43  ..........
     Operations with Two-
     Engine Airplanes (OPS).
    5.1.9--RVSM Authorization.     9/9/2002     27        44  2008
    6.1.1--Scheduling/            8/10/2000     28        39  2008
     Reporting System.
    2.1.5--Supplemental             No date     56        37  2008
     Operations Manual
     Requirements.
    4.2.9--Outsource                No date     54        28  ..........
     Crewmember Training.
    7.1.1--Director of            11/7/2000     29        43  On-going
     Maintenance.
    7.1.2--Chief Inspector....    11/2/2000     30        42  On-going
    7.1.3--Director of Safety.    9/15/2000     29        44  On-going
    7.1.5--Chief Pilot........    2/22/1999     27        47  ..........
    7.2.1--Safety Program        11/27/2001     54        34  2008
     (Ground and Flight).
------------------------------------------------------------------------


    figure 10-6, atos system/subsystem/element chart--airworthiness 
                                elements
1.0 Aircraft Configuration Control
            1.1 Aircraft
1.1.1--Aircraft Airworthiness
1.1.2--Appropriate Operational Equipment
1.1.3--Special Flight Permits
            1.2 Records and Reporting Systems
1.2.1--Airworthiness Release/Log Book Entry
1.2.2--Major Repairs and Alterations Records
1.2.3--Maintenance Log/Recording Requirements
1.2.4--Mechanical Interruption Summary Reports
1.2.5--Service Difficulty Reports
1.2.6--Aircraft Listing
            1.3 Maintenance Organization
1.3.1--Maintenance Program
1.3.2--Inspection Program
1.3.3--Maintenance Facility/Main Maintenance Base
1.3.4--Required Inspection Items
1.3.5--Minimum Equipment List/Configuration Deviation List/Deferred 
Maintenance
1.3.6--Airworthiness Directive Management
1.3.7--Outsource Organization
1.3.8--Control of Calibrated Tools and Test Equipment
1.3.9--Engineering/Major Repairs and Alterations
1.3.10--Parts/Material Control/Suspected Unapproved Parts
1.3.11--Continuous Analysis and Surveillance
1.3.12--Special Federal Aviation Regulations (SFAR) 36
1.3.13--Designated Alteration Station
1.3.14--General Maintenance Manual or Equivalent
1.3.15--Reliability Program
1.3.16--Fueling
1.3.17--Weight and Balance Program
1.3.18--Deicing Program
1.3.19--Lower Landing Minimums
1.3.20--Engine Condition Monitoring
1.3.21--Parts Pooling
1.3.22--Parts Borrowing
1.3.23--Short-Term Escalations
1.3.24--Coordinating Agencies for Suppliers Evaluation
1.3.25--Cargo Handling Equipment, Systems and Appliances
2.0 Manuals
            2.1 Manual Management
2.1.1--Manual Currency
2.1.2--Content Consistency Across Manuals
2.1.3--Distribution (Manuals)
2.1.4--Availability (Manuals)
2.1.5--Supplemental Operations Manual Requirements
4.0 Personnel Training and Qualifications
            4.1 Maintenance Personnel Qualifications
4.1.1--Required Inspection Item Personnel
4.1.2--Maintenance Certificate Requirements
            4.2 Training Program
4.2.1--Maintenance Training Program
4.2.2--Required Inspection Item Training Requirements
4.2.12--Hazardous Materials Training
            4.4 Mechanics and Repairmen Certification
4.4.1--Recency of Experience
4.4.2--Display of Certificate
4.4.3--Privileges Airframe and Powerplant
4.4.4--Privileges and Limitations for Repairmen
5.0 Route Structures
            5.1 Approved Routes and Areas
5.1.1--Line Stations (Service and Maintenance)
5.1.2--Weather Reporting/Supplemental Aviation Weather Reporting System
5.1.3--Non-Federal Navigational Aids
5.1.4--Altimeter Setting Sources
5.1.8--Extended Operations
5.1.9--Reduced Vertical Separation Minimum
6.0 Airman and Crew Flight, Rest, and Duty Time
            6.2 Maintenance Personnel
6.2.1--Maintenance Duty Time Limitations
7.0 Technical Administration
            7.1 Key Personnel
7.1.1--Director of Maintenance
7.1.2--Chief Inspector
7.1.3--Director of Safety
7.1.6--Maintenance Control
figure 10-7, atos system/subsystem/element chart--operations and cabin 
                            safety elements
1.0 Aircraft Configuration Control
            1.1 Aircraft
1.1.2--Appropriate Operational Equipment
  
2.0 Manuals
            2.1 Manual Management
2.1.1--Manual Currency
2.1.2--Content Consistency Across Manuals
2.1.3--Distribution (Manuals)
2.1.4--Availability (Manuals)
2.1.5--Supplemental Operations Manual Requirements
3.0 Flight Operations
            3.1 Air Carrier Programs and Procedures
3.1.1--Passenger Handling
3.1.2--Flight Attendant Duties/Cabin Procedures
3.1.3--Airman Duties/Flight Deck Procedures
3.1.4--Operational Control
3.1.5--Carry-on Baggage Program
3.1.6--Exit Seating Program
3.1.7--Deicing Program
3.1.8--Carriage of Cargo
3.1.9--Aircraft Performance Operating Limits
3.1.10--Lower Landing Minimums
3.1.11--Computer-based Recordkeeping
3.1.12--Hazardous Materials
3.1.13--Other Personnel with Operational Control
            3.2 Operational Release
3.2.1--Dispatch or Flight Release
3.2.2--Flight/Load Manifest/Weight and Balance Control
3.2.3--Minimum Equipment List/Configuration Deviation List Procedures
4.0 Personnel Training and Qualifications
            4.2 Training Program
4.2.3--Training of Flight Crewmembers
4.2.4--Training of Flight Attendants
4.2.5--Training of Dispatchers
4.2.6--Training of Station Personnel
4.2.7--Training of Check Airman and Instructors
4.2.8--Simulators/Training Devices
4.2.9--Outsource Crewmember Training
4.2.10--Aircrew Designated Examiner Program
4.2.11--Training of Flight Followers
4.2.12--Hazardous Materials Training
            4.3 Crewmember and Dispatch Qualifications
4.3.1--Pilot Operating Limitations/Recent Experience
4.3.2--Appropriate Airman/Crewmember Checks and Qualifications
4.3.3--Advanced Qualification Program
5.0 Route Structures
            5.1 Approved Routes and Areas
5.1.5--Station Facilities
5.1.6--Use of Approved Routes, Areas and Airports
5.1.7--Special Navigation Areas of Operation
5.1.8--Extended Operations
5.1.9--Reduced Vertical Separation Minimum Authorization
6.0 Airmen and Crewmember Flight, Rest and Duty Time
            6.1 Airman and Crewmember Limitations
6.1.1--Scheduling/Reporting System
6.1.2--Flight Crewmember Flight/Duty/Rest Time
6.1.3--Flight Attendant Duty/Rest Time
6.1.4--Dispatcher Duty/Rest Time
7.0 Technical Administration
            7.1 Key Personnel
7.1.3--Director of Safety
7.1.4--Director of Operations
7.1.5--Chief Pilot
            7.2 Other Programs
7.2.1--Safety Program (Ground and Flight)
  

    RESERVED.--Paragraphs 10-27 through 10-41.

    Senator Murray. Okay. I would really appreciate it if you 
could put every effort into that because, you know, it is a 
concern to all of us.

                     ADDITIONAL COMMITTEE QUESTIONS

    I do have a number of questions on inspections, on a number 
of the runway incursions, on ASDE-X, and I will submit those 
for the record. I would hope that we can get those back. I know 
some other committee members do, too. We have gone over our 
time. I know Senator Bond has some additional questions, too, 
and I will submit for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Robert A. Sturgell
              Questions Submitted by Senator Patty Murray
                    maintenance outsourced overseas
    Question. Why can't the FAA keep on top of these changes in the 
business practices of the airline industry? This trend of increased 
outsourcing didn't start last year--it started over a decade ago.
    Answer. One of the most notable FAA advancements in air carrier 
surveillance has been the development of the Air Transportation 
Oversight System (ATOS). ATOS enables FAA inspectors to keep track of 
changes in the business practices of the airline industry such as 
increased outsourcing. If these changes are subject to regulation, air 
carriers must submit them to FAA for approval or acceptance. ATOS tools 
and surveillance plans are subsequently modified to incorporate the 
changes.
    There are 97 ATOS inspection elements, each focuses on a different 
component of an air carrier's operating systems. One of the elements 
addresses programs for managing outsourced maintenance. If an air 
carrier outsources some or all of its maintenance, principal inspectors 
use ATOS tools to determine that the carrier has a system to manage the 
outsourced maintenance. Then inspectors check the carrier's system 
semi-annually to determine that it is performing properly by making 
visits to some of the repair stations where outsourced maintenance 
occurs. Repair stations are selected based on the type and scope of 
work they do for the carrier. Additionally, each repair station is 
inspected at least annually to determine that it remains qualified for 
a repair station certificate.
    Question. If you as a safety regulator can't adequately oversee the 
foreign maintenance operations, why should airlines you regulate be 
allowed to use them?
    Answer. The certification standards and oversight of a certificated 
foreign repair station (CFRS) are as stringent as those for a domestic 
repair station. FAA aviation safety inspectors perform annual 
inspections of each CFRS to determine that it continues to meet FAA 
standards. The only exception is those repair stations located in a 
country with which the United States has a bilateral aviation safety 
agreement and maintenance implementation procedure (BASA/MIP). In BASA/
MIP countries, the foreign national aviation authority (NAA) conducts 
the inspection on behalf of the FAA. We would only engage in a BASA/MIP 
with a country whose NAA has standards and practices commensurate with 
our own. The FAA also conducts sampling inspections at the CFRSs.
    In addition to surveillance conducted by the FAA or an NAA in 
accordance with a BASA/MIP, U.S. air carriers that contract maintenance 
work with the CFRS establish a schedule for accomplishing continuing 
audits (inspections) to determine the maintenance provider's level of 
compliance with specific work instructions and procedures documented in 
the air carrier's maintenance manual. The frequency of these audits is 
dictated by a number of variables, such as the air carrier's level of 
confidence in the maintenance provider, the complexity, quantity, and 
quality of the work performed and subsequent documentation.
    The FAA has made continual improvements to its own oversight system 
for all U.S. and non-U.S. repair stations. The FAA uses an enhanced 
risk-based surveillance system for repair stations--the Repair Station 
Assessment Tool. This risk-based system improves our ability to analyze 
data so we can target our resources toward areas of identified risk. 
For example, using this tool we can easily identify repair stations 
that outsource work to other maintenance providers.
    The FAA has also completed revisions to the Safety Performance 
Analysis System (SPAS) and implemented the Outsource Oversight 
Prioritization Tool (OPT). Aviation safety inspectors use the OPT as a 
part of the enhanced repair station and air carrier oversight system, 
which includes the oversight of foreign repair stations. The tool 
assists the FAA in the application of system safety and risk management 
concepts, assuring that repair stations and air carriers meet their 
responsibility to accomplish outsourced maintenance in accordance with 
standards established by the regulations and, in so doing, provide the 
highest possible level of safety to the traveling public.
                           inspector staffing
    Question. Mr. Sturgell, do you really believe--based on all we have 
learned recently about the adequacy of your inspection efforts--that we 
don't need any additional inspectors to get the job done?
    Answer. FAA's Flight Standards Service (AFS) ended fiscal year 2007 
with 3,780 Aviation Safety Inspectors (ASIs). The fiscal year 2008 
budget provides additional resources for a projected end of year total 
of 3,880 ASIs. As of May 2008, AFS had 3,865 inspectors on-board. The 
100 additional positions will support FAA's efforts to increase the 
effectiveness of safety oversight, including initial certification 
program approvals/acceptance, approval/acceptance of new programs and 
program changes and periodic program reviews. In addition, these ASIs 
will support requests for new certifications, while maintaining 
surveillance of air carriers in bankruptcy protection in accordance 
with FAA regulations.
    Recent increases in ASI staffing will enable the FAA to better meet 
the requirements of the system safety oversight process. Changes to 
FAA's system safety oversight process would require additional safety 
critical resources.
                retaliation and harassment of inspectors
    Question. Mr. Sturgell, does the FAA have any procedures in place 
for reviewing a complaint against an inspector before relieving that 
employee of their duties?
    Answer. If we receive an anonymous complaint the employee is 
usually allowed to continue to perform inspector duties while it is 
investigated. If we receive a detailed complaint suggesting some wrong-
doing on the part of the employee, we take steps to assure such 
activity could not reoccur while the complaint is investigated. 
Sometimes that includes assigning the employee to administrative duties 
or placing the employee on administrative leave.
                           senior management
    Question. Mr. Sturgell, when did you first learn that Southwest 
Airlines had not complied with an AD and had violated the rules of the 
self-disclosure program?
    Answer. To the best of my knowledge I first became aware of the 
issues surrounding Southwest Airlines in February 2008.
    Question. When you learned of these matters, why did you choose not 
to meet with either the authorizing committees or the appropriations 
committees to discuss the matter and let Members of Congress know what 
you were doing in response?
    Answer. I thought it appropriate to allow the career employees in 
the FAA handle the matter according to our regulations and policies.
    Question. Mr. Sabatini's contract includes the possibility of 
receiving bonuses based on his performance on the job. Mr. Sturgell, 
did Mr. Sabatini receive a performance bonus for fiscal year 2007?
    Answer. Yes. All eligible career executives and senior 
professionals covered by the FAA Executive Compensation Plan 
participate in the Short Term Incentive (STI) program. This program 
replaced the awarding of executive ``bonuses.'' For leading the 
accomplishment of organizational goals in fiscal year 2007, Mr. 
Sabatini earned an STI payment of $19,157.
    Question. In testifying before the House Transportation and 
Infrastructure Committee and the Senate Commerce Committee, Associate 
Administrator Nicholas Sabatini repeated several times that he is 
accountable for overseeing aviation safety. He said to the House 
committee, ``I am responsible for my workforce's actions.'' Mr. 
Sturgell, do you agree with the sentiments of Mr. Sabatini's testimony? 
Are you also responsible for the performance of the FAA workforce?
    Answer. Aviation safety is a total team effort, from the inspector 
on the ground to the controller in the tower. Every one of FAA's 
employees can be proud that the United States, with the largest and 
most complex national airspace system in the world, is also the safest. 
This is not about who gets the credit and who gets the blame. Recently, 
I delivered the message to a gathering of senior FAA executives that 
when one fails, we all do. This is the safest period in aviation 
history--not because of any one person but because of the 
accomplishments of the entire industry. While the Administrator may be 
the face of the FAA, aviation safety is a team effort.
                             self-reporting
    Question. How was Southwest able to break all of the rules that the 
FAA set up to govern the self reporting of safety problems?
    Answer. There was a management failure at the Southwest Airlines 
certificate management office (CMO) and the Flight Standards southwest 
regional headquarters. The regional management should not have allowed 
problems at the CMO to persist for several years and should have 
advised Flight Standards officials in headquarters. The performance of 
the supervisory principal maintenance inspector should have been 
corrected at the onset. We are addressing these management failures 
with personnel actions taken before and after the hearings. We plan to 
use this management failure as an example in new and recurrent manager 
and executive training.
    Question. What steps are you taking to ensure that the FAA's 
program for self reporting safety violations is never abused again?
    Answer. We have changed the voluntary disclosure reporting policy 
to require that a specific management official in the airline endorse 
and submit a voluntary disclosure. On the FAA side, the principal 
inspector is no longer the sole determiner to accept a voluntary 
disclosure. The manager of the certificate holding district office has 
to accept the voluntary disclosure and decide whether the comprehensive 
fix is appropriate. The FAA manager must then review whether or not the 
operator has accomplished the comprehensive fix appropriately before 
closing out the voluntary disclosure.
    This new policy went into effect on May 1, 2008.
                     losses in controller workforce
    Question. What have you done to ensure that these estimates are 
more realistic?
    Answer. We base our loss forecasts on historical behavior. Each 
year we update our forecasts in the Controller Workforce Plan based on 
the prior year's data.
    Our forecasts have been improving in percentage terms for the past 
few years, particularly for retirements. See the table below.

----------------------------------------------------------------------------------------------------------------
                                                                                   Pace Through
                                       2005            2006            2007         April 2008       2008 Plan
----------------------------------------------------------------------------------------------------------------
Loss Forecast \1\...............             686             800           1,197             938           1,621
Actual Losses...................             913           1,038           1,559           1,026  ..............
Percent Difference..............             -33             -30             -30              -9  ..............
Retirement Forecast \1\.........             341             467             700             470             828
Actual Retirements..............             465             583             828             480  ..............
Percent Difference..............             -36             -25             -18              -2  ..............
----------------------------------------------------------------------------------------------------------------
\1\ Forecast from prior year's Controller Workforce Plan.

    Question. When is the FAA finally going to get its estimates right 
so it can hire new trainees and train them at an even pace throughout 
the year?
    Answer. As discussed in the previous question, we base our loss 
forecasts on historical behavior. Each year we update our forecasts in 
the Controller Workforce Plan based on the prior year's data. Our 
forecasts have been improving and through April 2008 we are within 10 
percent of our forecast.
    On the hiring side, we have effectively integrated our hiring 
efforts with our Academy training courses. The timing of those courses 
is driven by many factors to include instructor, classroom, and 
simulator scheduling. So, hiring efforts match Academy training slots. 
Two months during the year (March and August this year) have 3 pay 
periods, allowing for additional classes during these months. This 
year, hiring has been steady at over 110 per month with some months 
over 200 based on Academy class schedules.
                    controller experience and safety
    Question. What suddenly triggered the need to retain these 
controllers with retention bonuses and how many employees are receiving 
them now?
    Answer. No sudden event triggered the need to offer retention 
bonuses. FAA is using an array of strategies to recruit, train, and 
retain air traffic controllers. One tool available to FAA for some time 
is to offer retention incentives. It is being used under limited 
circumstances; for example, if there is a need to retain a controller 
to assist in training new hires so they can reach full certification on 
all positions. Before offering a retention incentive, ATO management 
carefully considers the specific staffing situation and needs of the 
facility and other strategies that may be used. The decision to offer a 
retention incentive requires Vice President approval, and is based on a 
review of the individual's skills and performance and the criticality 
of retaining the individual--and his or her specific skills and 
qualifications--to meet agency needs. To receive the incentive, the 
employee must have already submitted retirement papers indicating 
intent to retire, and in exchange for accepting the retention 
incentive, must sign a service agreement. As of May 30, 44 retention 
incentives have been offered and accepted, with an additional 26 offers 
pending.
    Question. Are you concerned that this high level of trainees at a 
facility could impact the safety of operations?
    Answer. Absolutely not. We maintain the highest-level of safety 
regardless of the amount of trainees. Trainees/developmentals do not 
work alone on positions they are not certified on. Our training program 
is very lengthy and we ensure the developmental is ready before they 
are certified to work on their own.
    Developmentals must complete classroom and simulation training at 
both the Academy in Oklahoma City and again when they are assigned to a 
facility. After they have successfully completed this training, they 
are assigned to work with their On-The-Job-Training Instructor (OJT-I).
    The OJT-I is responsible for the position at all times and is 
plugged into an override position while the trainee is working. This 
allows the instructor to override the developmental at any time to 
ensure proper instructions and control of aircraft is given.
    When the developmental is ready for certification the OJT-I 
recommends them. The front line manager must then monitor the 
developmental and make the final determination for certification. 
Regardless of how many trainees/developmentals we have, safety is never 
compromised.
    Question. Who at the FAA should be responsible for the quality of 
air traffic controller training?
    Answer. The newly established Vice President of Technical Training.
    Question. The FAA has accelerated its controller training program 
by adjusting the requirements and introducing simulators at some 
facilities. Can the FAA demonstrate that its accelerated training 
program will produce controllers who are as qualified as those who have 
undergone longer training?
    Answer. Despite the changes in some of the training technologies 
and their efficient reduction on training time, the FAA has not changed 
the certification standards which developmentals must achieve in order 
to become certified. Although some of the dynamics of the training have 
changed to accommodate a much higher volume of new hires than in past 
years, the standards used to certify controllers are the same.
    FAA has performed an analysis of the reduced training time to 
certification of facilities employing simulators and found a 20-60 
percent reduction in training time. The reduction stems from not having 
to wait for certain levels in traffic, weather conditions, or emergency 
scenarios in order to create training events--we can program these 
scenarios dynamically.
    Question. Historically, attrition at the academy was fairly high, 
but most graduates were then able to complete the in-facility training. 
Now, I am hearing reports that attrition at the academy has dropped 
significantly, but in-facility attrition is much higher. What are the 
respective rates of attrition (specifically, dismissal because of 
failure to meet competency levels) in the academy and among trainees in 
FAA facilities for the last 5 years?
    Answer. Historical attrition rates at the Academy have varied 
widely. In the 1970s, there was no Academy screening effort and 
attrition was very low (1 percent). In the 1980s, the FAA instituted a 
screening program at the Academy, which resulted in attrition rates as 
high at 42 percent. In the 1990s, the FAA instituted a ``Train to 
Succeed'' program and Academy attrition fell again to 1 percent. In 
2005, the FAA fully instituted its pre-hire controller aptitude test, 
called AT-SAT. The AT-SAT test is an 8 hour exam that assesses a wide 
variety of skills and knowledge important to controllers. Since the AT-
SAT test was implemented in 2005, Academy attrition has held steady 
between 3-4 percent.
    Research has shown that the AT-SAT accurately predicts success as a 
controller trainee and correlates closely (0.7) with success on the 
first performance verification (practical examination) at the Academy. 
Studies continue on how the AT-SAT correlates to success in facility 
training and performance as a Certified Professional Controller (CPC). 
The AT-SAT has also been proven to have zero race and ethnic background 
bias. This is a rare quality in a pre-employment assessment.
    Controller candidates spend only 27-53 days at the Academy and 
receive primarily basic instruction. The vast majority of training (1-3 
years) occurs at the facilities under the guidance of qualified CPCs. 
Since the early 1980s, facility attrition has held steady between 8-11 
percent per year. The current facility attrition rate for fiscal year 
2008 is just over 8 percent. Currently, the FAA considers this an 
acceptable training attrition rate.
    Question. Can the FAA demonstrate that trainees entering air 
traffic control facilities have the skill to perform the work required 
of them?
    Answer. When a candidate is hired to go to the Academy for basic 
training, he or she has already taken the Air Traffic Selection and 
Training (AT-SAT) exam (unless they have prior military controller 
experience). This exam indicates a candidate's aptitude in air traffic 
control skills and it is correlated closely with success at the 
Academy. In addition, since the agency fully implemented the AT-SAT 
exam in 2005, training attrition (failure) rates have improved 
dramatically (as compared to post strike training attrition rates).
    The Academy teaches new hires the basics in air traffic control and 
supplements skills in whichever type of facility they were hired to 
work in. Once they are finished with their Academy training, they 
report to their respective facility. Trainees do not begin working 
independently as controllers when they report to their facility. They 
undergo customized field training for that facility for several months 
or years until they are eligible to become certified. Local personnel 
track and monitor trainees' progress this entire time and certify their 
skill levels for final qualification as a Certified Professional 
Controller.
                                 ads-b
    Question. Could you explain why the ADS-B technology offers an 
important solution to runway incursions?
    Answer. Runway incursions could potentially be reduced with ADS-B 
technology by providing enhanced situational awareness on the airport 
surface. The FAA is planning to implement the following ADS-B 
applications:
  --Airport Surface Situational Awareness.--The objective of this 
        application is to reduce the potential for deviations, errors, 
        and collisions through an increase in flight crew situational 
        awareness while operating an aircraft on the airport movement 
        area. Flight crews will use a cockpit display to increase 
        awareness of other traffic positions on the airport movement 
        area. Additionally, the display may be used to determine the 
        position of ground vehicles, e.g., snow plows, emergency 
        vehicles, tugs, follow-me vehicles, and airport maintenance 
        vehicles.
  --Final Approach Runway Occupancy Awareness.--The objective of this 
        application is to reduce the likelihood of flight crew errors 
        associated with runway occupancy and to improve the capability 
        of the flight crew to detect Air Traffic Control (ATC) errors. 
        The application involves the use of a cockpit display that 
        depicts the runway environment and displays traffic from the 
        surface up to approximately 1,000 feet above ground level on 
        final approach and will be used by the flight crew to help 
        determine runway occupancy.
  --Enhanced Traffic Situational Awareness on the Airport Surface With 
        Indications and Alerts (ATSA SURF IA).--The objective of this 
        application is to facilitate pilot awareness by identifying the 
        runway traffic status as relevant to ownship operations under 
        normal operational conditions. ATSA SURF Alerts are intended to 
        attract the attention of the flight crew to a non-normal 
        traffic condition and to facilitate a timely response.
                              ads-b in \1\
---------------------------------------------------------------------------
    \1\ The broadcast services are known as ``ADS-B In'' and can be 
defined as receiving traffic and weather information on cockpit 
displays to give pilots enhanced situational awareness. The 
surveillance portion is called ``ADS-B Out'' because it depends on 
location and heading data transmitted out of the aircraft transponder.
---------------------------------------------------------------------------
    Question. Why hasn't the FAA taken a more aggressive stance in 
terms of pursuing ADS-B technology that allows for the transfer of 
information among aircraft?
    Answer. Currently, the ``ADS-B In'' requirements that enable the 
transfer of information among aircraft (air to air applications) are 
only partially defined. The FAA is working collaboratively with 
industry through the Aviation Rulemaking Committee (ARC) to decide the 
appropriate way to move forward with mandating ``ADS-B In''. Below 
outlines the options that were discussed:
  --``ADS-B Out'' compliance in 2020; ``ADS-B In'' effective in 20XX.
  --``ADS-B Out'' compliance in 2020; ``ADS-B In'' voluntary equipage 
        (current FAA strategy).
  --``ADS-B Out'' and ``ADS-B In'' effective in 2010.
    At the present time, option 1 seems to be the best solution for one 
of the draft ARC recommendations (final recommendations will be 
submitted in September 2008). Also as a potential draft recommendation, 
the committee would like the FAA to make a decision by 2012 as to how 
to proceed with ``ADS-B In''.
    In summary, the FAA is working collaboratively with industry and 
various congressional committees to define and move forward with a 
potential ``ADS-B In'' mandate. Additionally, the FAA has already been 
investing in the development of standards to define the symbols for 
pilot's displays.
                                nextgen
    Question. Is the FAA willing to make a commitment to reach certain 
specific NextGen milestones by 2015? If so, what are they?
    Answer. NextGen is a high priority program for the FAA, and the 
agency is planning to reach the following NextGen milestones by 2015:
                          nextgen commitments
    Commitments are based on planning forecasts for fiscal year 2009-
fiscal year 2013 in the President's Budget Submission for fiscal year 
2009.
Nextgen Transformational Programs

AUTOMATIC DEPENDENT SURVEILLANCE--BROADCAST (ADS-B) (BASE-LINED PROGRAM)
------------------------------------------------------------------------------------------------------------------------------------------------
In service decision for broadcast services   November 2008
 (Traffic Information Service--Broadcast
 and Flight Information Service Broadcast).
Louisville Initial Operating Capability of   October 2009
 Surveillance Services.
Gulf of Mexico Initial Operating Capability  1st Qtr 2009
 of Surveillance Services.
Philadelphia Initial Operating Capability    2nd Qtr 2010
 of Surveillance Services.
Juneau Initial Operating Capability of       3rd Qtr 2010
 Surveillance Services.
------------------------------------------------------------------------


                SYSTEM WIDE INFORMATION MANAGEMENT (SWIM)
------------------------------------------------------------------------------------------------------------------------------------------------
Final Investment Decision on segment 1B of   June 2009
 SWIM.
Initial Operating Capability of Automated    4th Qtr 2010
 Special Use Airspace (SUA) Aeronautical
 Status Exchange in Aeronautical
 Information Management (AIM) System.
Final Investment Decision on segment 2 of    3rd Qtr 2010
 SWIM.
------------------------------------------------------------------------


                     DATA COMMUNICATIONS (DATA COMM)
------------------------------------------------------------------------------------------------------------------------------------------------
Initial Investment Decision on segment 1     August 2008
 and segment 2.
Final Investment Decision on segment 1.....  3rd Qtr 2010
------------------------------------------------------------------------


                NEXTGEN NETWORKED ENABLED WEATHER (NNEW)
------------------------------------------------------------------------------------------------------------------------------------------------
Complete Mission Shortfall.................  October 2008
Initial Investment Decision................  1st Qtr 2009
Final Investment Decision..................  1st Qtr 2010
------------------------------------------------------------------------


                         NAS VOICE SWITCH (NVS)
------------------------------------------------------------------------------------------------------------------------------------------------
Initial Investment Decision................  3rd Qtr 2009
Final Investment Decision..................  3rd Qtr 2010
------------------------------------------------------------------------

Nextgen Demonstrations

------------------------------------------------------------------------
                                                         Date
------------------------------------------------------------------------
Continuous Descent Arrivals for AIRE--       May 2008
 Atlanta.
Continuous Descent Arrivals for AIRE--Miami  May 2008
Oceanic Trajectory Based Operations for      May 2008
 AIRE--Demonstration.
Surface Management Data Information          August 2008
 Sharing--JFK.
Tailored Arrivals for AIRE--Miami..........  September 2008
Time-based metering with aircraft            September 2008
 execution--3D PAM--human in the loop
 simulation.
Time-based metering with aircraft            September 2009
 execution--3D PAM--field trial Denver.
------------------------------------------------------------------------

Nextgen Solution Sets
            Trajectory Based Operations

                        OPERATIONAL IMPROVEMENTS
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Procedures with tailored separation to increase en route            2014
 efficiency..................................................
Oceanic In-trail Climb and Descent to improve aircraft              2013
 efficiency..................................................
Improve Oceanic flight efficiency by providing flexible entry       2013
 times to oceanic tracks.....................................
Provide point-in-space time based metering to congested             2013
 airspace to improve the execution of the Airspace Flow
 Program.....................................................
Provide Area Navigation above flight level 180 and RNP 1            2013
 navigation in terminal areas (where needed) by completing
 the DME network.............................................
------------------------------------------------------------------------

    By 2015 both en route domestic and oceanic airspace will have made 
strides toward efficient trajectory based operation.
    The oceanic airspace has been trajectory based since the 
implementation of the Advanced Technologies and Oceanic Procedures 
(ATOP) system. ATOP provides an oceanic conflict probe which allows the 
controllers to test user requests and allow more fuel efficient flight 
level changes. By 2015, we are planning three new improvements. The 
first, the in-trail climb and descent, will allow aircraft to use a 
reduced separation procedure to safely change flight levels where today 
the current separation would keep the aircraft at the less optimal fuel 
and emission altitude. The second improvement is the assignment of 
flight level at entry into the track system, providing decision support 
which will optimize entry time and level so the flight can fly a more 
advantageous level from entry. The third is to provide a reroute 
capability while on the tracks to provide a more efficient path. In 
ongoing demonstrations, fuel savings of at least 1 percent have been 
shown on Atlantic Oceanic tracks. This is a considerable savings given 
the long haul nature of the flights.
    We are also planning to improve capacity and flight efficiency in 
the domestic en route airspace. Having a full area navigation network 
in the en route supports reduces between track spacing, allowing for 
more routes in areas where current airspace restrictions limit the 
number of available routes. It also supports temporary routings around 
major weather systems helping to maintain available capacity. Access to 
congested airspace is enhanced by adding time-base metering to 
congested or weather impacted airspace. Time based metering assures an 
even delivery of aircraft to the congested airspace allowing for higher 
planning capacity and thus requiring fewer reroutes or delays. To 
support these navigation and flow improvements, controllers working 
higher altitudes are provided with information support to reduce the 
amount of special knowledge required to work a volume of airspace. This 
adds flexibility in the assignment of airspace to controllers and 
allows for more dynamic management of airspace to maintain capacity to 
meet congestion or weather demands.

                          ENABLING DEVELOPMENT
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Develop trajectory model upgrades to support RNP procedures         2011
 (target Mid-term ERAM--beyond the current 3 releases )......
Complete tech transfer of the NASA TSAFE algorithms to              2011
 improve conflict alert, update algorithms for conflict probe
 and alert to support procedures with varying separation
 minima (target mid-term ERAM)...............................
Multi-sensor Processing--Radar extends updates for ADS-B to         2012
 support the use of terminal procedures through the arrival
 departure airspace complete the algorithm and requirements
 development (target Mid-term ERAM)..........................
Develop display requirements, information system requirements       2013
 and decision support tool changes to expand the flexibility
 of controllers in the high altitude (target late release of
 Mid-term ERAM)..............................................
Complete tech transfer of NASA algorithms, complete                 2011
 development of requirements for airspace based point-in
 space metering. (target NextGen Traffic Management Advisor).
Purchase additional Distance Measuring Equipment to complete        2012
 the DME network providing area navigation everywhere above
 FL180 and RNP 1 in major terminal areas.....................
------------------------------------------------------------------------

            Integrated Arrival/Departures At High Density Airports

                        OPERATIONAL IMPROVEMENTS
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Provide Surface Traffic Management at High Density Airports         2013
 to improve the flow of aircraft on the airport surface
 assuring the right aircraft gets to the right runway in the
 right order to maximize throughput..........................
Provide enhanced time-based metering to major metropolitan          2011
 areas to provide time and fuel efficient entry to the
 airspace and improve utilization of airport runways.........
Integrated Arrival Departure Management to move the arrival         2015
 process into the higher altitudes to increase the efficiency
 and flexibility of managing arrival and departure flows into
 major metro-areas...........................................
------------------------------------------------------------------------

    Major metropolitan area airports and airspace are limited by 
interaction of traffic arriving to and departing from nearby airports. 
With demand at capacity and limited terminal airspace due to those 
multiple airports, any disruption in the arrival flow results in large 
delays. In current operations, the mixing of traffic in the en route 
airspace, because of larger en route separations and slower display 
update rates, limits the system's ability to fully utilize each runway. 
This removes capacity from the system and adds flight delays. On the 
surface, managing flow to and from the runways is essential. Getting 
the right aircraft in the right order to depart is essential to meet 
the demand and reduce delays.
    By 2015 we are planning three major improvements in high density 
arrival departure operations. The first is the delivery of surface 
traffic management systems (STMS). Using the data provide by the 
Airport Surface Detection Equipment, Model X (ASDE-X) and/or ADS-B, 
STSM provide the controller with traffic path advisories and departure 
lists for runways. This will sequence the flights so that the time 
between departures can be minimized, reducing overall taxi delays and 
maximizing capacity used. The second is enhancing traffic management 
advisor (TMA) to support major metro areas. While TMA is an effective 
tool and has provided benefits, enhancements which better support the 
arrival and departure to multiple ``interfering'' airports on the 
coasts will improve delivery to runways. Through time-based metering to 
the metro-area, better assignments of flights to arrival times can be 
made, minimizing delay and fuel and assuring arrival slots will not go 
to waste. The third improvement is integrating the arrival and 
departure airspace of the en route facilities with the terminal 
airspace in the major metro areas. In the integrated arrival/departure, 
the reduced separation standard of the terminal is used throughout the 
airspace. This will allow individual arrival procedures to be developed 
for each runway.

                          ENABLING DEVELOPMENT
------------------------------------------------------------------------
                                                            Fiscal Year
------------------------------------------------------------------------
Complete tech transfer of NASA algorithms, complete                 2011
 development of surface traffic management prototype in
 Memphis and Louisville, complete requirements,
 algorithms and display characteristics (target Terminal
 Flight Data Management (TFDM) System for
 implementation)........................................
Complete tech transfer of NASA algorithms, complete                 2010
 development of display requirements for time-based
 metering enhancements for major metro areas--move to
 investment decision on NextGen TMA.....................
Develop concepts of use for closely spaced parallel          2009, 2011,
 runway operations, develop information requirements            and 2013
 conduct trials (navigation solution between 4,300 down
 to 3,000 feet, onboard monitoring below 3,000 feet to
 ?, wake avoidance procedures or wake monitoring).......
------------------------------------------------------------------------

            Increase Flexibility In The Terminal Environment

                        OPERATIONAL IMPROVEMENTS
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Provide Wind-Base Wake Departure Procedures for Closely             2013
 Spaced Parallel Runways.....................................
Develop and certify a lower cost alternative to provide             2012
 category II and III--like precision approaches..............
Use Optimized Profile Descent to Minimize Fuel and Noise on         2016
 Approach--with Vertical Containment and Required Time of
 Arrival.....................................................
Provide optimal arrival throughput to closely spaced parallel    ( \1\ )
 runways by mitigating wake and blunder consideration........
Provide Full Surface Situation Information to NAS to support        2015
 improved flow coordination, and flight plan tracking........
------------------------------------------------------------------------
\1\ Multi-stepped with solutions for various runway spacing.

    By 2015 we are planning four operational improvements to airports 
and one overall improvement to the NAS. The first improvement is to 
provide wake departure procedures for closely spaced parallel runways 
in bad weather. There are 10 locations which can be supported by this 
procedure, increasing throughput in these wind conditions from 30 to 45 
operations per hour. Work will also take place on the increased use of 
closely spaced parallel runways. The ability of aircraft to fly precise 
paths will allow reduced spacing between aircraft on different closely 
spaced runways. The earliest phase should increase operations in bad 
weather from 30 to 45 per hour at five major airports. We are also 
planning that a low cost ground based augmentation system will be 
available to provide a low-cost alternative to category II and category 
III instrument landing systems (ILS), allowing airports to offer 
improved access and service. This is also a potential replacement over 
time for end-of-service life ILS. In many locations, continuous decent 
arrivals (CDA) are limited to off peak times due to the larger airspace 
protection requirements of the procedure and less precise arrival time. 
RNP 3D procedures with required time of arrival will provide many of 
the advantages of CDA's, reduce both lateral and vertical spacing 
requirements and deliver aircraft to the runway at the required time. 
This should increase throughput with reduced noise, fuel and emissions.
    The NAS improvement is the improved coordination of flight data 
within the tower/terminal and across the NAS. Terminal and tower flight 
data management is mostly unchanged since the 1960's. Updating flight 
data management for the terminal and tower is a key enabler for the 
integrated arrival/departure improvement of high density arrivals and 
departures. It also improves the overall tactical and strategic 
planning across the NAS by increasing the certainty of departure times 
and trajectory predictions.

                          ENABLING DEVELOPMENT
------------------------------------------------------------------------
                                                            Fiscal Year
------------------------------------------------------------------------
Complete implementation alternative analysis for                    2010
 implementation of WTMD, allocate requirements to
 automation system, complete initial investment decision
Certify LAAS for non-Fed Category I--like capability                2012
 (4th Qtr 2008), complete algorithm development, develop
 prototype system, complete set, certify prototype for
 category II and III-like capability, Publish standard..
Develop RNP 3D with required time of arrival criteria,              2012
 conduct field trails, develop information requirements
 for flight data management and decision support tools
 to support the controller issuing the clearance,
 prototype and test display requirements (target ERAM
 mid-term, TFDM and STARS/Common Arts)..................
Complete concepts of use, develop information                       2011
 requirements, prototype displays, develop system
 requirements and conduct safety case for full flight
 data management in terminal and tower..................
Develop concepts of use for closely spaced parallel          2009, 2011,
 runway operations, develop information requirements            and 2013
 conduct trials (navigation solution between 4,300 down
 to 3,000 feet, onboard monitoring below 3,000 feet to
 ?, wake avoidance procedures or wake monitoring).......
------------------------------------------------------------------------

            Improve Collaborative ATM

                        OPERATIONAL IMPROVEMENTS
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Provide flight specific trajectories for traffic management         2013
 initiatives.................................................
Provide enhanced flight data management by maintaining a            2015
 trajectory with updates for all flights in NAS..............
Provide full flight plan constraint evaluation with feedback.       2015
Provide On-demand NAS Information............................       2013
------------------------------------------------------------------------

    By 2015 we are planning several improvements to collaborative air 
traffic management which will improve the planning and execution of 
flight. The first is the implementation of flight specific traffic flow 
management initiatives. Today when major reroutes are required, since 
the system is voice and paper based, the plans are ``one-size-fits-
all.'' In the future the initiatives can be tailored to individual 
flights and better utilize available capacity. To do this the reroutes 
need to be delivered electronically to the sector controllers. This 
will be done by coupling the conflict probes trial plan function with 
the Traffic Flow Management-Modernization (TFM-M) system. To improve 
advisory service and flight planning, all NAS constraints will be 
managed in a common aeronautical information system and defined in a 
common way. Access to the necessary information is readily available. 
This will improve pilot situational awareness and ability to plan. A 
key improvement is that by moving to common information management any 
flight plan submission can be analyzed and full feedback on 
restrictions and advisories provide automatically.

                          ENABLING DEVELOPMENT
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Integrate execution of flow strategies into the NAS by              2012
 linking the strategic plan to the controller conflict probe
 and providing the reroutes as trial plans. (target ERAM mid-
 term, TFM-M work package 2).................................
Develop enhancements/algorithms to Airspace Flow Program that       2010
 incorporate the capacity improvement provided by point-in-
 space time-based delivery to the congested area (target TFM-
 M work package 2)...........................................
Develop a full concept of use for departure flow management         2010
 enhancements to strategic-flow, develop algorithms, test,
 and develop implementation requirements (target TFM-M work
 package 2)..................................................
Develop common status and infrastructure data framework for         2011
 NOTAMS, Flow Constrained Areas, altitude and speed
 restrictions found in letters of agreements between
 facilities, temporary flight restrictions--data standard,
 automated input if data, implementation requirements (target
 AIM Modernization)..........................................
------------------------------------------------------------------------

            Reduce Weather Impact

                        OPERATIONAL IMPROVEMENTS
------------------------------------------------------------------------
                                                              Initial
                                                          implementation
                                                            Fiscal Year
------------------------------------------------------------------------
Trajectory Based Weather Impact Evaluation..............            2013
------------------------------------------------------------------------

    By 2015 we are planning improvements to convective weather, 
turbulence and icing ``nowcast'' and forecasts improving pilot 
situational awareness and flight planning. We are also planning the 
first inclusion of direct automated evaluation of weather impacts on 
trajectories. By integrating weather information with trajectories, 
this is intended to improve traffic planning with less variation, thus 
increasing the use of capacity.

                          ENABLING DEVELOPMENT
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Weather Forecast Processor Improvements complete concept of         2011
 4D griddled weather information, initiate work to calibrate
 weather phenomena to aircraft type, technology assessment
 for air and ground weather observations, conduct final
 investment decision.........................................
------------------------------------------------------------------------

            Provide Airspace Security

                        OPERATIONAL IMPROVEMENTS
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Enhance airspace security monitoring.........................       2013
------------------------------------------------------------------------

    By 2015, we are planning to embed a security monitoring function 
within the air traffic automation. The system monitors and alerts the 
controller when action needs to be taken.

                          ENABLING DEVELOPMENT
------------------------------------------------------------------------
                                                                 Fiscal
                                                                  Year
------------------------------------------------------------------------
Integrate airspace safety classification and aircraft threat        2010
 assessment into NAS flight data management, aeronautical
 information management system, and controller conflict
 probes to automatically monitor flight movements against
 airspace (target Security Integrated Tool Set (SITS) and Mid-
 term ERAM)..................................................
------------------------------------------------------------------------

                                 asde-x
    Question. Why did the FAA attempt to keep the master ASDE-X 
schedule from the Inspector General?
    Answer. In November 2007, the ASDE-X Program provided internal 
working schedules to the OIG. These schedules were provided with the 
following note, ``The working schedule is the internal target schedule. 
The FAA is committed to meeting the dates in the waterfall schedule.''
    Previously, the FAA provided the Office of the Inspector General 
(OIG) with the official ASDE-X Waterfall schedule. The waterfall 
schedule is a public reporting tool that maps to the September 2005 
program baseline. It is a risk adjusted schedule that now only reports 
two high level milestones, equipment delivery and Initial Operating 
Capability (IOC).\2\ Planned Operational Readiness Date (ORD) dates are 
not included in the waterfall schedule because ORD is determined 
entirely by the site. Also, at IOC, the ASDE-X system is fully 
operational; air traffic controllers in the tower are using the ASDE-X 
system for live operations. (ORD is usually 30 days after IOC.)
---------------------------------------------------------------------------
    \2\ After IOC is declared, the system is considered fully 
operational. The air traffic controllers in the tower cab are using the 
system in what's known as the Operational Suitability Demonstration 
(OSD) period prior to ``commissioning'' the system. OSD is a time 
period during which the system is operated under intense scrutiny to 
ensure the system satisfies all operational requirements including: 
availability, compatibility, interoperability, reliability, 
maintainability, safety, human factors, and logistics supportability.
---------------------------------------------------------------------------
    To manage the program, the ASDE-X Program uses an internal master 
integrated working schedule to track all deployment activities 
including the development test and implementation of change orders 
(major software builds) and the retrofit of change orders into systems 
that commissioned with earlier software build. It is a site by site 
rolling schedule broken down by phase then by activity. The schedule 
dates in the working schedule are more aggressive to allow for 
contingencies without missing the baseline schedule dates.
    Question. You plan to install ASDE-X at 23 airports in half the 
time it took for you to complete the first 12. How will this be 
possible?
    Answer. As part of the FAA Acting Administrator's September 2007 
``Call to Action'', the FAA is expediting the overall ASDE-X deployment 
schedule. The FAA plans to complete deployment of 20 of the remaining 
23 airports by the end of 2010. The schedules for the last three ASDE-X 
systems (LaGuardia, Memphis, and Las Vegas) are dependent on or 
impacted by the airports' new airport traffic control tower schedules.
    The accelerated ASDE-X deployment schedule is possible because:
  --From fiscal year 2001 to fiscal year 2005, the FAA concentrated 
        ASDE-X program efforts on software development and system 
        enhancements. During this time only four systems achieved 
        Operational Readiness Date (ORD). With the planned software 
        development and system enhancements now complete, the FAA is 
        focusing all program efforts on system deployment.
  --ASDE-X systems are not deployed one airport at a time. Even though 
        it takes approximately 3 years for an ASDE-X system to become 
        operational at an airport, many activities are conducted in 
        parallel across all of the remaining airports. The FAA has 
        already started the implementation process for all of the 
        remaining 23 sites. The implementation process includes: site 
        survey, site design, lease approval, completion of 
        environmental requirements, site preparation and construction, 
        equipment installation, system optimization, training, and 
        acceptance and commissioning activities. The remaining 23 
        airports are in various phases of the implementation process.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
                            safety oversight
    Question. Do you believe airlines were complying with safety orders 
and advisories before all the groundings in March/April this year? Are 
you confident that all airlines are in compliance now?
    Answer. Given the results of our special validation of 
airworthiness directive management by the airlines--99 percent 
compliance rate for Phase 1 and 98 percent thus far for Phase 2--I am 
confident that both the airlines and the FAA are fulfilling their 
responsibilities. Of course, we must deal with any noncompliance within 
the authority and with the penalties public law and our regulations 
allow.
                         runway safety strategy
    Question. When will FAA update its national runway safety strategy, 
per FAA Order 7050.1?
    Answer. The draft National Runway Safety Plan is under review at 
FAA. We expect to publish the plan in November 2008.
                                 asde-x
    Question. The cost of the ASDE-X surface radar system has ballooned 
almost 50 percent to $806 million. Also, I understand it does not work 
in bad weather and it does not alert controllers of a potential 
collision. Will FAA have this system properly working in all 35 major 
airports by 2011 as the FAA has previously promised? When will Newark 
Airport have it?
ASDE-X Cost
    Answer. In September 2001, the total ASDE-X program baseline was 
$591.6 million to deploy and maintain (for the 30-year lifecycle) 26 
operational and 4 support systems. In September 2005, the FAA Joint 
Resources Council approved a rebaseline of the ASDE-X program. The new 
total program rebaseline was $806.4 million to deploy and maintain 35 
operational and 3 support systems. Additionally, in the rebaseline, the 
35 airports selected to receive ASDE-X systems were the airports with 
larger traffic counts and/or more complex operations (e.g. airports 
that use the same runways for arrivals and departures). So, once you 
account for the growth in scope (from 30 to 38 systems), the average 
cost per system only increased by less than 8 percent, from $19.72 
million to $21.22 million.
    The current ASDE-X program baseline costs are consistent with the 
September 2005 rebaseline estimates. In September 2005, the FAA Joint 
Resources Council (JRC) approved the ASDE-X program baseline at $549.8 
million for Facilities and Equipment (F&E) and $256.6 million for 
Operations and Maintenance (lifecycle), for a total of $806.4 million. 
(In other words, the FAA will spend $549.8 million to implement ASDE-X 
systems at 35 airports and $256.6 million in operations costs to 
maintain the systems through fiscal year 2030.) The table below shows 
the approved costs since the inception of the program.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                     Number of
                Program Baseline                       sites            F&E             Ops            Total
----------------------------------------------------------------------------------------------------------------
September 5, 2001...............................              26          $424.3          $167.3          $591.6
June 4, 2002....................................               7            80.9            55.5           136.4
                                                 ---------------------------------------------------------------
      Total.....................................              33           505.2           222.8           728.0
                                                 ===============================================================
September 9, 2005...............................              35           549.8           256.6           806.4
----------------------------------------------------------------------------------------------------------------

ASDE-X System Performance in Bad Weather
    The ASDE-X system works in bad weather. The FAA provided the 
following information in September 2007 to the OIG in response to their 
draft report on ASDE-X.

    ``Due to the nature of radar, heavy rains do have the potential to 
degrade radar performance. This is a fact for all radar systems, not 
just specifically for ASDE-X. However, because of improved radar 
processing and the addition of multilateration, the ASDE-X system 
performs significantly better in all levels of rain as compared to the 
ASDE-3 system. The ASDE-X Program also implemented a rain configuration 
system enhancement. Rain configuration was designed to allow the ASDE-X 
system to operate in full core alerting mode during inclement weather 
(including moderate to heavy rain). Suspected weather induced false 
tracks on the runway(s) are eliminated from ASDE-X safety logic 
processing; however, they remain as unknown icon(s) on the ASDE-X tower 
display.
    ``The specific case that the OIG references regarding `problems 
with dropped targets and subsequent system outages during heavy rain 
storms' comes from the FAA's Independent Operational Test & 
Evaluation's (IOT&E's) ASDE-X Upgrade Assessment Report. This 
assessment was completed in March/April 2007 at Louisville. 
Subsequently, the ASDE-X system was adapted to address all Louisville 
rain events so that a system outage would not occur in the event of 
heavy precipitation. After IOT&E and prior to commissioning, Louisville 
had three significant rain events without an outage. The facility was 
satisfied with the system performance and commissioned on July 19, 
2007.''
ASDE-X Schedule
    Yes, the FAA will have the ASDE-X system deployed and properly 
working at the 35 airports (in the September 2005 program baseline) by 
2011.
    As part of the FAA Acting Administrator's September 2007 ``Call to 
Action'', the FAA is expediting the overall ASDE-X deployment schedule. 
The FAA plans to complete deployment of 20 of the remaining 23 airports 
by the end of 2010. The schedules for the last three ASDE-X systems 
(LaGuardia, Memphis, and Las Vegas) are dependent on or impacted by the 
airports' new airport traffic control tower schedules.
ASDE-X Deployment at Newark Airport
    At Newark, the FAA is currently completing site preparation/
construction and equipment installation. Due to circumstances beyond 
our control (leases not being signed); work was stopped at the site for 
a few weeks earlier this year. All leases were completed late February 
2008. Newark is scheduled to achieve Initial Operating Capability (IOC) 
in July 2009.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
  small community air service development program (scasdp) grant for 
                               logan, ut
    Question. Given the fact that the grant was pulled without adequate 
notice, just as the negotiations with a carrier were about to conclude, 
do you see an opportunity to restore the rescinded grant funds in the 
immediate future, possibly in the next 60 to 90 days?
    Answer. The Department of Transportation (the Department) entered 
into a 2-year, $530,000 Grant Agreement with Logan Cache Airport 
(Logan) on September 17, 2004. The Agreement was scheduled to expire on 
September 17, 2006. However, the Department granted Logan a 1-year 
extension of its grant term to provide the community with an additional 
opportunity to meet its goals, thereby extending its grant term through 
September 17, 2007.
    The community requested a second term extension per a letter dated 
August 1, 2007, received by the Department on September 5. The 
Department denied the extension request for several reasons, including:
  --The Department has been both flexible and lenient with the 
        community and has allowed it to pursue its goals to secure an 
        agreement with an airline through September 17, 2007. After 
        granting one extension, the Department usually does not grant 
        another extension unless a community has a firm commitment from 
        a certificated carrier that it will begin providing service. In 
        this case, Logan did not provide any formal indication that an 
        agreement had been executed between the community and an 
        airline prior to the expiration of the grant. The Department 
        received a faxed letter of interest from Vision Airlines on 
        September 13 and an unsigned faxed letter from Frontier Lynx on 
        October 12, which was after the grant termination. Neither 
        letter included any clear service detail or start date. 
        Furthermore, at the time, Vision Airlines did not have part 121 
        certification and did not receive effective authority until 
        April 14, 2008.
  --In granting Logan its first extension, the Department provided the 
        community with several conditions that needed to be met if 
        further extensions were to be granted, including: (1) the need 
        to have an operational instrument landing system (ILS) at the 
        airport; (2) to be granted Transportation Safety Administration 
        (TSA) preparedness approval; (3) for Vision Airlines to secure 
        its part 121 certification and for the airline to secure the 
        Dornier aircraft including its delivery for service at the 
        airport; and, (4) a letter of intent by an airline, 
        certificated prior to the expiration of the grant, showing 
        interest in providing service to the community, including 
        service detail and start dates. Although the ILS was installed 
        it was not commissioned and published until after the grant 
        expired, December 20, 2007, and the Department did not receive 
        notification of the delivery of Vision's Dornier aircraft.
  --Section B.3. Special Conditions.--The Grant Agreement stipulates 
        that ``either party may seek to amend or modify this Grant 
        Agreement on 90 days' written notice to the other party. The 
        Grant Agreement will be amended or modified only on mutual 
        agreement by both parties.'' The Department received Logan's 
        request for a second extension only 2 weeks prior to the 
        termination date and timely written notice was not afforded.
    Once the Grant Agreement expires, so does the authority to extend 
its terms. Thus, at this time there is no further opportunity to 
restore the terminated grant funds. However, the community may always 
apply for another grant for a different project.
    Question. Clearly this is a priority for me and the 100,000 
constituents who live in the Logan Cache Metropolitan area. How would 
you suggest we resolve this issue?
    Answer. Like many small communities, Logan faces both funding and 
resource challenges in overcoming its air service deficiency and 
although the community was unable to take full advantage of the Small 
Community Air Service Development Program (Small Community Program) 
grant, it does not preclude the community from seeking future funds for 
a different project from the program. On April 1 the Department 
released a Request for Proposal providing communities with another 
opportunity to apply for fiscal year 2008 grant funds from the Small 
Community Program. The Department understands that Logan has submitted 
an application for consideration and we believe this is the correct 
approach by the community to move forward and seek further funding 
opportunities to resolve its air service issues. Grant proposals for 
fiscal year 2008 were due June 6. The Department is currently reviewing 
grant proposals and expects to select this year's recipients by the end 
of the fiscal year.
    Question. Will you work with my office and instruct your staff to 
identify some potential solutions to this funding crisis?
    Answer. The Department assists small communities with 
implementation of their Small Community Program projects by being a 
sounding board and providing limited guidance in completing their 
projects. However, the Department's Office of Aviation Analysis does 
not provide counseling to communities with regard to finding funds for 
securing air service at the community.
    The General Accountability Office (GAO) and The Office of Inspector 
General (OIG) have conducted reviews on the Small Community Program and 
this information may prove helpful to the community. The OIG has 
provided some information on projects that have proven successful. Both 
reports are available for communities to review on the Small Community 
Program's website at http://ostpxweb.dot.gov/aviation/X-
50%20Role_files/smallcommunity.htm#Funds.
                                 ______
                                 
            Questions Submitted to Hon. Calvin L. Scovel III
              Questions Submitted by Senator Patty Murray
               inspector staffing--inspection field time
    Question. General Scovel, what are your views on the need to give 
inspectors more time in the field inspecting aircraft rather than 
completing paperwork at a desk?
    Answer. We think it is important for FAA to ensure there is a good 
mix of desk top reviews of manuals and procedures, and on-site work to 
verify that the procedures have actually been implemented and are 
working properly. FAA has to find out exactly what that mix should be.
    We stress that we would not advocate a return to the old 
compliance-based ``kick the tires'' approach; but, FAA does need to 
make sure inspectors use an effective mix of hands-on inspections and 
paperwork reviews.
    If the Air Transportation Oversight System (ATOS) is used properly, 
FAA inspectors should be conducting ``hands-on'' inspections to verify 
whether systems, such as air carrier maintenance programs, are working 
effectively. In fact, it was during one of these ``hands-on'' type 
inspections that one of the whistleblowers discovered Southwest had not 
grounded aircraft that had not been inspected for fuselage cracks.
    The Southwest case clearly shows that FAA cannot rely solely on 
computer based manual/procedural reviews and must verify that air 
carriers are meeting all safety requirements.
           inspector staffing--foreign maintenance oversight
    Question. General Scovel, do you believe the FAA can adequately 
tackle all these expanded requirements and adequately oversee the 
foreign maintenance facilities while providing no increase in the 
number of inspectors in the coming years?
    Answer. Currently, FAA has approximately 4,000 safety inspectors. 
However, they do not have an adequate staffing model to determine the 
number of inspectors needed and the best locations for placement. Until 
FAA develops an adequate model, I do not know that any of us can say 
conclusively whether FAA has enough inspectors.
    FAA is working toward developing an improved staffing model in 
response to recommendations in a September 2006 staffing study 
conducted by the National Research Council. FAA recently finalized 
milestones for completing development and implementation of the model, 
and plans to implement it by October 2009.
    It is important for FAA to expedite completion of the model so the 
agency can reliably determine the number of inspectors needed to carry 
out its safety oversight mission.
  retaliation and harassment of inspectors--senior executives actions
    Question. General Scovel, based on your investigations of these 
incidents, do you believe that these three senior executives in the 
FAA's safety office did, in fact, eliminate all forms of 
discrimination, harassment, and retaliation?
    Answer. We have not specifically reviewed FAA's overall efforts to 
eliminate discrimination, harassment, and retaliation. However, as we 
reported, one of the FAA inspectors in the Southwest case was removed 
from his oversight duties for 5 months while he was investigated for a 
vague and non-specific hotline complaint filed against him. Further, 
this inspector was subjected to harassment for several months, 
including a veiled death threat. We believe this is a serious problem 
that FAA needs to ensure does not reoccur.
            retaliation and harassment of inspectors--safety
    Question. General Scovel, do you believe that safety is affected 
when the FAA relieves these employees from their inspection duties? 
What kind of signal does it send to the rest of the inspection force?
    Answer. In the case of the Southwest Airlines incident, removing an 
experienced FAA inspector from his oversight duties, particularly 
during a time when the principal inspector had developed an overly 
collaborative relationship with the air carrier, was not in the best 
interest of aviation safety. Because the timing of this action so 
closely coincided with the filing of the whistleblowers complaint, it 
sent a negative message to the rest of the inspector workforce 
regarding the consequences of bringing forward safety concerns.
    We saw similar problems when the inspector/complainant was removed 
from oversight duties during the Northwest Mechanics strike because of 
a complaint submitted against him by Northwest Airlines' officials. 
FAA's actions resulted in removal of an experienced inspector from 
oversight duties during a period when particularly close safety 
oversight of maintenance activities was needed at Northwest.
                   self-reporting (safety violations)
    Question. General Scovel, what do you believe the FAA needs to do 
in order to run this program (voluntary disclosures) effectively?
    Answer. We found several areas in which FAA could improve its 
implementation of this program.
    FAA must implement and enforce a process for second-level 
supervisory review of self-disclosures before they are accepted and 
closed. This process should not rest solely with one inspector. 
Specifically, FAA must ensure that its self disclosure guidance 
requires inspectors to (a) verify that air carriers take comprehensive 
actions to correct the underlying causes of violations identified 
through self disclosure programs and (b) evaluate, before accepting a 
new report of a previously disclosed violation, whether the air carrier 
developed and implemented a comprehensive solution.
                         controller experience
    Question. General Scovel, do you believe these retention bonuses 
will be sufficient to make sure that we don't have an experience 
shortage when it comes to managing the growing amount of air traffic as 
well as training all the new controller recruits that need to be 
trained?
    Answer. Whether the retention bonuses will be sufficient to 
maintain an appropriate level of experienced controllers is uncertain. 
FAA only started offering the bonuses in January of this year, so the 
results of the effort are not yet known. In our June 5, 2008 report \1\ 
on facility training we recommended that FAA include the results of the 
Agency's use of retention bonuses in the next update to the Controller 
Workforce Plan. FAA agreed to provide us with the results of the 
bonuses to date. We are currently awaiting FAA's response. Once we 
receive that information, we will be in a better position to determine 
if the retention bonuses will be sufficient for ensuring we do not have 
an experience shortage. We will provide this Subcommittee with periodic 
updates on this important issue.
---------------------------------------------------------------------------
    \1\ OIG Report Number AV-2008-055, ``Review of the Air Traffic 
Controller Facility Training Program,'' June 5, 2008.
---------------------------------------------------------------------------
              controller experience and safety--oversight
    Question. General Scovel, why would a direct line of oversight at 
headquarters improve the consistency of training at each facility?
    Answer. In our June 5, 2008 report on facility training, we found 
that FAA's facility training program continued to be extremely 
decentralized and the efficiency and quality of the training varied 
extensively from location to location. We found similar problems in 
2004.
    According to FAA Headquarters officials, after FAA created the Air 
Traffic Organization (ATO), it assigned national oversight 
responsibility for facility training to the ATO's Vice President for 
Terminal Services and Vice President for En Route and Oceanic Services. 
In addition, the ATO's Vice President for Acquisition and Business 
Services oversees new controller hiring and the FAA Academy training 
program, and the Senior Vice President for Finance oversees the 
development of the Controller Workforce Plan. All four offices play key 
roles in the controller training process.
    Because of these overlapping responsibilities, we found significant 
confusion at the facility level. For example, during our review, 
facility managers, training managers, and even Headquarters officials 
were unable to tell us who or what office was ultimately responsible 
for facility training. In order to maintain consistency in the facility 
training programs, we recommended that FAA communicate who has the 
authority and responsibility for oversight and direction of the 
facility training. FAA agreed with our recommendation and has recently 
established a new senior position in the Air Traffic Organization that 
is responsible for training.
 automatic dependence surveillance-broadcast (ads-b)--runway incursions
    Question. Could you explain why the ADS-B technology offers an 
important solution to runway incursions?
    Answer. One key to reducing accidents caused by runway incursions 
is to provide ``shared situational awareness'' where both the pilot and 
controller are viewing a common picture of surrounding traffic on 
runways and taxiways. ADS-B technology can meet these needs by 
providing critical flight information simultaneously to both pilots and 
air traffic controllers. In essence, ADS-B can provide a ``second set 
of eyes'' in the cockpit in all weather conditions--something that does 
not exist today.
    However, it is important to recognize that FAA plans to only 
mandate ``ADS-B Out,'' where aircraft will broadcast their position to 
ground systems for use by air traffic controllers. FAA does not intend 
to mandate the use of ``ADS-B In'' and the use of cockpit displays 
which would allow aircraft and ground vehicles to see each other. We 
note that the majority of safety and capacity benefits are associated 
with ``ADS-B In''.
    While most stakeholders agree that ADS-B is a part of the future, 
there are significant concerns about FAA's approach with regard to 
costs, requirements, and lack of clearly defined benefits for airspace 
users. We will issue a report on the risks facing successful 
implementation of ADS-B later this year.
                                nextgen
    Question. General Scovel, do you think these are the right 
milestones?
    Answer. There is considerable uncertainty about NextGen milestones 
and what can reasonably be expected from Agency investments in the 
short- and long-term. Right now, FAA does not have reliable milestones 
and cost estimates for NextGen. We think much work remains for FAA to 
establish realistic cost and schedule estimates for key NextGen 
capabilities, such as data link and the concepts for advanced 
automation that are expected to boost controller productivity.
    The milestones identified in the FAA's fiscal year 2009 budget 
request focus on research and development activities. They primarily 
involve NextGen demonstration projects and funding for programs such as 
the Automatic Dependent Surveillance--Broadcast, for which the agency 
is requesting $300 million in fiscal year 2009 to support nationwide 
implementation of the ground-based infrastructure.
    As we noted in our April report on FAA's modernization efforts, 
some progress has been made with the NextGen Enterprise Architecture 
and Concept of Operations. However, these planning documents remain at 
a very high level and lack details on requirements that translate into 
reliable cost and schedule estimates. Also, it is unclear what FAA 
should invest in first.
    Therefore, we recommended that FAA conduct a ``gap analysis'' 
between today's system and the NextGen targeted for 2025. We also 
recommended that FAA develop an interim architecture or ``way point'' 
for NextGen in the 2015 timeframe. These reviews will help determine 
technical requirements that can translate into cost and schedule 
estimates for NextGen. FAA concurred with our recommendations.
    Question. Do you think they will be achievable and affordable by 
2015?
    Answer. The development of NextGen is important and will shape 
FAA's capital budget for years to come. However, until FAA provides 
more clarity with respect to what can be accomplished in the 2015 
timeframe, we cannot determine what is achievable and affordable in 
that timeframe. We understand that FAA is looking at what can be 
accelerated and what can be done in the mid-term. A clearer picture 
should emerge later this year.
          airport surface detection equipment model-x (asde-x)
    Question. General Scovel, do you agree that the FAA's ASDE-X 
timetable is achievable?
    Answer. It is aggressive and given the history of this program it 
is certainly a high-risk timetable. While FAA has decided to accelerate 
ASDE-X deployment at some sites, we remain concerned whether or not FAA 
can complete ASDE-X with all planned capabilities within the current 
cost baseline of $549.8 million.
    FAA is planning to accelerate ASDE-X deployment at New York's John 
F. Kennedy airport by 1 year from 2009 to 2008; and accelerate the 
overall deployment schedule to 2010. However, FAA has told us that 
three airports (LaGuardia, Las Vegas, and Memphis) will not be included 
in the ASDE-X accelerated schedule. ASDE-X deployment at these three 
airports must be aligned with construction schedules for new airport 
traffic control towers. Additionally, history shows that each airport 
is unique--and will require ``significant'' customization to help 
controllers get the most benefit from the system.
    According to ASDE-X program officials, plans to accelerate the 
ASDE-X deployment may impact the overall program costs. FAA is planning 
to shift ASDE-X funds planned for future efforts (e.g., 2010 and 2011) 
back into 2008 and 2009, to accelerate the program. FAA is currently 
determining what impact accelerating ASDE-X will have on the cost and 
schedule parameters. FAA is expecting to complete this review by July 
2008.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
                      national runway safety plan
    Question. FAA policy requires the agency to have a national runway 
safety plan and look at it every 2 to 3 years. But the FAA hasn't 
updated it since 2002. You--as well as the Government Accountability 
Office--have recommended that the FAA needs to update its national 
runway safety plan immediately. What are the dangers of not making 
these updates?
    Answer. Without a current National Runway Safety Plan, FAA can not 
be assured that it is focusing it resources in the right places, thus 
increasing the risk of a runway incursion or even an accident. In 
addition, without a plan, FAA has no mechanism to hold responsible 
parties accountable for taking actions to reduce these incidents.
    For example, as we reported in our May 2007 report,\2\ the 2002 
National Plan for Runway Safety, included 11 initiatives assigned to 
FAA's Flight Standards Office to help reduce runway incursions caused 
by pilot deviations. However, Aviation Safety (the line of business 
that includes Flight Standards) did not include any initiatives 
specific to runway incursions in its fiscal year 2005 through fiscal 
year 2007 business plans.
---------------------------------------------------------------------------
    \2\ OIG Report Number AV-2007-050, ``Progress Has Been Made in 
Reducing Runway Incursions, but Recent Incidents Underscore the Need 
for Further Proactive Efforts,'' May 24, 2007. OIG reports can be found 
on our website at www.oig.dot.gov.
---------------------------------------------------------------------------
    This was despite the fact that runway incursions caused by pilot 
deviations continue to account for over 50 percent of all runway 
incursions and were at their highest levels in fiscal year 2006 since 
fiscal year 2002. Also, the most serious pilot deviations experienced a 
100-percent increase, rising from 9 in fiscal year 2005 to 18 in fiscal 
year 2006.
                    airline self-policing on safety
    Question. Do you feel the FAA can rely on the airlines to police 
themselves on safety to the extent they have been doing?
    Answer. The U.S. enjoys an impressive safety record and we are 
fortunate to have only had a few accidents in the past 7 years. The 
chain of events that unfolded at Southwest is very troublesome and show 
signs of complacency on FAA's part. There cannot be any substitute for 
strong government oversight.
    In the case of Southwest, the facts clearly show that the pendulum 
swung too far away from enforcement and oversight to collaboration and 
partnership at the office responsible for oversight of Southwest.
    Regulatory partnership programs can have value by identifying and 
correcting safety issues that might not otherwise come to light. 
However, FAA cannot rely too heavily on self disclosures at the expense 
of rigorous oversight and enforcement.
       controller fatigue and certified professional controllers
    Question. Do you believe that current FAA practices give air 
traffic controllers enough rest so that they won't be subject to 
fatigue when managing air traffic?
    Answer. At the request of Senator Durbin of Illinois, we are 
currently reviewing factors that could affect controller fatigue.
    Thus far, we have identified several factors that could contribute 
to controller fatigue, including work schedule and scheduling 
practices. Specifically, we found that schedules with minimal time 
between shifts for controller rest may contribute to fatigue.
    At the three Chicago air traffic facilities we visited, controllers 
work a schedule consisting of two consecutive night shifts, followed by 
two consecutive day shifts, followed by one midnight shift. The 
schedule is characterized by progressively early start times throughout 
the workweek and two ``quick turn'' shifts in which rest periods 
between shifts are close to the 8-hour legal minimum.
    The National Transportation Safety Board (NTSB) has also expressed 
concerns about the impact of fatigue on the performance of shift-
working controllers and its impact on the safety of the National 
Airspace System. For example, in its investigation of Comair flight 
5191, the NTSB expressed concerns that the lone controller on duty at 
the time of the accident (although he had 8 hours off between shifts) 
had only slept about 2 hours before his shift. As a result of its 
investigation at Lexington, the NTSB added controller fatigue to its 
``Most Wanted List'' in 2007.
    We are continuing our review and determining (1) the extent with 
which fatigue factors are occurring and (2) what efforts FAA is taking 
to address them. We plan to issue our final results later this year.
    Question. Are there enough certified professional controllers (CPC) 
in the ranks?
    Answer. As a result of increasing controller attrition, FAA is 
facing a fundamental transformation in the composition of its 
controller workforce. The overall percentage of developmental 
controllers in the controller workforce has grown substantially over 
the past 3 years. From April 2004 to December 2007, the overall size of 
the controller workforce remained relatively constant; however, during 
the same period, the number of controllers in training increased by 
1,375, or 62 percent, while the total number of CPCs decreased by 
1,302. As a result, FAA is now training more new controllers than it 
has in the past 15 years.
    FAA states that the number of controllers in the workforce for 
fiscal year 2007 was 14,874, more than their projected goal of 14,807. 
However, FAA does not differentiate between CPCs and controllers in 
training in these numbers. FAA only reports the total number of 
controllers at each location. In our report on controller facility 
training, we recommended that FAA report the number of CPCs and the 
number of controllers in training separately for each location in its 
next update to the Controller Workforce Plan. Differentiating those 
figures by location could provide Congress and the Secretary with 
critical data on the current composition of the controller workforce 
and provide a benchmark for year-to-year comparisons.
    FAA did not agree with our recommendation and stated that it does 
not believe that providing a snapshot of this information once a year 
captures the status of the controller workforce. We strongly believe 
that periodic comparisons of the controller workforce provide critical 
data points for the Congress, the Secretary, and other stakeholders who 
must ensure FAA has enough CPCs to safely operate the National Airspace 
System. This is particularly important given the length of time 
required for new controllers to become CPCs. Training new controllers 
to the CPC level is critical because only CPCs are qualified to control 
traffic at all positions of their assigned area, and only CPCs can 
become OJT instructors for other new controllers. Having enough OJT 
instructors at all locations is a vital part of FAA's plan to hire and 
train 17,000 new controllers through 2017. We therefore requested that 
FAA reconsider its position on this recommendation.
                           low-fuel landings
    Question. Thank you for your recent report to me on low-fuel 
landings at Newark Liberty International Airport. Given the high fuel 
prices, do you believe the FAA is doing a adequate job of monitoring 
whether airlines are providing sufficient amounts of fuel to its planes 
on these overseas trips and other flights?
    Answer. In February 2008, during the same time as our review, FAA 
conducted a parallel review of low fuel landings at Newark Airport. As 
a result of this review, FAA initiated action to address issues 
identified during its review that were similar to those we had 
identified. For example, FAA issued two bulletins to all air carriers 
to provide a common reference for the terms minimum and emergency fuel 
for both pilots and air traffic controllers. FAA has also begun working 
with airlines throughout the country to gather fuel management 
information from several different sources. According to FAA, the 
information it gathers will allow the Agency to undertake a thorough 
review of the issues and take appropriate action as warranted. We will 
continue to monitor FAA's actions to ensure they fully address the 
problems we identified at Newark.
               low-fuel advisory vs. on-time performance
    Question. Do you believe pilots are claiming to be in low-fuel 
advisory situations in order to meet on-time performance goals? Are any 
pilots who operate out of Newark Airport compensated based on on-time 
performance?
    Answer. We collected no evidence that low-fuel declarations are 
connected to on-time performance goals. We would have to perform 
additional audit work to make this determination.
                   auctioning ``slots'' at laguardia
    Question. The FAA recently proposed auctioning off landing rights--
or ``slots''--for flights into and out of LaGuardia Airport, which is 
operated by the Port Authority of New York and New Jersey. In your 
opinion, is this proposal likely to result in higher fares for 
passengers on those flights?
    Answer. We have not looked into this in detail but have some 
observations. The current FAA proposal contemplates extending the 
hourly cap (75 scheduled operations) on flight operations at New York's 
La Guardia airport (LGA) and grandfathering a majority of the existing 
operating authorization or ``slots'' to the carriers serving that 
airport today. A slot refers to one scheduled arrival or departure 
operation during a specific 30-minute period.
    Additionally, FAA is proposing that up to 20 percent of the slots 
awarded to incumbent carriers will revert back to the FAA over a 4-year 
period. FAA contemplates that these slots will either be retired to 
relieve congestion at LGA or auctioned to the highest bidder.
    We believe that it is unlikely that fares on existing flights will 
increase as a direct result of the slot auctions proposed by the FAA 
for two reasons. First, the current FAA proposal does not materially 
reduce the number of hourly flight operations at LGA. Consequently, to 
the extent that the limitations on the number of flights would allow 
for any fare premiums, carriers currently operating at LGA should have 
already incorporated them into existing fares. Second, we do not expect 
there to be a significant shift in the mix of carriers serving the 
airport and, thereby, any change in the degree of competition. Given 
the limited number of slots to be auctioned, there is little likelihood 
that any bidder will be able to acquire a sufficient number of the 
available slots to materially alter the competitive landscape.
    FAA's proposal to auction slots at LGA could alter the mix of 
markets served by LGA. The highest bidder for any available slot will 
be the carrier who can generate the highest return from it. A carrier 
can generate a high return from its investment in a slot by using it to 
service a market for which there is relatively high unmet demand, and a 
large share of that demand is for business travel. We could see 
instances where providing service to small communities may not be the 
most profitable use of a slot. Therefore, implementation of the 
proposal, absent some form of mechanism to protect small community 
access, could likely result in a decline or elimination of service to 
small communities.

    Senator Murray. Mr. Sturgell, sorry to be so hard on you, 
but believe me, it is frustrating as the chairman of this 
subcommittee to have the same conversation year after year and 
then to see hundreds of thousands of passengers being delayed, 
inconvenienced, people questioning the safety of the airlines, 
and I know there's a good record out there in terms of safety 
and I commend you for that, and I also know there's some great 
workers at the FAA who go to work every day and really do an 
excellent job and they are to be commended, but they need to 
know the direction from the top down, that the passengers are 
who the FAA considers to be their customer, not someone else.
    Mr. Sturgell. I do appreciate that and I particularly 
appreciate the comments about the employees at the FAA because 
they do do a great job.
    Thanks.
    Senator Murray. I appreciate that.

                         CONCLUSION OF HEARING

    Thank you and this subcommittee will be recessed subject to 
the call of the Chair.
    Thank you.
    [Whereupon, at 12:13 p.m., Thursday, April 17, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
